U.S. Department of Housing and Urban Development




                                                   Office of Inspector General
                                                    Semiannual Report to Congress

                                                   April 1, 2003 through September 30, 2003
                                                           PROFILE OF PERFORMANCE
                                                                                    for the period
                                                             April 1, 2003 through September 30, 2003

                        Audit and Investigation Results                                        Audit              Investigation             Combined                 FY 2003
    Recommendations That Funds Be Put to Better Use                                        $26,749,669                                     $26,749,669          $1,301,671,356
    Management Decisions on Audits with Recommendations That
                                                                                         $1,172,264,405                                  $1,172,264,405         $1,291,544,777
      Funds Be Put to Better Use
    Questioned Costs                                                                      $49,455,4951                                    $49,455,4951            $63,624,582
    Management Decisions on Audits with Questioned Costs                                  $46,447,3352                                    $46,447,3352            $58,188,577
    Indictments/Informations                                                                                            588                     588                     848
    Convictions/Pleas/Pre-Trial Diversions                                                                              285                     285                     471
    Months in Prison                                                                                                   3,272                   3,272                  6,556
    Months of Probation                                                                                                7,071                   7,071                  12,533
    Hours of Community Service                                                                                         7,085                   7,085                  8,470
    Investigative Recoveries/Receivables                                                                          $321,222,162            $321,222,162            $386,436,396
    Collections from Audits                                                               $17,403,1653                                    $17,403,1653            $24,686,324
    Administrative Sanctions                                                                      5                     233                     238                     479
    Personnel Actions                                                                                                    28                      28                     80
    Arrests                                                                                                             8124                    8124                  1,064
    Search Warrants                                                                                                      33                      33                     57
    Weapons Seized                                                                                                        3                       3                     12
    Value of Drugs Seized                                                                                            $108,229                $108,229               $118,249
    Subpoenas Issued                                                                             10                     274                     284                     533



1
    Amount shown in the Profile of Performance from questioned costs shown in Table C was reduced by $400,000 for report number 2003-CH-1802 and $209,470 for report number 2003-NY-
    1801 because the Office of Investigation has claimed this amount in their statistics.
2
    Amount shown reduced in the Profile of Performance from questioned costs in Table C was reduced by $209,470 for report number 2003-NY-1801 because the Office of Investigation has
    claimed this amount in their statistics.
3
    Collections reduced by $7,857 which represents collections on a court ordered settlement on report number 2000-FW-1003 which was claimed by the Office of Investigation.
4
    Figures include arrests derived through Fugitive Felon and Tenant Criminal Violation Initiatives.
INSPECTOR GENERAL’S MESSAGE

    As we complete our most recent Semiannual Report to the Congress, we in
the Office of Inspector General of the Department of Housing and Urban Devel-
opment (HUD OIG) are marking the twenty-fifth anniversary of the Inspector
General Act. The Act, which authorized the HUD OIG as one of the original
twelve statutory Offices of Inspector General, mandated that we combat waste,
fraud, and abuse and identify ways to improve the economy and efficiency of
Departmental programs and operations. The HUD OIG, however, was established
by an administrative act of the Secretary on January 29, 1972. With the signing of
the Inspector General Act of 1978, the establishment of Offices of Inspector
General in the Executive Branch became a matter of law.

     We in the HUD OIG are serving the American taxpayer by protecting the
integrity of the Federal Government in conducting audits, including financial
statement and internal control reviews, and investigations, including white collar crime and fugitive felon investiga-
tions. Allegations of Departmental employee misconduct are taken seriously and investigated by our Special Investi-
gations Division. In addition, we assess information security efforts, report on Departmental compliance and
accountability, and identify the most significant management and performance challenges.

    When I was sworn in as Inspector General in March of 2002, I stated that my primary goal was to improve the
HUD OIG while ensuring that we focused our efforts on our core mission, as mandated by the IG Act. I believe that
we have made great strides toward this goal and that this is reflected in the accomplishments highlighted in this
Report and by our own return on investment rates. During this six-month reporting period alone, we are reporting
HUD management decisions on audit recommendations with funds to be put to better use of $1.1 billion and ques-
tioned costs of $46.4 million. Also, we issued audits identifying $26.7 million in funds to be put to better use and
$49.4 million in questioned costs. Collections from audits amounted to $17.4 million. On the investigative side, our
recoveries and/or receivables totaled over $320 million; indictments and/or informations were issued against 588
individuals or entities; and convictions and pleas numbered 285. Those who violated HUD rules and regulations
were sentenced to a total of 3,272 months in prison.

    Moreover, the OIG recently launched a Fugitive Felon Initiative in an effort to identify HUD housing assistance
recipients who are criminal fugitives from justice. This joint effort with the U.S. Marshals Service will serve to
apprehend fugitives and probation/parole violators. As of September 30, 2003, 134 fugitives residing in HUD assisted
housing had been arrested. The OIG has also conducted a number of investigations in order to remove tenants in
public housing who commit fraud and other criminal violations. During the last six months, 66 housing assistance
tenants were charged with criminal violations and were evicted or are in the process of being evicted.

    As all of these numbers affirm, our last six months’ work clearly illustrates our productivity. As we progress to
the next reporting period, we are motivated by our current accomplishments to exceed our objectives.

    The audits and investigations highlighted in this Report examine a number of continuing issues we have raised in
past Reports, including fraud and abuse in HUD’s Single Family Mortgage Insurance Programs and fraudulent
payments of rental subsidies in Public and Indian Housing Programs. In addition, we are reporting on the results of
the second in a series of reviews of the use of Community Development Block Grant Disaster Assistance Funds
provided to the State of New York following the terrorist attacks on the World Trade Center.
    In our discussion of the audit resolution process, we are pleased to report that, for the fifth consecutive semian-
nual reporting period, we have no items to report on significant audits where a management decision had not been
reached for audits that were more than six months old. We attribute this significant accomplishment to the ongoing
support and cooperation provided by the Department and their priority on expeditiously resolving OIG audit report
recommendations. In each of our Semiannual Reports, we discuss what we have determined to be HUD’s most
serious management and performance challenges. Though we continue to report on these issues, we are encouraged
that HUD management places the highest priority on correcting these weaknesses. Recent operational changes made
by the Department represent positive steps toward addressing these challenges.

    In an effort to develop productive relationships with agencies and organizations whose work assists in the
accomplishment of HUD’s mission, our office continues to participate in outreach efforts with HUD staff and outside
constituent groups, including the National Association of Housing and Redevelopment Officials and the Public
Housing Authorities Directors Association. We continue to support the Financial Crimes Enforcement Center, the
Federal Law Enforcement Training Center, and the Inspector Training General Academy by providing staff re-
sources in order that these organizations might better support the IG community. In addition, the OIG has become an
active partner with several universities and other learning institutions in creating opportunities for students and
contributing to professional development.

    Though I have had the opportunity to serve as the HUD Inspector General for only a short time in relation to the
twenty-five plus year history of this organization, I am reminded daily of the outstanding contribution and dedication
of OIG employees. In addition to striving toward excellence in fulfilling the OIG mandates, time and time again our
employees have risen above their own obligations. They manned the law enforcement hotlines during the Washington
sniper investigation, assisted the FBI in anti-terrorist activities even after our own offices were destroyed in the
World Trade Center on September 11, 2001, and initially flew as air marshals to help secure commercial airlines.
They also aided the National Aeronautics and Space Administration in recovery operations after the February 1,
2002 Shuttle disaster. We also remember and profoundly thank all our OIG employees and employees’ spouses who
have been called to military duty and pray for their safe return.

    I strongly believe that the HUD OIG has had a positive impact on the Department’s performance. I thank the
dedicated men and women of the OIG for all their efforts and unfailing support not only for the mission of the OIG,
but also for the mission of the entire Department. We will continue to work with Secretary Martinez to achieve our
common goal of detecting and preventing waste, fraud, and abuse and improving government operations.




                                                         Kenneth M. Donohue
                                                         Inspector General
Information About the HUD Office of Inspector General

   HUD’s Office of Inspector General is one of the original 12 designated by the Inspector General Act of 1978. The OIG oversees HUD’s
programs and operations with its audit and investigative personnel. While organizationally located within the Department, the OIG has separate
budgetary authority. The IG’s mission is to provide independent and objective reporting to the Secretary and the Congress. OIG activities seek to:

¾    Promote efficiency and effectiveness in programs and operations;
¾    Detect and deter fraud and abuse;
¾    Investigate allegations of misconduct by HUD employees; and
¾    Review and make recommendations regarding existing and proposed legislation and regulations affecting       HUD.


    The Executive Office and the Offices of Audit, Investigation, Counsel, and Management and Policy are located in Headquarters. Also, the
Offices of Audit and Investigation have field staff located in ten regions and many field offices.



                OIG Cost of Operations 10/01/02 to 09/30/03                                 OIG Results 10/01/02 to 09/30/03 - $1.75 billion
                              - $96.7 million
                                                                                                                         $63,624,582
                                                 $8,637,607                                                               Questioned
                                                Administration                                                              Costs
                                                                                   $386,436,396
                                                & Operations
     $19,631,091                                                                   Investigative
       Centrally                                                                    Recoveries/
       Managed/                                                                     Receivables
    Funded Services


                                                                                                                                       $1,301,671,356
                                                                                                                                        Funds Put to
                                                        $68,443,762                                                                      Better Use
                                                         Personnel
                                                          Services




                                        OIG Return on Investment: $1.75 billion/$96.7 million = 18 to 1 return
                                         Reporting Requirements

      The specific reporting requirements as prescribed by the Inspector General Act of 1978, as amended by
                      the Inspector General Act Amendments of 1988, are listed below:

                                        Source/Requirement                                             Pages

Section 4(a)(2)-review of existing and proposed legislation and regulations.                           95-97

Section 5(a)(1)-description of significant problems, abuses, and deficiencies relating to the
administration of programs and operations of the Department.                                        1-85, 99-102

Section 5(a)(2)-description of recommendations for corrective action with respect to signifi-
cant problems, abuses, and deficiences.                                                                 7-85

Section 5(a)(3)-identification of each significant recommendation described in previous             Appendix 2,
Semiannual Reports on which corrective action has not been completed.                                 Table B

Section 5(a)(4)-summary of matters referred to prosecutive authorities and the prosecutions
and convictions that have resulted.                                                                     7-85

Section 5(a)(5)-summary of reports made on instances where information or assistance was
unreasonably refused or not provided, as required by Section 6(b)(2) of the Act.                    No instances

Section 5(a)(6)-listing of each audit report completed during the reporting period, and for
each report, where applicable, the total dollar value of questioned and unsupported costs and       Appendix 1
the dollar value of recommendations that funds be put to better use.

Section 5(a)(7)-summary of each particularly significant report.                                        7-85

Section 5(a)(8)-statistical tables showing the total number of audit reports and the total dollar   Appendix 2,
value of questioned and unsupported costs.                                                           Table C

Section 5(a)(9)-statistical tables showing the total number of audit reports and the dollar value   Appendix 2,
of recommendations that funds be put to better use by management.                                    Table D

Section 5(a)(10)-summary of each audit report issued before the commencement of the report-         Appendix 2,
ing period for which no management decision had been made by the end of the period.                  Table A

Section 5(a)(11)-a description and explanation of the reasons for any significant revised
management decisions made during the reporting period.                                                101-102

Section 5(a)(12)-information concerning any significant management decision with which the          No instances
Inspector General is in disagreement.

Section 5(a)(13)-the information described under section 05(b) of the Federal Financial
Management Improvement Act of 1996.                                                                     102
                                                Table of Contents
Chapter 1 - HUD’s Management and Performance Challenges ............................................................ 1

Chapter 2 - HUD’s Single Family Housing Programs
       Audits ..................................................................................................................... 7
       Investigations ............................................................................................................ 10
       OIG Offices of Audit and Investigation - Joint Efforts ............................................................. 26

Chapter 3 - HUD’s Public and Indian Housing Programs
       Audits .................................................................................................................... 29
       Investigations ........................................................................................................... 37
       OIG Offices of Audit and Investigation - Joint Efforts ............................................................. 54
       Fugitive Felon Initiative ............................................................................................... 55

Chapter 4 -HUD’s Multifamily Housing Programs
       Audits .................................................................................................................... 57
       Investigations ............................................................................................................ 60

Chapter 5 -HUD’s Community Planning and Development Programs
       Audits .................................................................................................................... 67
       Investigations ............................................................................................................ 76
       OIG Offices of Audit and Investigation - Joint Efforts ............................................................. 80

Chapter 6 - Other Significant Audits and Investigations
       Audits .................................................................................................................... 83
       Investigations ............................................................................................................ 85

Chapter 7 - Outreach Efforts ................................................................................................... 87

Chapter 8 - Regulations and Other Directives
       Regulations .............................................................................................................. 95
       Notices ................................................................................................................... 95
       HUD Standard Forms.................................................................................................. 96
       Testimony ................................................................................................................ 96

Chapter 9 - Audit Resolution
       Delayed Actions ......................................................................................................... 99
       Significant Revised Management Decisions ....................................................................... 101
       Federal Financial Management Improvement Act of 1996 (FFMIA) ........................................... 102

Appendix 1 — Audit Reports Issued
Appendix 2 — Table A - Audit Reports Issued Prior to Start of Period with No Management Decision at
                       09/30/03
             Table B - Significant Audit Reports Described in Previous Semiannual Reports Where Final
                       Action Had Not Been Completed as of 09/30/03
             Table C - Inspector General Issued Reports with Questioned and Unsupported Costs at
                       09/30/03
             Table D - Inspector General Issued Reports with Recommendations that Funds Be Put To Better
                       Use at 09/30/03
Chapter 1 — HUD’s Management and Performance Challenges

The HUD Office of Inspector                               plish this through a wide variety of housing and
                                                          community development grant, subsidy, and loan
General                                                   programs. HUD’s budget approximates $31 billion
                                                          annually. Additionally, HUD assists families in obtain-
     This year marks the 25th anniversary of the
                                                          ing housing by providing Federal Housing Administra-
Inspector General Act of 1978. The HUD Inspector
                                                          tion (FHA) mortgage insurance for single family and
General is one of the original 12 Inspectors General
                                                          multifamily properties. FHA’s outstanding mortgage
authorized under the Act. Over the years, our audit
                                                          insurance portfolio exceeds one half trillion dollars.
and investigative staff have forged a strong alliance
                                                          Ginnie Mae, through its Mortgage-Backed Securities
with HUD personnel in identifying ways to improve
                                                          Program, gives issuers access to capital markets
Departmental programs and operations. We strongly
                                                          through the pooling of federally insured loans.
believe that we have made a difference in HUD’s
performance and accountability over the last quarter           While HUD is a relatively small agency in terms
of a century. We are committed to our statutory           of staff, about 9,300 nationwide, it relies on the
mission of detecting and preventing waste, fraud, and     performance and integrity of numerous other partners
abuse, and promoting the effectiveness and efficiency     to administer a large number of diverse programs.
of government operations. While organizationally we       Among those administrators are hundreds of cities
are located within the Department, we operate             that manage HUD’s Community Development Block
independently with separate budgetary authority. This     Grant funds, hundreds of Public Housing Authorities
independence allows for clear and objective reporting     that manage assisted housing funds, thousands of HUD
to the Secretary and the Congress. Our activities seek    approved lenders that originate and service FHA
to:                                                       insured loans, and hundreds of Ginnie Mae mort-
                                                          gaged-backed securities issuers.
    Promote efficiency and effectiveness in programs
    and operations.                                            Achieving HUD’s mission continues to be an
                                                          ambitious challenge for its limited staff, given the
    Detect and deter fraud and abuse.                     agency’s many distinct programs. HUD’s management
   Investigate allegations of misconduct by HUD           problems have for years kept HUD on GAO’s list of
   employees.                                             agencies with high-risk programs. HUD’s manage-
                                                          ment team, the GAO, and the OIG share the view that
    Review and make recommendations regarding             improvements in human capital, acquisitions, and
    existing and proposed legislation and regulations     information systems are essential in removing HUD’s
    affecting HUD.                                        high-risk program designations. More specifically,
    The OIG Executive Office and the Offices of           HUD must focus these improvements on Rental
Audit, Investigation, Counsel, and Management and         Housing Assistance Programs and Single Family
Policy are located in Headquarters. Also, the Offices     Housing Mortgage Insurance Programs, two areas
of Audit and Investigation have staff located in 10       where financial and programmatic exposure is the
Regions and numerous Field Offices across the             greatest. That HUD’s reported management chal-
country.                                                  lenges are included as part of the President’s Man-
                                                          agement Agenda is indicative of HUD’s important role
                                                          in the Federal Sector. HUD’s current Administration
                                                          places a high priority on correcting those weaknesses
Major Issues Facing HUD                                   that put these HUD programs on GAO’s high-risk list.
    The Department’s primary mission is to expand            Each year, in accordance with the Reports
housing opportunities for American families seeking       Consolidation Act of 2000, the HUD OIG is required to
to better their quality of life. HUD seeks to accom-      submit a statement to the Secretary with a summary
Chapter 1 - HUD’s Management and Performance Challenges                                                           1
assessment of the most serious challenges facing the      changes made by the previous Administration. The
Department. We submitted our last assessment on           current Administration made changes to include:
December 23, 2002. These reported challenges are
                                                             Placing the Departmental Enforcement Center
the continued focus of our audit and investigative
                                                             (DEC) under the direction of the General Counsel
efforts. HUD is working to address these challenges
                                                             to consolidate legal resources in support of a
and in some instances has made progress in correct-
                                                             strong program enforcement effort. HUD’s
ing them. The Deputy Secretary’s Executive Manage-
                                                             program enforcement efforts were previously
ment Meeting focuses on the actions taken by each
                                                             under the Office of General Counsel before the
Assistant Secretary in meeting the President’s
                                                             creation of a separate DEC.
Management Agenda (PMA). The PMA includes
government-wide and HUD specific initiatives. The            Placing the Real Estate Assessment Center
HUD specific initiatives are intended to formulate           (REAC) under the direction of the Assistant
viable strategies and plans to address the major             Secretary for Public and Indian Housing, in order
problems facing the Department.                              to improve REAC’s working relationships with
     The Department’s management challenges and              program staff and program partners and
current efforts to address these challenges are as           strengthen accountability for resource use and
follows:                                                     results.
                                                             Placing the Office of the Chief Procurement
Department-wide Organizational Changes
                                                             Officer and Office of the Chief Information
     For more than a decade, the Department has              Officer under the direction of the Assistant
struggled with organizational and management                 Secretary for Administration/Chief Information
changes in an effort to streamline its operations.           Officer, to streamline HUD’s organizational
These changes were necessary as HUD tried to                 structure and improve service delivery to HUD’s
manage more programs and larger budgets with                 program and administrative components.
fewer staff. The former HUD Administration tried to
                                                             Establishing the Office of Field Policy and Man-
realign the Department along functional lines, sepa-
                                                             agement (FPM) as an independent office reporting
rating outreach from program administration. Also,
                                                             to the Deputy Secretary, with responsibility for
they attempted to place greater reliance on automated
                                                             oversight of HUD’s field management and assis-
tools, processing centers, and contracted services. As
                                                             tance to program Assistant Secretaries in meet-
HUD implemented these realignments, many employ-
                                                             ing program goals at the field office level.
ees were assigned new duties and responsibilities and
many new employees were hired. HUD also experi-              Redeploying staff in the outreach function to
enced a serious “brain drain” as many senior staff           understaffed program delivery and oversight
took buy-outs and left the Department. While these           functions, where there was a critical need.
organizational changes were well intended, the
disruptions caused by these sweeping changes further         Creating new Regional management positions to
compounded problems in effectively managing HUD              give HUD’s field operations greater operational
operations. Among the problems were unclear lines            control over the administrative budget resources
of authority, many staff in the wrong location, staff        they need to pursue their operating and program
not trained in new duties, and difficulty in providing       goals, and to strengthen the local focus on
supervision to remote staff.                                 workload management to meet national perfor-
                                                             mance goals.
     Our past Semiannual Reports to Congress noted
that many organizational changes were slow to be put          Revising program office delegations of authority.
in place, and some of those in place were ineffective.         These operational changes delegate additional
For example, they lacked delegations of authority,        authority to the Field, and represent positive steps
written policies and procedures, and training support.    that bring HUD’s operational activities and authority
HUD’s current management team likewise found              closer to the customers it serves. However, we
problems with the organizational and operational          continue to see the changes as a management chal-

Chapter 1 - HUD’s Management and Performance Challenges                                                           2
lenge until Departmental realignments become fully        financial management systems environment. The FHA
functional. Our audits will evaluate the effectiveness    general legder and its supporting subsidiary systems
of many of these changes. For example, we are             remained noncompliant with federal financial systems
currently reviewing the operations of the DEC and will    requirements. Its 19 subsidiary systems that feed
issue a report early next year.                           transactions to its commercial general ledger system
                                                          lack the capabilities to process transactions in the
                                                          standard general ledger format. In addition, there
Financial Management Systems                              continues to be an inability to support adequate funds
                                                          control for FHA. Although FHA has made progress in
     HUD needs to complete the development of its         funds control, FHA continues to lack automated
financial management systems. The lack of an              financial systems and processes that are capable of
integrated financial system in compliance with            fully monitoring and controlling budgetary resources.
federal financial system requirements has been            A key improvement made during FY 2003 was the
reported in our financial audit as a material weakness    implementation of the FHA subsidiary ledger, which
in internal controls since Fiscal Year (FY) 1991.         automated many previously manual processes used to
While progress has been made, a number of long-           consolidate the accounting data received from the
standing deficiencies remain.                             various FHA legacy systems.
    Because of the large volume of financial transac-
tions, HUD relies heavily on automated information
systems. For several years, our financial audits          Adequate and Sufficiently Trained Staff
reported on security weaknesses in both HUD’s                  For many years, the Department has lacked a
general processing and specific applications such that    system for measuring work and reporting time,
HUD could not be reasonably assured that assets were
                                                          thereby making it a difficult task to determine staff
adequately safeguarded against waste, loss, and           resource needs. HUD worked with the National
unauthorized use or misappropriation. Progress in         Academy of Public Administration (NAPA) to develop
improving these controls has been slow. The weak-         a methodology or approach for resource management
nesses noted in our FY 2002 Consolidated Financial        that would allow the Department to identify and
Audit relate to the need to improve:                      justify its resource requirements for effective and
    Controls over the computing environment; and          efficient program administration and management.

    Administration of personnel security operations.          HUD’s current Administration has embraced
                                                          standards of management accountability. However,
    We also noted the need for HUD to improve funds       HUD needs to more effectively manage its limited
controls over public housing operating funds and          staff resources. Many of the weaknesses facing HUD,
processes for reviewing outstanding obligations to        particularly those concerning HUD’s oversight of
ensure that unneeded amounts are deobligated in a         program recipients, are exacerbated by HUD’s
timely manner. Major deficiencies include:                resource management shortcomings. Accordingly, we
    The Office of Public and Indian Housing did not       consider it critical for the Department to address
have an operational information system for monitoring     these shortcomings through the successful completion
operating subsidy eligibility requirements and obliga-    of ongoing plans. To operate properly and hold
tions during six months of FY 2002. As part of our FY     individuals responsible for performance, HUD needs
2003 Consolidated Financial Audit, we are evaluating      to know that it has the right number of staff with the
corrective actions taken by the Department.               proper skills.

    A lack of integration between accounting systems          To address staffing imbalances and other human
and the need for accurate databases has hampered          capital challenges, the Department has implemented
HUD’s ability to evaluate unexpended obligations.         the Resource Estimation and Allocation Process
                                                          (REAP). The last phase of REAP (a baseline for
    The audit of FHA’s FY 2002 financial statements       staffing requirements) was completed in January
continued to report long-standing weaknesses in FHA’s     2002. The next step in development of the
Chapter 1 - HUD’s Management and Performance Challenges                                                        3
Department’s resource management strategy is the               Consistent with the GAO’s identification of Single
implementation of the Total Estimation and Allocation      Family Mortgage Insurance Programs as a high-risk
Mechanism (TEAM). TEAM is the validation compo-            area, the President’s Management Agenda has
nent of REAP and will collect actual workload accom-       committed HUD to tackling long-standing manage-
plishments and staff usage data for comparison             ment problems that expose FHA homebuyers to
against the REAP baseline. TEAM implementation             fraudulent practices. HUD is taking steps to protect
began in the spring of 2002. Our audit of the TEAM         homebuyers from a fraudulent practice known as
process found the Department has made significant          “property flipping,” changes are underway to
progress in developing and implementing the key            strengthen the property appraisal process, and other
components of its human resource management                actions are being proposed to better disclose FHA
system. The next step is to apply these principles as      closing costs.
decisions are made to hire new staff.
                                                                The FHA financial audit reported a need to place
     The Congress expressed concern over HUD’s             more emphasis on monitoring lender underwriting
hiring practices. In the Conference Report for HUD’s       and continuing to improve early warning and loss
FY 2003 Appropriation, the OIG was tasked to report        prevention for Single Family Programs. Recommen-
to the Conference Committee by August 2003 on              dations were made to increase targeting of high-risk
whether the Department’s hiring decisions were             lenders to include the addition of 30- and 60-day
consistent with the Department’s staffing needs,           delinquencies to the Default Monitoring System. A
program requirements, and personnel practices. On          series of other recommendations were made to target
August 15, 2003, we issued a report to the Assistant       lenders that would benefit from early intervention.
Secretary for Administration and the Chief Financial       FHA needs to increase its use and analysis of other
Officer on our findings. Between July and September        data now available to improve lender monitoring.
2002, HUD undertook a hiring effort known as “Staff-       Timely identification of lenders with unacceptable
ing 9/30.” The goal of Staffing 9/30 was to quickly fill   early default rates is a key element of FHA’s efforts to
mission critical positions before the end of FY 2002.      target monitoring and enforcement resources to single
Staffing 9/30 was inadequately planned and directed.       family insured mortgages and lenders that represent
HUD did not use REAP and TEAM data in determining          the greatest financial risks to FHA. Potentially prob-
needs and hired about 300 staff over ceiling. The          lem lenders must be identified before FHA can
results of Staffing 9/30 were inconsistent with pro-       institute loss mitigation techniques and lender en-
gram requirements and staffing needs. Chapter 6 of         forcement measures that can reduce eventual claims.
this Semiannual Report discusses this audit report in
                                                                During this reporting period, we issued an audit
more detail.
                                                           that covered a detailed statistical analysis of HUD/FHA
                                                           loan files to enable us to comment on the origination
                                                           of HUD’s current portfolio of single family loans. We
FHA Single Family Origination and Real                     recommended ways for HUD to strengthen FHA loan
Estate Owned (REO) Oversight                               performance through insurance endorsement policy
                                                           changes. We also completed a review of two HUD
    Procedures and practices in HUD’s Single Family
                                                           contractors that process insurance endorsements.
Loan Origination Program have undergone consider-
                                                           Audit results showed that the contractors were not
able change, particularly in the last five years. The
                                                           diligent in questioning the documentation that lenders
changes have been both programmatic and organiza-
                                                           submitted when the endorsement requests were late.
tional, including significant changes in loan under-
                                                           We are currently expanding our review of HUD/FHA’s
writing requirements and the transfer of virtually all
                                                           quality assurance process and related contractor
aspects of single family production and program
                                                           services. More details on these reviews are covered
monitoring from HUD staff to lenders and contractors
                                                           in Chapter 2 of this Semiannual Report.
under the oversight of HUD’s Home Ownership
Centers.                                                        During this reporting period, we also initiated 17
                                                           lender audits nationwide based on a targeting strategy
                                                           that identified lenders with poor performing FHA

Chapter 1 - HUD’s Management and Performance Challenges                                                              4
portfolios. Results from one completed audit found          ing this effort, our investigations and audits are
significant lender underwriting deficiencies and            concentrating on fraudulent practices in the Section 8
irregularities involving mortgage brokers that were         Program.
not FHA approved. We should complete the majority
                                                                 HUD continues to implement its performance
of these reviews early next year.
                                                            oriented, risk based strategy for carrying out its PHA
                                                            oversight responsibilities. However, as noted in
                                                            previous financial audits, further improvements need
Public and Assisted Housing Program                         to be made in the Field Office monitoring of PHAs in
Administration                                              other key areas. HUD began implementing a statuto-
                                                            rily mandated monitoring effort of the Public Housing
     HUD provides housing assistance funds under
                                                            Assessment System (PHAS). PHAS provides a statisti-
various grant and subsidy programs to Public Housing
                                                            cal measure of the quality of the housing stock, and
Authorities (PHAs) and multifamily project owners
                                                            has been successful in identifying troubled PHAs and
(both nonprofits and for-profits). These intermediar-
                                                            helping Office of Public and Indian Housing manage-
ies, in turn, provide housing assistance to benefit
                                                            ment ensure corrective action. Likewise, a compan-
primarily low-income households. Administered by
                                                            ion system, the Section 8 Management Assessment
the Office of Public Housing, PHAs provide rental
                                                            Program, has been able to identify problem providers
units to low-income families or make Section 8
                                                            of Section 8 assistance. However, full implementation
assistance payments to private owners who lease their
                                                            of these systems has been delayed. HUD has not been
rental properties to assisted families. The Office of
                                                            able to establish the organizational structure and
Housing also administers a variety of Assisted
                                                            obtain relevant and reliable data to complete the
Housing Programs, including parts of the Section 8
                                                            monitoring process. Finally, HUD has been slow to
Program and the Section 202/811 Programs. These
                                                            implement additional strategies needed to improve
subsidies are called “project-based” because the
                                                            quality control over rental assistance subsidy determi-
subsidy is tied to a particular property. Therefore,
                                                            nations.
tenants who move from “project-based” properties
may lose their rental assistance. HUD spent about $23            In prior years, we have also reported on long-
billion in FY 2002 to provide rent and operating            standing weaknesses with the processing of subsidy
subsidies that benefited over four million households.      payment requests under the project-based programs
                                                            administered by the Office of Housing. Historically,
     Material weaknesses in the monitoring of PHAs
                                                            this process has been hampered by the need for
and assisted multifamily projects were first reported
                                                            improved information systems to eliminate manually
in our financial audit in 1991 and continue to chal-
                                                            intensive review procedures that HUD has been unable
lenge HUD. Material monitoring weaknesses seri-
                                                            to adequately perform.
ously impact HUD’s ability to ensure that its interme-
diaries are correctly calculating housing subsidies. A          Housing staff or their Contract Administrators
2000 HUD study found that 60 percent of all rent and        (CAs) are to perform management reviews to monitor
subsidy calculations performed by administrative            tenant eligibility and ensure that accurate rents are
intermediaries contained some type of error. The            charged at multifamily projects. The primary tool is
Secretary has rightly made the reduction of subsidy         to conduct on-site reviews that assess the owners’
overpayments a top priority of his Administration.          compliance with HUD’s occupancy requirements.
HUD has set a goal for a 50 percent reduction in the        HUD’s continued implementation of the CA initiative
frequency of calculation processing errors and the          resulted in a substantial increase in the total number
amount of subsidy overpayments by 2005. To achieve          of management reviews. However, a comprehensive
this goal over the next two years, HUD initiated the        plan needs to be developed that would result in an
Rental Housing Integrity Improvement Project. This          increase of on-site reviews that would assess and
project is designed to reduce errors and improper           ensure that all owners of assisted multifamily projects
payments by: (1) simplifying the payment process; (2)       comply with HUD’s occupancy requirements.
enhancing administrative capacity; and (3) establish-
ing better controls, incentives, and sanctions. Parallel-

Chapter 1 - HUD’s Management and Performance Challenges                                                              5
    HUD’s plans include a variety of continuing
efforts. Principle among these are: continued imple-
mentation of the CA initiative; increased enforcement
efforts; implementation of more targeted property
inspections; increased frequency of management/
occupancy reviews for assisted projects; and develop-
ment of an integrated risk reporting system. We
support these efforts.




Chapter 1 - HUD’s Management and Performance Challenges   6
       Chapter 2 — HUD’s Single Family Housing Programs
    Single Family Housing Programs are meant to provide mortgage insurance that enables individuals to
finance the purchase, rehabilitation, and/or construction of a home.

Audits
    During this reporting period, the OIG issued eight reports; two internal audits, two internal
memoranda, and four external audits in the Single Family Housing Program area. These reports disclosed
nearly $360,000 in questioned costs, and almost $21 million in recommendations that funds be put to
better use. We conducted reviews of the practice of standardized credit scoring for mortgage loans, certain
Home Ownership Center activities, non-supervised mortgagee direct endorsement lender activities, HUD’s
Asset Control Area Program, and HUD’s cash management practices for Title I loans.


                   Single Family Reports Issued                                Single Family Housing Dollars


                                                                 $25,000,000
                                                   2
                                                                 $20,000,000

                                                                 $15,000,000

       4                                                         $10,000,000

                                                                  $5,000,000
                                                   2
                                                                         $0
                                                                               External Audits
       Internal Audits   Internal Memoranda   External Reports                 Questioned Costs   Funds Put to Better Use




Mortgage Loan Credit Scoring
    Industry use of standardized credit scoring for mortgage loans, such as those provided by Fair, Isaac
and Co., (FICO) is widespread. However, FHA underwriting does not rely on these scores. Current
restrictions on bad credit are very flexible and often subjective. The subjective nature of the criteria can
provide deserving families the opportunity for home ownership, but it can also be overly permissive and
tolerant toward borrowers with bad credit histories. Credit scores provide evaluations of risk based on an
objective formula. Our observations demonstrate that lower credit scores, or loans without scores, have
much poorer loan performance than other loans. Sub-prime lending contributes to higher mortgage
insurance premiums to the detriment of homebuyers who have maintained good credit.
    We reviewed a statistical sample of 1,180 FHA case files across the nation to assess underwriting
practices and loan characteristics contributing to FHA loan performance. We observed a number of factors
that correlate with performance, mostly those related to the credit worthiness of borrowers. By far the
strongest correlation was with FICO credit scores. Although borrowers with average FICO credit scores
under 620 made up only 24.7 percent of the sampled files with credit scores, they accounted for 47.1
percent of the defaults and 58 percent of the claims observed.
Loans having borrower credit scores of less than 620 and loans that had no borrower credit score made up
30.1 percent of the sample. We consider these sub-prime loans. Based on these results, we are 90 percent
confident that sub-prime loans account for between 27.9 percent and 32.4 percent of the 2,840,549 single

Chapter 2 - HUD’s Single Family Housing Programs                                                                            7
family FHA loans with beginning amortization dates             We audited Management Solutions of America,
from October 1, 1997, to March 31, 2001. These            Inc., a Philadelphia, PA HOC contractor perform-
loans were responsible for 54.3 percent of all loans      ing insurance endorsement reviews, and found that
that defaulted at least once, and 65.9 percent of all     Management Solutions inappropriately endorsed 51
claims observed in our sample. We did not have a          of the 155 loans reviewed. The 51 loans, valued at
sufficient number of default occurrences in our           over $7 million, did not have the required documen-
sample to accurately project the default rate of          tation to insure loans submitted for endorsement
specific categories of loans.                             more than 60 days after closing.
    HUD has taken steps toward developing the                 We recommended that the Assistant Secretary
Technology Open To All Lenders (TOTAL)                    for Housing-Federal Housing Commissioner: (1)
scorecard, an automated underwriting system that          seek indemnification for any of the 51 improperly
considers using credit scoring and systematic             endorsed loans for which significant documentation
confirmation of the borrower’s identity. FHA plans        cannot be produced or where documentation, when
to initiate the use of the TOTAL scorecard some time      produced, indicates a deficiency according to HUD
in FY 2004.                                               handbook procedures; (2) ensure that Management
                                                          Solutions develops and implements procedures to
    We recommended that HUD: (1) collect and
                                                          properly endorse future loans; and (3) take appro-
track the credit scores in HUD systems to permit
                                                          priate administrative action against Management
future studies and targeting of quality assurance
                                                          Solutions. (Report No. 2003-KC-1007)
activities; (2) consider streamlining the origination
and endorsement process; and (3) consider
                                                              During our audit of Management Solutions, we
strengthening endorsement procedures for loans
                                                          identified an internal deficiency regarding HOC
with extended delays in submission, especially
                                                          instructions that differed from the HUD Handbook.
loans that have no credit scores. (Report No. 2003-
                                                          The HOC gave the endorsement contractor guidance
SE-0001)
                                                          that deviated from the HUD Handbook for loans
                                                          submitted for insurance more than 60 days after
Home Ownership Centers                                    closing.
    We completed an audit of Horizon Consulting,              We recommended that the Director, Philadel-
Inc., a Santa Ana, CA Home Ownership Center               phia HOC require its contractor(s) to follow the
(HOC) contractor performing insurance endorsement         requirements set forth in the HUD Handbook when
reviews, and found that Horizon inappropriately           approving late loan submissions for endorsement or
endorsed 112 of the 229 loans we reviewed. The 112        request a formal waiver from Headquarters. (Report
loans, valued at over $16 million, did not have the       No. 2003-KC-0802)
required documentation for processing. Based on
these results, we are 90 percent confident that           Non-supervised Mortgagee and
Horizon Consulting improperly endorsed between
10,484 and 13,249 loans during FY 2001.                   Direct Endorsement Activities
    We recommended that the Assistant Secretary                We completed an audit of Colban Funding, Inc.,
for Housing-Federal Housing Commissioner seek             a non-supervised mortgagee in Liverpool, NY. The
indemnification from the respective mortgagees for        review disclosed that 11 of 31 loans reviewed had at
the 83 loans, valued at over $12 million that are still   least one significant underwriting deficiency. These
HUD insured where significant documentation was           deficiencies included: (1) minimum investment not
missing. Additionally, we recommended that the            provided; (2) not enough funds to close; (3) under-
Assistant Secretary ensure that Horizon Consulting        stated debt and underwriting ratios; (4) insufficient
improves its quality control procedures, and take         gift information; (5) inaccurate closing documenta-
appropriate administrative action against Horizon.        tion; (6) lack of verification of earnest money; and
(Report No. 2003-KC-1006)                                 (7) inadequate property valuation. We also found
                                                          that Colban is improperly allowing non-FHA ap-

Chapter 2 - HUD’s Single Family Housing Programs                                                              8
proved entities to perform the loan origination         charged or ineligible fees associated with FHA
functions of FHA insured loans and has not docu-        insured loans that MortgageStream originated and
mented actions taken to correct deficiencies cited as   underwrote. HUD should also take any administra-
a result of quality control reviews. These deficien-    tive actions as deemed appropriate. (Report No.
cies could cause loans to go into default and subse-    2003-DE-1005)
quently result in mortgage assignments to HUD.
    We recommended that HUD/FHA take appropri-          HUD’s Asset Control Area Program
ate action against Colban for not adhering to HUD’s     — Corrective Action Verification
underwriting requirements, and require Colban to
indemnify HUD/FHA for all future losses pertaining
                                                        Review
to the 11 loans valued at over $860,000. (Report            We performed a corrective action verification
No. 2003-NY-1004)                                       review of the actions taken on the recommendations
                                                        in our nationwide audit report on HUD’s Asset
    In Greenwood Village, CO, we completed a            Control Area (ACA) Program, which was issued on
review of MortgageStream Financial Services, LLC        February 25, 2002. The review stemmed from a
an FHA approved non-supervised direct endorse-          Senate Committee Report that requested an audit of
ment lender, and found that MortgageStream did          HUD’s compliance with Section 1303 of Public Law
not always exercise due diligence in the origination    107-206. Our review disclosed that HUD has gener-
and underwriting of FHA insured loans, or perform       ally complied with Section 1303 of Public law 107-
these functions in accordance with HUD require-         206 by initiating actions on September 15, 2002, to
ments and prudent lending practices.                    enter into new agreements and contracts with
MortgageStream did not adequately implement its         program participants. Our review also disclosed
quality control process and was deficient in its        that HUD has taken required actions on the recom-
overall quality control activities. Furthermore,        mendations in our audit report on the ACA, with the
MortgageStream did not administer or carry out its      exception of those relating to implementing regula-
non-supervised direct endorsement activities in         tions and providing training on the ACA Program.
conformity with FHA approval requirements. Lastly,
MortgageStream was charging its borrowers an                 We recommended that HUD reevaluate and
ineligible fee and overcharging its borrowers on two    adjust the final action target date for implementing
other fees. The reimbursed amount to the borrowers      the regulations for the ACA Program and ensure that
and HUD for these ineligible and overcharged fees       all appropriate training is provided to HUD employ-
totals nearly $142,000.                                 ees and program participants during FY 2004. We
                                                        also recommended that HUD continue to pursue
    MortgageStream has shown improvement in the         approval of its proposed legislative changes to the
areas of sending FHA insured loan packages to HUD       ACA Program. (Report No. 2003-NY-0801)
for endorsement in a timely manner, and making
wire transfers to HUD for up-front mortgage insur-      Cash Management Practices for
ance premiums. While MortgageStream had prob-
lems in these two areas, the majority of the prob-      Title I Loans
lems occurred within the first year of their exist-
                                                            In Washington, DC, the OIG audited the cash
ence. MortgageStream has taken positive corrective
                                                        management practices used by HUD’s Cash Manage-
action to eliminate these concerns.
                                                        ment Branch (CMB) to process Title I loan remit-
    We recommended that MortgageStream’s                tances. We evaluated CMB’s handling of Title I
participation in HUD’s Single Family Mortgage           remittances paid by check between October 1998
Insurance Programs be closely monitored for the         and January 2003. We found that CMB has made
next year. We also recommended that                     significant progress in improving its cash manage-
MortgageStream indemnify HUD for the six FHA            ment practices. However, during the audit period,
insured loans addressed in the audit with unpaid        CMB did not ensure that Title I remittances were
balances of over $940,000, and pay back all over-       properly handled, processed, and applied. Specifi-
Chapter 2 - HUD’s Single Family Housing Programs                                                           9
cally, remittances totaling over $600,000 were not      Corporation owned and operated two subsidiaries,
applied to debtors’ accounts; at least $88,000 in       MCA Mortgage Corporation, an FHA direct endorse-
payments were not deposited timely; and CMB did         ment lender, and Mortgage Corporation of
not adequately account for negotiable instruments       America. In addition, they controlled Detroit
or monitor the process used by Bank of America to       Revitalization, Inc., a HUD approved nonprofit. The
process Title I payments.                               defendants participated in a scheme in which they
                                                        fraudulently sold investments in mortgages and land
     We recommended that FHA’s Deputy Comptrol-
                                                        contracts they had acquired and assembled into
ler improve its cash management and monitoring
                                                        investment pools. This was made possible by
practices to ensure that Title I remittances are
                                                        misrepresenting to current and potential investors
adequately handled, processed, and applied. FHA
                                                        the performance of earlier pools and fraudulently
agreed with our recommendations and has initiated
                                                        inflating the value of the mortgages and land con-
action to correct the noted deficiencies. (Report No.
                                                        tracts through a series of transfers between MCA and
2003-AO-0003)
                                                        off-book limited partnerships. HUD was led to
                                                        believe by MCA’s annual direct endorsement certifi-
                                                        cations that the financial health of the company was
Investigations                                          in stable condition, when in fact the certifications
                                                        were grossly inflated. This allowed the defendants
    During this reporting period, the OIG opened        to continue originating loans and obtaining origina-
328 investigation cases and closed 189 cases in the     tion fees to which they otherwise should not have
Single Family Housing Program area. Final judicial      been entitled.
action taken on these cases during the period
included $208,308 in recoveries/receivables,                 Defendant Victor Jesus Noval, an associate of
$298,808,213 in restitution, $70,760 in fines, 84       Allstate Mortgage Company, was sentenced in Los
convictions, pleas, and pre-trial diversions, 135       Angeles, CA, in Federal Court for the Central
indictments/informations, 103 administrative sanc-      District of California, to 57 months incarceration
tions, 206 arrests, and 1,128 months in prison.         and ordered to pay $20,733,000 in restitution.
    Some of the investigations in this report were      Defendants Edgardo Torres Guinto and Danilo
conducted by the OIG while others were conducted        Torres Guinto were each sentenced in the same
jointly with federal, state, and local law enforce-     court to 37 months incarceration and ordered to pay
ment agencies. The results of our more significant      $5,863,714 in restitution to HUD. The defendants
investigations are described below.                     engaged in a single family property flipping and
                                                        loan origination fraud scheme by locating multi-unit
Loan Origination                                        residential properties in the $100,000-$150,000
                                                        value range. They then entered into contracts to
    In Detroit, MI, two officers of MCA Financial       purchase the properties in the names of fictitious
Corporation were sentenced in Federal Court for         persons. While the transactions were pending,
the Eastern District of Michigan. Defendants Keith      second sales contracts were prepared for the same
Pietila, the former chief financial officer, and        properties, purporting to transfer them to other
Alexander Ajemian, the former controller, were          fictitious persons. The second sales were inflated by
each sentenced to 48 months incarceration and 36        approximately $100,000 per property. The defen-
months supervised release, and ordered to pay           dants then prepared fraudulent loan applications in
$256.6 million in restitution. Pietila, Ajemian and     the names of fictitious purchasers for the second
other co-defendants will pay the restitution jointly    sales and submitted the documents to HUD. The
in this case.                                           mortgage insurance applications in the names of the
                                                        fictitious purchasers contained false employment
    Patrick Quinlan and John O’Leary are sched-
                                                        documents, verifications that the down payments
uled to go to trial. The other co-defendants, Cheryl
                                                        were made with the buyers’ personal funds or were
Swain, Kevin Lasky, and Lee Wells, previously pled
                                                        gifts, and inflated real estate appraisals. Noval’s
guilty and are awaiting sentencing. MCA Financial
Chapter 2 - HUD’s Single Family Housing Programs                                                           10
actions caused approximately $100 million in            $386,000 in restitution. Defendant Terry Cody was
fraudulent loans to be funded. Of this amount,          sentenced to 24 months in prison and three years
approximately $35 million were funded with FHA          probation. Carter and Cody, along with Maurice
insured mortgages. The Guintos subsequently             Cody and Mark Schmitt, were previously indicted
managed the properties and collected rent payments      for their participation in a scheme to defraud the
from the tenants.                                       First Tennessee Bank and HUD by assisting an
                                                        unqualified buyer in purchasing four FHA insured
     In Chicago, IL, in Federal Court for the           properties using fraudulent documents.
Northern District of Illinois, defendants David
                                                            Specifically, Carter admitted to signing false
Guel, president, and John Wojick, office manager,
                                                        verifications of employment enabling an unqualified
for Dollars Express, Inc., were sentenced after
                                                        buyer to qualify for the loans. Carter and Cody also
pleading guilty to mail and tax fraud. Guel, a
                                                        acted as contractors, and falsely certified affidavits,
seller/general contractor, and Wojick, a legal
                                                        lien waivers, and draw requests that rehabilitation
representative, along with co-conspirators Dawn
                                                        work was completed when in fact no work had been
Raimo, an insurance representative/mortgagor/
                                                        done. As a result of their false certifications,
notary public, Arnold Gillard, a building superin-
                                                        rehabilitation money for these properties was
tendent, Steve Lucas, a maintenance engineer,
                                                        released. After the properties went into foreclosure,
Mark Schmitt, an appraiser/inspector, and Robert
                                                        they were demolished by the City of Chicago.
Bronke, a salesman/recruiter, spearheaded a real
                                                        HUD’s losses in this case exceed $250,000.
estate scam involving HUD’s Section 203(k) Reha-
bilitation Home Mortgage Insurance Program,
                                                            Defendant William Otto Schmidbauer, a real
which targeted the south side of Chicago. As part of
                                                        estate broker doing business as Schmidbauer Realty,
their scam, Guel, Wojick, et al, actively recruited
                                                        was sentenced in Baltimore, MD, in Federal Court
“investors” to participate in their scam, promising
                                                        for the District of Maryland, to one year incarcera-
great financial returns. Section 203(k) draw re-
                                                        tion and three years probation, was fined $10,000,
quests were made for work that was never com-
                                                        and ordered to pay $2,513,882 in restitution to HUD
pleted, and in some cases, for homes that had
                                                        for his role in a property flipping scheme.
already been demolished when the draws were
                                                        Schmidbauer also agreed to forfeit $690,000 in
made. A total of 72 HUD insured 203(k) mortgages
                                                        gross profits that he realized from the home sales.
were involved in the scam, during which the First
                                                        An investigation disclosed that, from 1998 through
Tennessee Bank was defrauded out of $6,384,678.
                                                        2000, Schmidbauer prepared and caused others to
    Guel was sentenced to 48 months incarceration       prepare and/or submit numerous false and fraudu-
and 60 months supervised release, and was ordered       lent documents to various lenders in connection
to pay $4,218,497 in restitution. This restitution      with applications for FHA insured loans under the
figure is joint for all subjects in this case. Wojick   First-Time Homebuyers Program. Among the
was sentenced to 42 months incarceration and 60         fraudulent documents were verifications of employ-
months supervised release. The HUD Quality              ment and rent, drivers’ licenses, Social Security
Assurance Division provided a significant amount        cards, pay records, W-2 forms, and letters evidenc-
of technical support in this case.                      ing credit accounts of the purchasers with various
                                                        companies. Donald Hanson, Jr., a licensed real
    Defendant Mark Schmitt, an appraiser, pled
                                                        estate broker, was also sentenced in the same court
guilty in the same court to one count of mail fraud
                                                        to four months home detention and three years
and one count of tax fraud. Schmitt’s guilty plea
                                                        probation, and ordered to pay $147,000 in restitu-
followed a 29-count indictment that outlined his
                                                        tion to HUD for his role in assisting in the scheme.
involvement in the complex fraud scheme.
                                                        Hanson was the loan officer in a series of FHA loan
    In a related case, defendant Mark Carter was        transactions in which he certified that he met buyers
sentenced in Chicago, IL, in Federal Court for the      face-to-face as part of the mortgage application
Northern District of Illinois, to 15 months in prison   process when in fact he did not. Schmidbauer often
and three years probation, and was ordered to pay       bought properties in poor condition at low prices
Chapter 2 - HUD’s Single Family Housing Programs                                                             11
and quickly sold them at much higher prices. The              ordered to pay $2,408,614 in restitution, and fined
effect on neighborhoods preyed upon by                        a total of $10,100. Schill, a loan officer, and Noce,
Schmidbauer has been devastating and has acceler-             a closing attorney, were each sentenced to nine
ated their decline.                                           months home arrest and five years probation. They
                                                              were also ordered to pay $2,408,614 each in restitu-
    Eighteen individuals have already pled guilty
                                                              tion. All five defendants were ordered not to engage
and been sentenced in this case, including loan
                                                              in any real estate or mortgage business for various
officers, real estate agents, and straw purchasers. At
                                                              periods of time. An investigation disclosed that the
least 48 of the 58 FHA insured mortgages involving
                                                              individuals engaged in a scheme to fraudulently
Schmidbauer have gone into foreclosure with losses
                                                              obtain over 40 FHA insured loans for ineligible
to the FHA insurance fund of approximately $3
                                                              borrowers. The scheme, which resulted in over $2.4
million. This investigation received considerable
                                                              million in losses to HUD, involved the falsification
media attention and was closely followed by Mem-
                                                              of federal income tax returns, gift letters, attorney
bers of Congress.
                                                              gift certifications, verification of employment and
                                                              rent documents, and credit explanation letters.
                                                              Properties were flipped and the proceeds of the
                                                              sales were divided among the conspirators.

                                                                   In Chicago, IL, in Federal Court for the
                                                              Northern District of Illinois, defendant Michael
                                                              Weathersby, an investor/property rehabilitation
                                                              specialist, was sentenced to 42 months in prison
                                                              and three years supervised release, and ordered to
                                                              pay a $200 special assessment and $2,078,177 in
                                                              restitution to various mortgage companies for his
                                                              involvement in a mortgage fraud scheme.
                                                              Weathersby previously pled guilty to one count of
                                                              wire fraud and one count of money laundering. He
                                                              masterminded and participated in a scheme to
                                                              defraud mortgage lenders of approximately $2
                                                              million in mortgage loan proceeds by false and
                                                              fraudulent misrepresentations. Specifically,
                                                              Weathersby located properties in Chicago that
                                                              appeared to be abandoned, illegally transferred
                                                              ownership of the properties by filing fraudulent
                                                              deeds, and then sold the properties to various
                                                              strawbuyers. He continued the scheme by directing
                                                              title companies to issue the proceeds of the loan
                                                              closings in various aliases and his company’s name
   by: John B. O’Donnell, The Baltimore Sun, April 25, 2003   in order to launder the profits. In one instance, he
                                                              purchased a luxury vehicle with the proceeds.
    In Newark, NJ, defendants Robert Jordan,                  Weathersby later devised a scheme to defraud the
Peter Tortorelli, Marlene Schill, Philip Noce, and            Chicago Housing Authority Corporation, a housing
Raul Torres were each sentenced in Federal Court,             authority in Chicago, out of approximately $28,000
District of New Jersey, for mail fraud and con-               in rent subsidy payments for tenants living in two of
spiracy. Jordan and Tortorelli, principals and                the properties he illegally obtained.
underwriters of County Mortgage Company, Inc.,
and Torres, a real estate broker, were each sen-                 Defendants Christopher Woods, former presi-
tenced to three years supervised release, each                dent, and Matt Amento, former loan officer, of

Chapter 2 - HUD’s Single Family Housing Programs                                                                 12
Main Street Mortgage Services in Saddlebrook,            employment information, including information that
NJ, were sentenced in Federal Court, District of         some buyers worked for Share Development and
New Jersey. Woods received one year and one day          North East Austin. In addition, buyers and loan
in prison and three years probation, and was or-         officers were paid $3,000 to $4,000 outside of
dered to pay $774,806 in restitution and a $200          closing for purchasing these properties.
special assessment fee. Amento received five
months incarceration, five months home detention,            In Chicago, IL, in Federal Court for the
and three years probation, and was ordered to pay        Northern District of Illinois, three individuals were
$774,806 in restitution and a $100 special assess-       sentenced and another pled guilty to activities in a
ment fee.                                                mortgage fraud scheme. Joyce Primous, a notary
                                                         public, was sentenced to three years probation and
    Defendant Tameka Watson, also known as
                                                         ordered to pay $614,462 in restitution to various
Temeko Watson, Tameko Sylvester, and Tameka
                                                         mortgage companies. Defendant Cathleen Smith, a
Sylvester, also a former loan officer for Main Street
                                                         strawbuyer and strawseller, was sentenced to five
Mortgage Services, was sentenced in the same
                                                         years probation and ordered to pay $174,356 in
court. Watson received 15 months incarceration and
                                                         restitution to various mortgage companies.
three years probation, and was ordered to pay
$389,881 in restitution and a $1,100 special assess-         Defendant Richard Thomas, a real estate
ment fee.                                                broker, was also sentenced to three years probation
                                                         and 200 hours of community service for his role in
     These individuals, along with co-conspirators
                                                         fraudulently originating FHA insured loans. Specifi-
Ralph Pena, Axel Bonilla, and Laura Barlow, set up
                                                         cally, Thomas falsified verifications of employment
phony businesses that purchased dozens of proper-
                                                         for a buyer at the request of the loan officer, An-
ties that were later flipped at inflated values to
                                                         thony Culpepper. Defendant Brodge Hurst, a
borrowers. The borrowers’ real income and assets
                                                         strawseller, pled guilty to one count of wire fraud.
were not sufficient for them to qualify for FHA
insured mortgages; therefore, Woods and his co-              Primous conspired with co-defendants Michael
conspirators created fraudulent mortgage credit          Weathersby and Jermaine Weathersby, her nephews,
documents that showed inflated income and assets.        to defraud mortgage lenders out of approximately
                                                         $2 million in mortgage loan proceeds by false and
    In Chicago, IL, in Federal Court for the             fraudulent misrepresentations. Specifically, the co-
Northern District of Illinois, defendants Kay Elliott,   defendants located properties in Chicago that
John Simmons, and Dante D. Samson, borrowers,            appeared to be abandoned, illegally transferred
were sentenced on one count of mail fraud after          ownership of the properties by filing fraudulent
pleading guilty to their participation in a fraud        deeds, and then sold the properties to various
scheme involving 100 properties with $5.7 million        strawbuyers. Primous improperly notarized the
in loans. Elliot was sentenced to 12 months and one      signatures of the co-defendants, who signed the
day in prison and two years probation, and was           deeds by using multiple aliases.
ordered to pay $706,099 in restitution. Simmons
was sentenced to four months home confinement                Defendant Edward Lamborin was sentenced in
and three years probation, and was ordered to pay        Santa Ana, CA, in Federal Court for the Central
$241,950 in restitution.                                 District of California, after pleading guilty to wire
                                                         fraud. He was sentenced to two years probation,
    The scheme involved Theresa Holt, a current
                                                         fined $5,000, and ordered to pay a $200 special
fugitive and former employee of North East Austin
                                                         assessment fee. Lamborin’s co-conspirators, defen-
(a HUD approved nonprofit), who started her own
                                                         dants Valencia Bray and Keith Taylor, were also
business known as Share Development Corporation.
                                                         sentenced for wire fraud. Bray received two years
Share acquired numerous properties, some of which
                                                         probation, was fined $2,000, and was ordered to
were obtained through HUD’s Direct Sales Program
                                                         pay a $100 special assessment fee. Taylor received
and North East Austin, and resold them. Many of
                                                         three years probation, was fined $5,000, and was
the mortgage loan applications contained inflated
Chapter 2 - HUD’s Single Family Housing Programs                                                             13
ordered to pay a $100 special assessment. Lamborin         Defendants Christine Neal and Rondal Rollin
and Bray assisted unqualified borrowers in obtain-     pled guilty in the same court to one and two counts
ing FHA insured loans. They contacted forgers to       of wire fraud, respectively, in connection with a
prepare false income and credit related documenta-     scheme to defraud HUD. Neal and Rollin, licensed
tion for the buyers, and used these documents to       real estate agents in the State of California, were
prepare fraudulent loan applications. These applica-   previously indicted on charges of assisting unquali-
tions were ultimately submitted to FHA.                fied buyers to obtain FHA insured home loans. The
                                                       defendants contacted forgers to prepare false and
    In a related scheme, defendant Charles Sims
                                                       fabricated income and credit related documentation
was sentenced in U.S. District Court, Santa Ana,
                                                       for the buyers, and then prepared fraudulent loan
following a plea of guilty to one count of HUD loan
                                                       applications which were submitted to HUD.
fraud. Sims was sentenced to two years probation,
fined $500, and ordered to pay a $100 special
                                                           In Seattle, WA, in U.S. District Court for the
assessment. Defendant Jose Cotero was sentenced
                                                       Western District of Washington, defendant Mario
in the same court following a plea of guilty to one
                                                       Figueroa was sentenced to 151 months imprison-
count of wire fraud. Cotero was sentenced to one
                                                       ment and five years supervised release, and ordered
year and one day in prison; three years supervised
                                                       to pay $330,147 in restitution. Also sentenced was
release, and a $100 special assessment. He was also
                                                       defendant Jaime Abrego, who received 12 months
ordered to pay $276,071 in restitution.
                                                       imprisonment and three years supervised release,
    In this same case, three additional defendants     and was ordered to pay $231,010 in restitution. A
were sentenced on wire fraud charges. Defendant        third defendant, Leslie Reisig, was previously
James Frost was ordered to pay $336,500 in restitu-    sentenced. These sentencings followed a two-week
tion to HUD and a $100 special assessment, and was     jury trial in which the three subjects, Reisig,
fined $20,000. Defendant Daniel Flores was             Figueroa, and Abrego, were convicted of con-
ordered to pay a $2,500 fine and a $100 special        spiracy, mail fraud, wire fraud, and bank fraud in a
assessment. Defendant Anthony Ponce was sen-           scheme to defraud HUD, lending institutions, and
tenced to three years probation, including 50 hours    vulnerable Spanish speaking individuals. The
of community service, and a $1,000 fine. Defen-        defendants arranged sham sales of single family
dant Roger Alvarez also pled guilty to two counts of   residences using strawbuyers to obtain homes for
wire fraud.                                            their personal benefit and/or to obtain a portion of
                                                       the mortgage proceeds. Reisig and Figueroa pled
    Defendants John Dancy and Anthony Zapien
                                                       guilty to an additional count of mail fraud in March
were sentenced in the same court following pleas of
                                                       2003 committed in the Eastern District of Califor-
guilty to two counts each of wire fraud in connec-
                                                       nia, where the subjects had relocated to continue
tion with a scheme to defraud HUD. Dancy was
                                                       their scheme.
sentenced to two years probation on each count,
with sentences to run concurrently. He was also
                                                           In Atlanta, GA, defendants Glenn Melvin
fined $2,250 and ordered to pay a $100 special
                                                       Allen and Sandra R. Rice were sentenced in Federal
assessment. Zapien was sentenced to five months
                                                       Court, Northern District of Georgia, for conspiracy
imprisonment followed by three years supervised
                                                       to commit mortgage fraud. Allen was sentenced to
release, and was ordered to pay $36,714 in restitu-
                                                       one and one-half years in prison and three years
tion and a $200 special assessment. Zapien and
                                                       supervised release, and was ordered to pay
Dancy, licensed real estate agents in the State of
                                                       $142,378 in restitution. Rice, who was also charged
California, assisted unqualified borrowers to obtain
                                                       with wire fraud, was sentenced to one year and
FHA insured home loans. They contacted forgers to
                                                       three months in prison and three years supervised
prepare false and fabricated income and credit
                                                       release, and was ordered to pay $357,624 in restitu-
related documentation for buyers whom they
                                                       tion. Allen, a former Atlanta based manager of
represented. The defendants then prepared fraudu-
                                                       Banker’s Financial Group, a Greenbelt, MD
lent loan applications, which were ultimately
                                                       mortgage brokerage firm, submitted false qualifying
submitted to HUD.
Chapter 2 - HUD’s Single Family Housing Programs                                                          14
documentation for borrowers to obtain FHA insured       ordered to pay $427,000 in restitution. Defendant
home loans. Rice was a real estate agent with Re/       Francisco Arana, a loan officer for Progressive
Max of Atlanta who was recruited to assist in a         Loan Funding, pled guilty in the same court to one
widespread flipping scheme. Rice assisted unquali-      count of wire fraud for his part in the scheme.
fied strawbuyers by finding properties for them in      Sanchez, along with Alejandro Morales, a loan
the Atlanta area, realizing a sales commission on       officer associated with Trinity Mortgage in Covina,
each sale. She attended the closings for these sales    CA, conspired to defraud HUD by recruiting and
in order to generate more sales from the same           selling FHA insured properties to unqualified
homes at a later time with other unqualified buyers.    buyers. Since the purchasers did not have adequate
                                                        income or sufficient down payments to purchase the
    A criminal complaint was filed in the same
                                                        properties, fraudulent mortgage applications were
court against defendants Reginald B. Harris and
                                                        completed and submitted in the names of buyers
Alicia M. Goens for identity theft, bank fraud, wire
                                                        and co-signers that contained false employment
fraud, and use of false Social Security numbers.
                                                        documents, false verifications that the down pay-
The complaint includes allegations against Harris
                                                        ments were either made from the buyers’ personal
for his involvement in executing a scheme to de-
                                                        funds or were gifts from relatives, false explanation
fraud mortgage lenders and federally insured
                                                        letters concerning the relationships of the co-signers
financial institutions, and causing false borrower
                                                        to the buyers, and false notarizations of the signa-
qualifying information to be submitted, including
                                                        tures of the buyers and co-signers. These fraudulent
names, Social Security numbers, and other identifi-
                                                        documents resulted in a loss to HUD of $892,000
cation.
                                                        and caused at least $2 million in fraudulent loans to
                                                        be funded with FHA insured mortgage loans.
    In Federal Court, Eastern District of Missouri,
                                                        Sanchez was previously convicted on conspiracy
defendant B.C. Witt of St. Louis, MO, was sen-
                                                        and wire fraud. Morales pled guilty to his part in
tenced to 22 months in prison and ordered to pay
                                                        the scheme.
$441,045 in restitution. Witt previously pled guilty
to an information charging him with conspiracy to            Defendant Ala Tabatabai pled guilty in the same
commit mail fraud. He admitted providing false tax      court to one count of conspiracy and one count of
returns and other false documents to Preston            wire fraud. Tabatabai was the owner of the Perfor-
Randall, who owned and operated a company called        mance Funding Group, and as a loan representative
HyRizing Investments. HyRizing Investments pur-         for First Prestige Funding, he assisted Sanchez in
chased dilapidated homes and sold them to               submitting fraudulent loan applications to HUD. In
strawbuyers, using the identities of individuals with   this part of the scheme, Sanchez purchased residen-
good credit without their knowledge. Randall paid       tial properties for the purpose of resale. Sanchez,
Witt, who worked as a car salesman, to provide          with the assistance of David Garcia and Salvador
false tax returns and other false documents to make     Silva, recruited potential buyers who often did not
sure the strawbuyers qualified for the loans. This      qualify for FHA insured mortgage loans. Sanchez
mortgage fraud conspiracy caused losses to mort-        and Tabatabai caused fraudulent mortgage applica-
gage companies in excess of $650,000. Along with        tions to be completed and submitted for FHA loan
false income documents, Witt also provided a false      approval. Tabatabai’s actions resulted in a loss to
Social Security card to an FHA loan recipient;          HUD of $443,680.
however, there was no loss incurred on this loan.
Along with Witt and Randall, Latina Randall and              Defendant James Thomas Patterson, a former
Jessie Gator were previously sentenced in this case.    loan officer for Central Pacific Mortgage Corpora-
                                                        tion, was sentenced in Atlanta, GA, in U.S.
    Defendant Pedro Leon Palemon Sanchez was            District Court for the Northern District of Georgia,
sentenced in Los Angeles, CA, in Federal Court for      to five months in prison and five months home
the Central District of California, to five months in   confinement, and was ordered to pay $369,000 in
prison, five months home detention with a monitor,      restitution for his role in flipping seven properties.
and three years supervised released, and was            Patterson recruited borrowers who purchased the
Chapter 2 - HUD’s Single Family Housing Programs                                                            15
properties with mortgages obtained from Central         Vasquez was also prohibited from working with
Pacific that were grossly inflated. Each property       government insured home loans upon his release
had an inflated appraisal that valued it for approxi-   from prison. Vasquez previously pled guilty to one
mately twice the fair market value. Patterson also      count of conspiracy for his part in a scheme to
conspired with Chalana McFarland, the closing           submit false statements to HUD. An investigation
attorney, in helping her launder the ill-gotten gains   disclosed that, from mid 1999 through early 2001,
by setting up a shell corporation to disburse funds     Vasquez prepared 53 FHA insured home loan
to the co-conspirators.                                 packages, with insured mortgages totaling $4.9
                                                        million, which contained falsified wage documents.
    In Philadelphia, PA, defendants Shawn               The investigation further disclosed that, while he
Huntzinger, a former Avstar Mortgage Corporation        was a branch manager, Vasquez prepared false wage
(AMC) loan officer, and Philip Horvath, a former        documents and obtained falsified credit reports for
HUD official and AMC underwriter, were both             loan officers in his AFR branch office. These docu-
sentenced in U.S. District Court, Eastern District      ments were used to qualify the loan officers’ clients
of Pennsylvania, to six months electronic monitor-      for FHA insured loans. There were a total of 138
ing/home detention and 60 months supervised             FHA insured loans involved in the scheme with
release, and were each ordered to pay $204,822 in       insured mortgages totaling $11.9 million. Nine
restitution to HUD. Defendant Twila Nazario, a          loans have gone into foreclosure with a loss to HUD
former real estate investor, was sentenced to three     of $180,363.
months electronic monitoring/home detention and
                                                            Defendants Enrique Estrada Recendiz and
60 months supervised release, and was ordered to
                                                        Maria Elena De La Riva, real estate agents, were
pay $107,037 in restitution to HUD.
                                                        also sentenced in the same court. Recendiz was
    An investigation disclosed that Huntzinger,         sentenced to six months home confinement and five
Horvath, and Nazario illegally issued FHA insured       years probation, and was fined $1,000. De La Riva
loans valued at more than $2 million. To date, HUD      was sentenced to five years probation. Recendiz and
has paid over $500,000 on default claims as a result    De La Riva were ordered to make joint restitution
of the scheme. The investigation also found that the    to HUD in the amount of $35,216. The defendants
defendants used three bogus companies to purchase       previously pled guilty to one count each of submit-
residential properties in Reading, PA, and then         ting false statements to HUD. An investigation
renovated the properties before reselling them, at      disclosed that Recendiz and De La Riva, with the
substantially increased prices, to buyers with FHA      assistance of former AFR loan officer José Alvarado,
insured mortgages. The homebuyers were Hispanic,        submitted a falsified loan application and wage
low-income, first time buyers, some of whom were        documents to HUD, which enabled Recendiz to
not even aware they had purchased properties but        obtain a $120,903 FHA insured mortgage under the
thought they were renting. The unsuspecting buyers      name Enrique Estrada and an assumed Social
were supplied with fictitious loan origination          Security number. The mortgage subsequently went
documents, including verifications of employment,       into foreclosure, resulting in a loss to HUD of
credit histories, gift letters, and down payment        $35,216.
information, in order to give the appearance that
they were qualified. This investigation is particu-         Defendant Amelia Arias was sentenced in Los
larly significant because Horvath is a former HUD       Angeles, CA, in Federal Court for the Central
employee.                                               District of California, after pleading guilty to five
                                                        counts of wire fraud and five counts of making false
    In Phoenix, AZ, in Federal Court for the            statements to HUD. Arias was sentenced to 10
District of Arizona, defendant Marco A. Vasquez, a      months incarceration and three years supervised
former American Financial Resources, Inc. (AFR)         release, and was ordered to pay $142,000 in restitu-
loan officer and branch manager, was sentenced to       tion to HUD. Arias, a real estate agent for CR
33 months in prison and three years probation, and      Homes Realty and Sunrise Realty & Investments in
was ordered to pay $180,363 in restitution to HUD.      San Bernardino, CA, caused false documents to

Chapter 2 - HUD’s Single Family Housing Programs                                                           16
be submitted to HUD concerning FHA insured loans.      2’s, verification of employment forms, and wage
The loans were originated based on this false          and income verification statements. Infinity acted as
documentation. The loans have a total value of         a loan correspondent for various sponsoring lend-
approximately $1.6 million, and the loss to HUD is     ers. These lenders provided the underwriting and
more than $206,000. Arias’ sentencing was part of      the actual funding of the loans. Infinity originated
a larger investigation which revealed that the         over $11 million in loans; the total loss, to date, is
owners of April 8 Realty in La Puente, CA, fabri-      in excess of $700,000. The three individuals have
cated and sold thousands of false loan support         also been suspended from future participation in
documents to numerous real estate agents.              procurement and non-procurement activities with
                                                       HUD and the Executive Branch as of July 29, 2003.
    Defendant Hector Rosales Contreras pled guilty
to two counts of wire fraud. Contreras caused
                                                           Defendant Richard Craig Saxton pled guilty in
$2,763,294 in fraudulent FHA insured loans to be
                                                       Los Angeles, CA, in Federal Court for the Central
submitted to various commercial lending institu-
                                                       District of California, to conspiracy, aiding and
tions and HUD. The total loss to HUD in this case
                                                       abetting, causing an act to be done, and submitting
was $1,360,676. Contreras’ plea was part of the
                                                       false statements. Saxton worked as a real estate
larger investigation.
                                                       investor and escrow officer, doing business as
     Defendant Hector Flores was indicted on four      Golden State Escrow. He flipped properties, pro-
counts of wire fraud and four counts of false state-   vided down payments for borrowers, falsely certi-
ments. Flores worked as a loan processor/loan          fied documents, conspired to defraud the govern-
officer for Omega Financial Services and Green-        ment, and caused the loss of over $1 million to
back Funding. He allegedly caused false documen-       HUD. At the time of Saxton’s plea, restitution was
tation to be submitted to HUD concerning FHA           set at approximately $712,000.
insured loans. The loans, valued at $431,211, were
based on this false documentation. The loss to HUD         In Greenbelt, MD, in Federal Court for the
is approximately $202,000. Flores is the 26th          District of Maryland, defendant Richard Boetang, a
person charged in this investigation. To date, 24      property speculator, was sentenced to 15 months
defendants have pled guilty, and one is awaiting       incarceration and one year probation for his role in
trial.                                                 a property flipping scam. From March 1998 to
                                                       early 2000, Boetang purchased properties and then
    In Dallas, TX, in Federal Court for the North-
                                                       sold them within a short period of time to third
ern District of Texas, defendant Lawrence Holste,
                                                       parties at a profit. Most of the properties had FHA
also known as Jeffie L. Miller, Jr., owner and
                                                       insured mortgages. Boetang also assisted third-party
president of Infinity National Mortgage Corpora-
                                                       buyers to purchase their homes by creating false
tion, was the first of three loan officers sentenced
                                                       documents to support the loans. Boetang was able
after pleading guilty to one count of making false
                                                       to create, sometimes with the assistance of others,
statements to HUD. Holste was sentenced to 15
                                                       false verifications of employment, pay stubs, W-2’s,
months in prison and three years supervised re-
                                                       and gift letters purporting to show a sum of money
lease, and was ordered to pay $93,701 in restitution
                                                       designated as a gift from buyers’ relatives when in
to HUD and a $100 special assessment fee. Defen-
                                                       fact the money was supplied by Boetang. The loss
dants Shirley Miller, Infinity’s office manager, and
                                                       to the government in this scheme is approximately
Barbara Ann Jackson, a loan officer with Infinity,
                                                       $1.5 million.
pled guilty in the same court.
    These actions are the result of an investigation       In New York, NY, defendant Jean Rudolph
into single family loan origination fraud during       Lavanture, also known as Rudy Lavanture, of
which loan officers of Infinity caused false docu-     Intrust Investment Realty and Garden State Invest-
ments to be submitted in order to obtain FHA           ment, was convicted in Federal Court, Southern
insured loans for unqualified borrowers. The loan      District of New York, and sentenced to 12 months
officers provided buyers with false pay stubs, W-      in prison for false advertising or misuse of names to

Chapter 2 - HUD’s Single Family Housing Programs                                                           17
indicate a federal agency. Lavanture also received         Defendant Twannette Holland, a real estate
12 months probation and was ordered to pay              agent, was sentenced in Norfolk, VA, in Federal
$77,200 in restitution to his victims. Among other      Court for the Eastern District of Virginia, to 21
ventures, Lavanture operated an unlicensed real         months in prison and one year supervised release,
estate business as a speculator and used these          and was ordered to pay $9,071 in restitution to HUD
entities to scam investors out of over $1 million. He   and a $100 special assessment fee. The total loss to
advertised his investment schemes in the New York       HUD was $81,872.
Times and other newspapers with the promise of 30
                                                             Holland was involved in at least seven fraudu-
to 70 percent returns within three months on “risk
                                                        lent real estate transactions. The total value of the
free” opportunities. Lavanture assured the potential
                                                        loans involved was $898,136. Each transaction
investors that he had a special relationship with
                                                        contained numerous false statements in the FHA
HUD and was able to acquire foreclosed properties
                                                        case binder, including false pay statements, W-2
at reduced prices and then flip them for large gains.
                                                        forms, tax returns, bank statements, credit docu-
In order to support his claims of being associated
                                                        ments, and gift letters. To qualify for FHA insured
with and authorized by HUD, Lavanture filed a
                                                        mortgages, Holland created fictitious identities for
Certificate of Assumed Name with the State of New
                                                        some of her home purchases. On at least one
York, listing his business as DBA HUD, and opened a
                                                        purchase, Holland used the name and Social Secu-
bank account under the business initials H.U.D. The
                                                        rity number of a minor. In another case, she used
duped investors made checks out to H.U.D. for the
                                                        the identity of her deceased mother-in-law. To
properties that Lavanture acquired for them.
                                                        execute the schemes, Holland created fraudulent
Lavanture used these funds for his personal benefit.
                                                        power of attorney documents. In some instances,
Lavanture is currently serving a two- to six-year
                                                        she assisted homebuyers who were unable to
sentence in the State of New York for real estate
                                                        purchase a home because of their poor credit
securities fraud as well as grand larceny (second
                                                        standing. In other instances, Holland resided in the
degree) for his part in the real estate fraud. Addi-
                                                        properties she purchased but failed to make the
tionally, Lavanture will follow up the State sentence
                                                        mortgage payments. To forestall foreclosure pro-
with two years in federal custody for violating his
                                                        ceedings and to allow her or others to live in the
federal probation on an earlier conviction for credit
                                                        properties for a longer period of time, Holland
card fraud.
                                                        fraudulently filed for bankruptcy under the names
                                                        of the minor and the fictitious identities, including
     In Chicago, IL, in Federal Court for the
                                                        the name of her deceased mother-in-law. Holland
Northern District of Illinois, defendant Harrison
                                                        resold one property to another fraudulent identity in
Jeffries was sentenced to three years probation, the
                                                        a pre-foreclosure sale and continued living in the
first four months of which are to be served as home
                                                        property.
confinement with electronic monitoring. Jeffries
was also ordered to pay $9,718 in restitution and a
                                                            Defendants Timothy W. Burke and Paul Ligas
$100 special assessment. As a condition of his
                                                        were sentenced in Newark, NJ, in Federal Court
probation, Jeffries must undergo a mental heath
                                                        for the District of New Jersey, after pleading guilty
evaluation and cannot file for bankruptcy or partici-
                                                        to one count of conspiracy to commit equity skim-
pate in a real estate transaction without approval
                                                        ming and mail fraud. Burke was sentenced to 60
from the Court. From 1990 to 2000, Jeffries was
                                                        months incarceration, three years probation, a
part of a scheme to defraud HUD by obtaining two
                                                        $10,000 fine, and a $100 special assessment fee.
FHA insured loans for the same property under two
                                                        Ligas was sentenced to 57 months incarceration,
different names and subsequently filing 16 bank-
                                                        two years probation, and a $100 special assessment
ruptcy petitions. He was able to file the bankruptcy
                                                        fee. The defendants admitted that between 1993 and
petitions by using four different aliases and Social
                                                        1999, they participated in a conspiracy to defraud
Security numbers in an attempt to forestall the
                                                        homeowners who had defaulted on their FHA
foreclosure process regarding one of his properties.
                                                        insured mortgages or had fallen behind on pay-
                                                        ments. More than 100 homeowners deeded their

Chapter 2 - HUD’s Single Family Housing Programs                                                           18
homes to Burke and Ligas, who began collecting             the death threats along with mail fraud and money
rents from the persons living in the properties,           laundering in the same sentencing hearing.
failed to make the mortgage payments, and allowed
the properties to go into foreclosure. The scheme               A settlement of Program Fraud Civil Remedies
netted the two over $1.4 million.                          Act (PFCRA) violations was reached with defendant
                                                           George Schiaffino, a real estate agent and specula-
     A Federal Judge in the Northern District of           tor. OIG referred this case to the Enforcement
Illinois ordered a judgment of forfeiture of six           Center subsequent to Schiaffino’s pleading guilty to
Chicago, IL properties belonging to attorney               making false statements in a property flipping case.
Robert Voltl to partially satisfy a forfeiture judg-       In the criminal case, Schiaffino was sentenced in
ment amount of $1,658,073. In addition, the Judge          Baltimore, MD, in U.S. District Court for the
imposed Voltl’s final sentencing order consisting of       District of Maryland, to six months incarceration
63 months imprisonment and three years supervised          and five years probation, and paid $342,341 in
release. Voltl is also ordered to pay restitution in the   restitution to HUD. He was also debarred from
amount of $3,862,844.                                      participation in HUD programs for six years. The
                                                           PFCRA complaint focused on 30 out of 92 loans
    In Voltl’s capacity as a real estate attorney, he
                                                           identified in the criminal case for which Schiaffino
participated in approximately 80 fraudulent prop-
                                                           paid borrowers’ down payments, closing costs, and
erty flip deals between late 1995 and early 1998.
                                                           gift funds. A settlement was reached with
Of the 80 deals, 30 properties were FHA insured. In
                                                           Schiaffino in which he paid $225,000 to settle all
total, 49 properties went into foreclosure. HUD
                                                           potential claims on the 92 HUD insured loans.
suffered losses on 15 of these properties. As a
                                                           According to the Office of General Counsel, this is
result of the investigation, 20 subjects were feder-
                                                           the largest recovery in any PFCRA case brought to
ally convicted. Voltl is the last subject to be sen-
                                                           date by the Department.
tenced.
                                                               Defendant Kelli Davis, a loan officer at RE
    Marvis “Swamp Dog” Bownes pled guilty in
                                                           Mortgage Group, Inc., in Los Angeles, CA, was
East St. Louis, IL, in Federal Court for the South-
                                                           convicted in Federal Court, Central District of
ern District of Illinois, to an information charging
                                                           California, on six counts of wire fraud for her
him with one count of mail fraud and one count of
                                                           involvement in a single family loan origination
money laundering. Bownes, owner of The Property
                                                           fraud scheme. Davis and other real estate profes-
Management Company in East St. Louis, engaged
                                                           sionals purchased fraudulently prepared employ-
in a property flipping scheme. From 1997 through
                                                           ment, income, and credit documents from Maggie
2002, Bownes purchased dilapidated homes in and
                                                           Quevas, a forger who was previously convicted in
around East St. Louis and sold them to unqualified
                                                           Federal Court in August 2002. She then packaged
buyers after obtaining falsely inflated appraisals.
                                                           the fraudulent documentation into mortgage loan
Bownes admitted to defrauding numerous mortgage
                                                           applications for unqualified borrowers for approxi-
companies by providing false gift letters, appraisals,
                                                           mately 80 FHA insured loans valued at more than
W-2s, verifications of employment, and backdated
                                                           $11.4 million. The resulting loss to HUD exceeds
bonds for deeds. He generated approximately $4
                                                           $5.2 million.
million in revenue from his illegal property invest-
ment activities. In the plea agreement, Bownes
                                                               In Los Angeles, CA, in Federal Court for the
agreed to forfeit to the United States $939,000 in
                                                           Central District of California, defendant David B.
cashiers’ checks previously seized, 21 investment
                                                           Finzi, a real estate investor, pled guilty to three
properties, and his property management office
                                                           counts of wire fraud and aiding and abetting. Finzi
building. Previously, Bownes also pled guilty to a
                                                           engaged in a single family property flipping and
two-count indictment charging him with making two
                                                           loan origination fraud scheme by locating multi-unit
death threats via interstate communications to a
                                                           residential properties in the $50,000 - $150,000
newspaper reporter. Bownes will be sentenced for
                                                           value range. He then entered into contracts to

Chapter 2 - HUD’s Single Family Housing Programs                                                               19
purchase the properties, and while the transactions     period of twelve months after an investigation found
were pending, he and others prepared second             evidence that Meagher’s appraisals contained
contracts for the sale of the same properties, pur-     inflated property values and inaccurate
porting to transfer them to other fictitious persons.   comparables. Meagher appraised properties in-
The second sales were inflated by approximately         volved in this scheme that led to the issuance of
$100,000 per property. Finzi and others then            over $16.6 million in FHA insured mortgages. To
prepared fraudulent loan applications in the names      date, HUD has paid claims totaling $2.5 million.
of fictitious purchasers for the second sales and
submitted the documents to HUD. The mortgage                 Defendant Morteza Eghbal, a real estate inves-
insurance applications in the names of the fictitious   tor, pled guilty in Los Angeles, CA, in Federal
purchasers contained false employment documents,        Court for the Central District of California, to one
verifications that the down payments were made          count of conspiracy and three counts of false
from either the buyers’ personal funds or were          statements. Eghbal, owner of Morry’s Investments,
gifts, when in fact Finzi had made the down pay-        engaged in a property flipping scheme. From 1994
ments, and inflated real estate appraisals. Finzi’s     through at least 2001, he purchased numerous HUD
actions caused approximately $12,500,000 in             foreclosed homes and later sold them to buyers who
fraudulent loans to be funded with FHA insured          did not qualify for FHA insured loans. Eghbal
mortgages, and resulted in losses to HUD of             purchased cashiers’ checks and provided the funds
$3,161,942.                                             used for the buyers’ down payments. He acted as
                                                        the seller of the properties and signed HUD forms
    Defendant Alma Vidal pled guilty in the same
                                                        fraudulently stating that he did not provide any of
court to conspiracy and wire fraud. Vidal, a notary
                                                        the funds for the buyers’ down payments. In total,
public, falsely notarized loan documents indicating
                                                        Eghbal paid, or caused to be paid, the down pay-
that she had met with borrowers when in fact she
                                                        ments for approximately 62 loans. This has caused
had not. Vidal also facilitated the submission of
                                                        approximately $5,542,000 in fraudulent loans to be
false W-2’s and pay stubs to qualify borrowers. She
                                                        funded with FHA insured mortgages, and has caused
caused $455,738 in fraudulent FHA insured loans to
                                                        an approximate loss of $2,056,000 to HUD. As part
be submitted to various commercial lending institu-
                                                        of the plea agreement, Eghbal agreed to pay appli-
tions. Defendant Sandra Duran was charged with
                                                        cable special assessments and restitution at or
wire fraud, aiding and abetting, and causing an act
                                                        before the time of sentencing.
to be done. Duran allegedly engaged in a scheme to
purchase false loan documents and include them in           Defendant Arturo Aranda pled guilty to three
loan files that were submitted to FHA.                  counts of wire fraud. As part of the scheme,
                                                        Aranda recruited several unqualified buyers to
    In Philadelphia, PA, defendants Gary Sweitzer,      purchase properties with FHA insured loans. In
a developer, Michael Sedor, a closing attorney,         order to make the buyers appear qualified, Aranda
Brian Hoch, sales manager of Barwood Estates, and       purchased fraudulent employment and credit infor-
Louis Fierro, a loan officer, pled guilty in Federal    mation such as W-2 forms and pay stubs from
Court for the Middle District of Pennsylvania, to       forgers. The fraudulent information was submitted
conspiring to defraud HUD. An investigation dis-        to other co-conspirators, who in turn forwarded it
closed that the defendants allowed Gary Sweitzer to     to HUD for insurance. Defendant Art Tapia, a
use fraudulent gift letters and sweat equity to         former loan officer at CTX Mortgage Company and a
provide mortgagors in his Barwood Estates develop-      recruiter, was indicted in Federal Court for the
ment with most or all of the funding required to        Central District of California, on eight counts of
purchase FHA insured homes, including funds for         wire fraud and aiding and abetting, and one count
the down payments and funds to pay off debts to         of false statements. Tapia, along with Aranda,
ensure that they qualified for the mortgages.           recruited non-qualified buyers to purchase FHA
                                                        insured properties.
   Additionally, appraiser Thomas D. Meagher
was removed from the FHA Appraisal Roster for a

Chapter 2 - HUD’s Single Family Housing Programs                                                          20
    For her part in the scheme, defendant Virginia           Defendants William E. Fallon and Michael
Montenegro, owner of Desert View Realty, was            Henschel, doing business as Homeowner Services
indicted in the same court on five counts of wire       of Arizona, pled guilty in Mesa, AZ, in Federal
fraud and one count of false statements.                Court for the District of Arizona, to wire fraud and
Montenegro recruited non-qualified buyers to            aiding and abetting. The defendants, doing business
purchase FHA insured properties. To facilitate the      as Proserve in Van Nuys, CA, were previously
scheme, she purchased fraudulent documents from         indicted on five counts of wire fraud. An investiga-
known forgers and provided the funds used for the       tion disclosed a scheme in which homeowners
buyers’ down payments to enable them to qualify         whose mortgages were in default and facing foreclo-
for the loans.                                          sure were contacted by Fallon and told that Home-
                                                        owner Services could buy them some time. During
    Defendant Marilyn Sylvia Trujillo pled guilty in    this time period, Fallon collected rent and fees from
the same court to one count of conspiracy and two       the homeowners, while Henschel filed fraudulent
counts of false statements. From 1994 to at least       bankruptcies in California to delay the foreclosure
September 2001, Trujillo purchased foreclosed           process. Henschel originated the same scheme in
homes from HUD and later sold the homes to              California and Fallon moved to Arizona to continue
individuals who did not qualify for the FHA insured     the fraud. Over 1,000 property owners in California
mortgages.                                              signed deeds and paid fees to Proserve, which
                                                        included about 120 FHA insured properties and 40
     Defendant William Dunn, a property speculator      Department of Veteran Affairs (DVA) guaranteed
in Baltimore, MD, pled guilty in Federal Court,         properties. In addition, Henschel caused over 200
District of Maryland, to conspiracy to make false       fraudulent bankruptcies to be filed in California
statements. He admitted that he used fraudulent         using fictitious names and Social Security numbers.
documents to obtain government backed mortgages         Fallon secured deeds from 39 homeowners in
for buyers of houses sold by his company. On at         Arizona, 18 of which involved FHA insured proper-
least seven occasions, Dunn and partner Michael         ties. Fallon then collected about $51,000 in fees/
Dronet bought houses, refurbished them, and sold        rent from the homeowners during the period he
them at sometimes inflated prices to buyers who         operated Homeowner Services in Arizona. Losses
were not qualified for the FHA insured mortgages.       to the government total about $390,000 based on
Further, Dunn assisted in the creation of fraudulent    claims submitted to HUD and DVA.
gift letters, tax returns, and W-2’s to qualify indi-
                                                            Four Portland, OR individuals pled guilty in
viduals to purchase his properties. In some in-
                                                        Federal Court for the District of Oregon to charges
stances, Dunn would falsely state that he had met
                                                        including conspiracy and fraud for their part in
with purchasers in face-to-face interviews to take
                                                        originating 24 fraudulent mortgages worth an
the loan applications when in fact he had not. A
                                                        estimated $10 million and involving multiple loan
number of purchasers defaulted on the properties,
                                                        origination schemes. Loan officers Ryan Bonneau
resulting in a loss to FHA totaling $1.5 million.
                                                        and Misty Byrd pled guilty to three counts of wire
                                                        fraud, money laundering, and bank fraud, and one
     Defendant Delores Lewis Jones, a former real
                                                        count of making false statements on a loan applica-
estate agent, pled guilty in Camden, NJ, in Federal
                                                        tion, respectively.
Court for the District of New Jersey, to one count
of conspiracy to commit mail fraud. Jones admitted          Defendant Mack James Gentry, a former loan
that between 1997 and 2001, she participated in a       officer assistant and loan processor, pled guilty to
conspiracy to defraud HUD, the Department of            making false statements on a HUD loan application
Veterans Affairs, and private lending institutions by   and aiding and abetting. Gentry stipulated to a total
providing falsified documents to unqualified            HUD loss of between $120,000 and $200,000 and
homebuyers who submitted those documents to             restitution of $24,600. Todd Mikal Troen, an
obtain their mortgages. The loss, plus Jones’           associate of Bonneau and Byrd and a strawbuyer,
commissions, totaled over $392,000 on 14 proper-        pled guilty to wire fraud and stipulated to a total
ties.
Chapter 2 - HUD’s Single Family Housing Programs                                                           21
monetary loss not to exceed $200,000. As part of          million in fraudulent FHA insured loans to be
his plea negotiation, Troen voluntarily gave up his       submitted to various lending institutions and HUD.
appraisal license regulated by the State of Oregon.
                                                               In New York, NY, defendant Francine Sweet,
    In Los Angeles, CA, defendant Patricia                an outside contractor working with American
Ledesma, a strawbuyer, was convicted in Federal           International Mortgage Bankers (AIMB) in Lake
Court, Central District of California, on one count       Success, NY, pled guilty in Federal Court for the
of wire fraud for her involvement in a single family      Eastern District of New York to conspiracy to
loan origination scheme. Ledesma persuaded                commit equity skimming and mail fraud, and
mortgage brokers to falsely verify employment             submitting false statements to HUD. Several employ-
information and certifications of face-to-face inter-     ees and outside contractors involved with AIMB
views for herself and other co-borrowers who              assisted in obtaining FHA insured loans from
applied for an FHA insured mortgage with Country-         questionable homebuyers located in the New York
wide Home Loans, Inc. The fraudulently obtained           metropolitan area, including Nassau and Suffolk
loan resulted in a loss to HUD exceeding $154,000.        Counties. Over 90 percent of the FHA insured loans
                                                          from AIMB contained one or a variety of altered
    Defendant Tanya Stephenson-First pled guilty in       documents, including false pay stubs, bank state-
St. Louis, MO, in U.S. District Court for the             ments, W-2s, rent verifications, verifications of
Eastern District of Missouri, to one count of             employment and deposit, credit worthiness letters,
conspiracy to commit bank fraud. Stephenson-First,        gift letters, and credit reports.
a former mortgage broker for Prism Mortgage,
Paradigm Mortgage, and Accent Mortgage, admit-                Defendant Anthony Cocomello, a real estate
ted to engaging in an illegal property flipping           appraiser, pled guilty in Central Islip, NY, in
scheme between October 1999 and January 2002.             Federal Court for the Eastern District of New York,
She used false documentation and Social Security          to loan origination fraud. Cocomello prepared
numbers to qualify herself and other potential            fraudulent appraisals that were included in mort-
homebuyers for conventional and FHA insured               gage loan applications submitted to HUD for insur-
loans. The investigation also disclosed that              ance. More than 60 false appraisals were submitted
Stephenson-First filed for bankruptcy protection          to HUD through three separate mortgage banking
using her true Social Security number, and three          institutions.
days after the filing, purchased additional real estate
using a different Social Security number.                      In Philadelphia, PA, defendants Ronald Banks
Stephenson-First’s real estate activity, which in-        and Denea Langston, creators of the fictitious
volved approximately $450,000 in fraudulently             nonprofit organization called Unity Foundation,
originated loans, resulted in $90,000 in losses.          each pled guilty to theft by deception, forgery, and
                                                          criminal conspiracy, all of which are felony Penn-
    Defendant Edwin Billones, a Whittier real             sylvania State Crime Code violations. These
estate agent, pled guilty in Los Angeles, CA, in          charges stem from the defendants’ scheme to
Federal Court for the Central District of California,     illegally solicit approximately $125,000 from at
to one count of wire fraud. Billones worked as a          least five victims. As part of the scheme, victims
real estate investor, doing business as E.B. and          were told they were investing money by purchasing
Associates, Holding L.L.C., Rising L.L.C., and            lots or abandoned properties that were going to be
South Central L.A. Properties. As an investor,            developed into low-income housing with a grant
Billones was responsible for obtaining loans for the      from HUD. The defendants created fake documents,
purchase of his real properties. He allegedly caused      such as deeds and real estate tax statements, to back
fraudulently prepared employment, income, and             up their claims. They even created a letter with the
credit documents to be submitted to HUD along with        forged signature of former HUD Secretary Henry
loan applications for funding and approval by FHA.        Cisneros to support their scheme.
As a result of this fraud, Billones caused over $8.6

Chapter 2 - HUD’s Single Family Housing Programs                                                               22
    In Charlotte, NC, in Federal Court for the              Defendant Dora Medrano, a real estate agent,
Western District of North Carolina, defendant           was indicted in Los Angeles, CA, in Federal Court
Theodore Peterson, a former certified public            for the Central District of California, on charges of
accountant (CPA), was indicted on four counts of        wire fraud and false statements. While working as a
submitting false statements and four counts of          real estate agent for Sunset Investments, Medrano
submitting false statements to HUD. Peterson alleg-     acquired false employment, credit, and income
edly submitted false and fraudulent annual financial    documents that were submitted to lenders for FHA
statements to GNMA/HUD for FY 1999. According to        insured loans. Medrano’s actions caused $6.4
the indictment, Peterson made false statements to       million in fraudulently insured loans to be submit-
HUD in a 1999 audit letter and reports, in which he     ted to HUD and various lending institutions.
claimed he was a CPA and had performed certain
                                                            Defendants Marcelo Giglio, Elias Zepeda, and
audits of First Beneficial Mortgage Corporation’s
                                                        Ruth Chacon were charged in the same court with
(FBMC) financial statements in compliance with
                                                        wire fraud, aiding and abetting, and causing an act
HUD program requirements. Peterson, however, was
                                                        to be done. The defendants allegedly engaged in a
not a CPA as his certification had been suspended,
                                                        scheme to purchase false loan documents and
and he did not perform the tests and verifications as
                                                        include them in loan files that were submitted to
he represented. The indictment further alleges that
                                                        HUD.
GNMA/HUD relied on Peterson’s audit letter and
reports in extending FBMC’s authority to issue up to
                                                            In Los Angeles, CA, in Federal Court for the
$50 million in government guaranteed mortgage-
                                                        Central District of California, defendants Paul
backed securities. Had Peterson conducted the
                                                        Peterson, president of Peterson Land and Develop-
necessary tests and verifications, he would have
                                                        ment, and William Peterson, a real estate agent who
discovered that FBMC engaged in a massive fraud by
                                                        worked for Peterson Land and Development, were
creating fictitious mortgages that it sold on the
                                                        each indicted on one count of conspiracy and four
secondary mortgage market. During the time that
                                                        counts of false statements. Peterson Land and
GNMA/HUD relied on Peterson’s audit letter and
                                                        Development developed residential properties, some
reports, FBMC issued approximately $10 million in
                                                        of which were sold with FHA insured mortgage
government guaranteed securities backed by ficti-
                                                        loans. Allegedly, the defendants knowingly con-
tious and fraudulent mortgages.
                                                        spired and agreed to make materially false, ficti-
                                                        tious, and fraudulent statements in their dealings
    Defendant John Acevedo, former real estate
                                                        with HUD. The loss to HUD is $4,020,883.
agent at Exclusive Right Realty, was indicted in Los
Angeles, CA, in Federal Court for the Central
                                                             Mortgage brokers and speculators Ronald
District of California, on one count of aiding and
                                                        Burger and Sage Gibbons, doing business as Cen-
abetting and one count of wire fraud. On the same
                                                        tury Mortgage; real estate agent Sally Gibson; real
date, defendant Sofia Fernandez, an unlicensed loan
                                                        estate appraiser John Hansen; and escrow officer
processor at Consorcio Lending, was indicted on
                                                        Cathy Patrick were indicted in Spokane, WA, in
one count of aiding and abetting and three counts of
                                                        U.S. District Court for the Eastern District of
wire fraud. Acevedo and Fernandez participated in
                                                        Washington, on one count of conspiracy and 16
a fraudulent loan origination scheme wherein
                                                        counts of wire fraud for their role in a scheme to
Acevedo recruited several unqualified strawbuyers
                                                        defraud lenders. An investigation revealed that from
to purchase FHA insured properties. Fernandez
                                                        July 1997 through November 2000, Burger and
provided the strawbuyers with fraudulent credit and
                                                        Gibbons purchased and then flipped numerous
employment information to make them appear
                                                        homes, including HUD real estate owned properties,
qualified for the loans. She also provided false
                                                        at inflated prices to individuals whom they made
verifications of employment. In total, the scheme
                                                        appear qualified by using a variety of falsified
caused about $8.5 million in fraudulent loans to be
                                                        documents. The fraudulent loans were then sold on
funded with FHA insured loans. Both defendants
                                                        the secondary market; buyers of the loans included
have been arrested.
                                                        Ginnie Mae and Freddie Mac. Since the homes
Chapter 2 - HUD’s Single Family Housing Programs                                                           23
were sold at inflated prices, and the loans were at     counts of wire fraud, theft of government property,
high interest rates, many buyers were forced into       bank fraud, and theft of government funds over
foreclosure because they were unable to make the        $1,000. Terrance Hansen allegedly used his posi-
payments, refinance the loans, or sell the proper-      tion at HUD to sell HUD owned properties to his
ties. It is anticipated that losses could exceed $1.4   family for $600 when their appraised value was
million.                                                between $70,000 and $100,000. Later, Hansen
                                                        family members refinanced and cashed out equity,
Theft of Funds                                          totaling approximately $70,000. Chad Elve, Dawn
                                                        Elve, and Judy Hansen each bought a property
    Defendant Carrie Wilson was arraigned in State      while Terrance Hansen was in his position of
Court, Suffolk County, NY, on a four-count              responsibility at HUD.
indictment. She was charged with one count of
second degree grand larceny and three counts of             Defendant Dennie Washington was indicted in
offering to file a false instrument. Reverend Wilson    St. Louis, MO, in Federal Court for the Eastern
and her nonprofit organization, New Life Christian      District of Missouri, on two counts of bank fraud
Ministries, are charged with defrauding the FHA         for allegedly manufacturing counterfeit checks
Insurance Program by wrongfully taking over             drawn on the St. Louis City and St. Louis County
$500,000 from the County of Suffolk for expenses        Housing Authorities. The indictment alleges that
that were either not incurred or were unrelated to      Washington engaged in a scheme beginning in
the nonprofit homeless shelters.                        October 2002 and continuing until April 2003 to
                                                        obtain moneys by means of material false and
    Defendant Wendy Elder was charged with              fraudulent pretenses. During that time period,
felony theft and uttering in a superseding 16-count     Washington created and transacted over $80,000 in
indictment issued in the Circuit Court for Mont-        fraudulent Housing Authority checks. Along with
gomery County, MD. From 1998 through 2001,              losses incurred by financial institutions, the St.
while employed at Shapiro and Shapiro as a settle-      Louis County Housing Authority lost over $28,000
ment agent and an assistant to Mitchell Shapiro,        from its Section 8 account.
Elder allegedly fraudulently generated and negoti-
ated 28 checks. The checks were drawn from the          Officer/Teacher Next Door Program
business escrow account of Shapiro and Shapiro,
which handled both FHA insured and conventional             Defendant Ismael Rodriquez was sentenced in
loans. Elder falsely recorded 25 different reasons      Newark, NJ, in Federal Court for the District of
for issuance of the checks to mislead Shapiro and       New Jersey, for making false statements. Rodriquez
Shapiro and conceal the fact that she made the          was sentenced to six months home arrest and five
checks payable to her own personal bank account at      years probation, and was ordered to pay $63,600 in
Potomac Valley Bank. She stole a total of $212,674,     restitution and a $100 special assessment fee. The
most of which she used to pay her mortgage and          prosecution of Rodriquez included the successful
purchase cars. Elder was on probation for another       imposition of a two-point upward adjustment in
theft conviction when she was stealing from             Rodriquez’s base offense level to reflect his abuse
Shapiro and Shapiro. A bench warrant has been           of a position of public trust. This successful imposi-
issued for Elder’s arrest.                              tion of the adjustment is the first of its kind in an
                                                        Officer Next Door (OND) Program criminal investi-
    The Federal Court for the Western District of       gation. The investigation disclosed that in Decem-
Michigan indicted defendants Terrance Hansen,           ber 1999, Rodriquez, who had been employed as a
former real estate owned supervisor for HUD in          Sheriff’s Officer by the Essex County Sheriff’s
Grand Rapids, MI, Judy Hansen, former multi-            Department, purchased a home via the OND Pro-
family specialist for HUD in Grand Rapids, and          gram at a 50 percent discount of $13,600. In May
Chad and Dawn Elve, Judy Hansen’s son and               2000, approximately nine months later, Rodriquez
daughter. The defendants were indicted on multiple

Chapter 2 - HUD’s Single Family Housing Programs                                                            24
purchased another house via the OND Program at a        FHA  insured property in Puerto Rico. He indicated
50 percent discount, realizing a savings of $50,000.    on all the loan applications that he would occupy
                                                        the properties as his primary residence.
     In Chicago, IL, defendant Terrance Tabb, a
Police Officer with the Cook County Sheriff’s               In Miami, FL, in Federal Court for the South-
Department, paid $65,000 to the U.S. Attorney’s         ern District of Florida, three law enforcement
Office, Civil Division, for the Northern District of    officers who purchased homes through HUD’s OND
Illinois, which was essentially double damages for      Program were indicted on charges of making false
the $32,500 discount he received on his purchase of     statements to HUD and to federal law enforcement
an Officer Next Door Program property. Tabb             officers. Gwendolyn Okotogbo, a Corrections
rented the property to Section 8 tenants following      Officer for the Metro-Dade Department of Correc-
his June 1999 purchase, instead of occupying the        tions, and Torris Cooper, a Police Officer for the
property as required by HUD regulations.                South Miami Police Department, were charged with
                                                        falsely claiming that they used/intended to use their
     In Pittsburgh, PA, the Real Estate Owned           HUD OND homes as their sole residences during the
Branch (REO) of the Philadelphia Home Ownership         three-year occupancy requirement. Charles
Center, received a certified check in the amount of     Brunson, a police officer for the City of Opa Locka
$10,400. The REO ordered Carolyn D. Lewis to            Police Department, was charged with making a
repay $10,400 to HUD as a result of her submitting      false statement to federal law enforcement officers
false statements in order to purchase a discounted      and using a false document in order to support his
property under HUD’s Officer Next Door/Teacher          false statement to the officers.
Next Door Program (OND/TND) in January 2001.
Lewis, a teacher, was identified as one of 10 OND/          Defendant Stacey L. Orr, a former Police
TND recipients in the greater Pittsburgh area to        Officer, was indicted in Milwaukee, WI, in U.S.
purchase a home within the past three years. She        District Court for the Eastern District of Wisconsin,
previously certified that she would maintain the        on two counts of making false statements to the
TND property as her primary residence and that she      Department of Veterans Affairs (DVA) in connection
would not own any other property. An investigation      with two uniform residential loan applications used
found that Lewis was still the owner of two proper-     to obtain guarantees on two mortgages for two
ties in Philadelphia.                                   separate properties located in Kenosha, WI. The
                                                        indictment charges that Orr failed to disclose the
     The U.S. Attorney’s Office in the Northern
                                                        existence of loans from the Kenosha Police and Fire
District of Illinois filed a suit seeking treble dam-
                                                        Credit Union on which he was making payments.
ages amounting to $185,000 against defendant
                                                        On the dates of the alleged false statements, the
Robert Mohedano, a former Chicago, IL Police
                                                        unpaid balances were identified as $35,688 and
Officer. Mohedano purchased a HUD property for
                                                        $29,183, respectively. The second count of the
$61,500 through OND and agreed to live in the
                                                        indictment charges that the false statement therein
house, located in an economically distressed area,
                                                        related to the refinancing of a property obtained
for a minimum of three years in return for a 50
                                                        through HUD’s OND Program. The indictment states
percent discount of the sale price. Instead of living
                                                        that both mortgages subsequently went into foreclo-
in the home, Mohedano allegedly rented the OND
                                                        sure and as a result, Orr failed to complete his
property to a market rate tenant while he lived
                                                        required three-year residency under the OND, and
elsewhere. Two months after he purchased the
                                                        the DVA paid out $27,183 due to the guaranty.
property, Mohedano refinanced the house using a
fictitious lease agreement between him and his
                                                           A five-count False Claims Act civil complaint
girlfriend and received about $70,000 in cash
                                                        was filed in the Southern District of Texas by the
proceeds. While still bound by the OND three-year
                                                        Houston, TX U.S. Attorney’s Office against
commitment to live in the HUD property, Mohedano
                                                        Charles Anthony, a deputy with the Harris County
refinanced his other two properties and purchased
                                                        Sheriff’s Department. An investigation disclosed
an additional two properties, one of which was an
Chapter 2 - HUD’s Single Family Housing Programs                                                           25
that Anthony violated OND Program regulations by          OIG Offices of Audit and
failing to live in a home that he purchased at a
discounted price. Under the False Claims Act, the         Investigation – Joint Efforts
government is entitled to recover three times the
amount of actual damages plus civil penalties and             The joint effort, in which both HUD OIG Investi-
other fees.                                               gators and Auditors bring to a case their respective
                                                          areas of expertise, is an effective means of complet-
    In Buffalo, NY, defendant Deborah Floyd, a            ing an investigation, and is often the only way to
New York State Corrections Officer, entered into a        put together the necessary pieces of an investigative
Program Fraud Civil Remedies Act settlement with          case.
HUD whereby she agreed to repay $15,000 in
monthly installments after an initial payment of              Two defendants were sentenced in Phoenix,
$1,000. In 1998, Floyd falsely certified to HUD that      AZ, in U.S. District Court for the District of
she would use a home purchased under the OND              Arizona. Julio Hidalgo, Sr., a real estate broker at
Program as her primary residence for a period of          Julio and Associates in Mesa, AZ, was sentenced
three years from the date of closing, but instead         to six months home confinement, three years
rented the property to a Section 8 tenant. Floyd          probation, 80 hours of community service, fines
received a $17,000 discount on the property.              totaling $5,100, and restitution of $24,552 to HUD.
                                                          Julio Hidalgo, Jr., also a real estate agent at Julio
                                                          and Associates, was sentenced to six months in
Debarments                                                prison, one year probation, and restitution of
    Albert R. Coccia, former general manager of           $24,552 to HUD, and was ordered to pay $25,785 to
Arco Redevelopment Corporation in Philadelphia,           former real estate clients. Both Hidalgos previously
PA, was notified of his immediate debarment from          pled guilty to one count of submitting false state-
procurement and non-procurement transactions with         ments to HUD. They were indicted on one count of
HUD and throughout the Executive Branch of the            conspiracy, 12 counts of submitting false statements
Federal Government. The debarment is pursuant to          to HUD, and five counts of mail fraud. An investiga-
Coccia’s guilty plea to a multiple count indictment,      tion disclosed that the Hidalgos stole money from
including false statements to HUD and money               homebuyers claiming additional funds were needed
laundering. He was sentenced to 27 months in              for closing, and produced numerous false W-2’s,
prison and three years supervised release, and was        pay stubs, letters of credit, and verification of
fined $900. Coccia was also ordered to forfeit            employment forms for the purchase of homes with
$5,157 in property and pay $14,421 in restitution to      FHA insured mortgages. About 72 loans originated
HUD.                                                      by the Hidalgos were identified as fraudulent, with
                                                          FHA insurance totaling over $6.1 million.
    Defendant John W. Carson, a former loan
officer for the now closed Bensalem, PA branch of             In Chicago, IL, defendant Craig Hendrick,
Market Street Mortgage Corporation, Inc., has             former loan officer for Challenge Mortgage in Oak
agreed to an 18-month debarment from participa-           Forest, IL, pled guilty in Cook County Court in
tion in primary covered transactions and lower-tier       two separate investigations. The conviction for
covered transactions, including procurement con-          forgery stemmed from a State of Illinois/Attorney
tracts, as a participant, principal, or contractor with   General investigation which disclosed that Hendrick
HUD and throughout the Executive Branch of the            was responsible for stealing the identities of de-
Federal Government. Carson’s debarment was                ceased individuals and paying strawbuyers to
based on his facilitating and allowing false docu-        assume those identities and obtain FHA insured
ments to be submitted to HUD. These documents             mortgages at grossly inflated rates. Six different
were used in the origination and endorsement of           FHA insured loans were involved in this scheme.
three FHA insured loans.                                  HUD’s losses were in excess of $300,000.



Chapter 2 - HUD’s Single Family Housing Programs                                                             26
     The other conviction stemmed from a Cook               In Riverhead, NY, defendants Brian Bass, S.
County State Attorney’s Office investigation which      Charles Buschemi, Michael Capasso, Thomas
disclosed that Hendrick falsified deeds in order to     Capasso, Ronald Davies, Ronald Farr, Michael
sell properties he did not own, and again stole the     Grunfast, Irwin Izen, William Porter, Eric
identities of deceased individuals and paid             Sackstein, Barry Segal, Gary Smith, and Alan
strawbuyers to use these identities to obtain FHA       Wolinsky, all Long Island real estate attorneys, and
insured loans. Specifically, Hendrick admitted to       Covenant Abstract Company, Inc., a title abstract
selling two properties he did not own through the       company, have agreed to a civil settlement with HUD
fraudulent deed scheme, while on five occasions he      and the U.S. Attorney’s Office for alleged viola-
participated in the stolen identity/strawbuyer/FHA      tions of the anti-kickback statutes of the Real Estate
loan scheme.                                            Settlement Procedures Act (RESPA). The individual
                                                        defendants referred title business to Covenant
    In each of the cases, Hendrick acted as the
                                                        Abstract, and in direct violation of Section 8(a) of
seller and loan officer, but failed to disclose this
                                                        RESPA, Covenant compensated them for such
through the use of an alias in his role as seller. In
                                                        referrals based solely on the volume of business
total, Hendrick was sentenced to four years incar-
                                                        each referred to Covenant. The defendants have
ceration for the State of Illinois investigation and
                                                        agreed to pay HUD a $200,000 penalty. In addition,
six years incarceration for the Cook County case.
                                                        the attorneys and the title company agreed to be
He was ordered to serve those sentences concur-
                                                        barred from title work for a three-year period.
rently. Hendrick’s co-defendants in the Attorney
General case, Tom Fazy and Ruben Walden, have
                                                            In Philadelphia, PA, a removal letter was
been convicted and sentenced. Relative to the Cook
                                                        issued to a HUD employee in the Real Estate Owned
County case, Stacey Johnson has been convicted
                                                        (REO) Division, Mid-Atlantic Region, after an
and sentenced, while Tom and Julie Fazy have yet
                                                        investigation found evidence that the employee used
to plead guilty.
                                                        a strawbuyer to purchase an REO property. The
                                                        employee admitted to obtaining a personal loan and
    Homestead Financial Services of Syracuse, NY,
                                                        providing the proceeds to the strawbuyer for the
was fined $50,000 by HUD’s Mortgagee Review
                                                        purchase of the property. The investigation revealed
Board. Tim Ward, president of Homestead Finan-
                                                        that she referred to the strawbuyer as her spouse in
cial Services, illegally diverted a portion of the
                                                        documents she submitted to HUD to become a
closing costs associated with FHA mortgages from
                                                        Voluntary Leave Transfer Program recipient. The
homebuyers to his personal bank account. In
                                                        “spouse” quit-claimed the property for $1.00 to the
addition, Homestead used non-approved mortgage
                                                        employee, who failed to disclose ownership of the
brokers to process FHA loans.
                                                        property on her Financial Disclosure Report. In
                                                        addition, HUD requires its employees to provide, in
    In Mesquite, TX, Darlyn Lawson was debarred
                                                        writing, a request for approval to bid on HUD owned
from future participation in procurement and non-
                                                        properties. The employee failed to do so, and
procurement activities with HUD and the Executive
                                                        evidence of her knowledge of the requirement was
Branch for a period of three years from the time of
                                                        determined when she requested this approval when
her suspension (January 15, 2002). This investiga-
                                                        her brother purchased an REO property prior to this
tion stemmed from a project to identify mortgage
                                                        incident. HUD charged the employee with a viola-
companies with a high rate of defaults on FHA
                                                        tion of the Standards of Ethical Conduct and falsifi-
loans. American Investment Mortgage (AIM), as well
                                                        cation of a Financial Disclosure Report. A Merit
as Royal Lending, a net branch of AIM, were both
                                                        Systems Protection Board judge reversed the re-
reviewed because of their high default rates. An
                                                        moval of this employee; however, HUD submitted an
examination of Royal Lending’s files revealed that,
                                                        appeal to the full Board who will return a decision
in some cases, false documents were relied on to
                                                        within 120 days.
approve FHA insured loans.



Chapter 2 - HUD’s Single Family Housing Programs                                                            27
    In Washington, DC, the HUD Enforcement              Denver metro area using Romero as the real estate
Center filed a three-count complaint charging an        agent. Together they obtained strawbuyers to
Officer Next Door (OND) Program recipient under         purchase properties while providing them with false
the Program Fraud Civil Remedies Act (PFCRA).           information so they would qualify for the loans.
This matter was the result of an investigation that     Slavens and Martinez acted as strawbuyers on a
disclosed that defendant Michael Pinto provided         number of the properties. Martinez also provided
false certifications on his Sections 203(k) and         false income tax returns/W-2 forms, and both
203(b) FHA mortgage loan applications, certifying       Slavens and Martinez provided false income infor-
that the property for which he was receiving a          mation for the strawbuyers.
mortgage would be his primary residence. He also
provided a false certification on his OND certifica-
tion in which he certified that he did not own any
other residential real property, when in fact he
owned an investment property for which he ob-
tained the 203(k) and 203(b) mortgages. The
complaint sought $98,000 from the defendant under
PFCRA for the FHA and OND matters.


    Jerald Leonard Bohannon was notified by the
HUD Enforcement Center in Washington, DC, that
he has been immediately suspended from participa-
tion in transactions with the Executive Branch of
the Federal Government, and that HUD has pro-
posed his debarment from any involvement with the
Federal Government for a period of three years.
Bohannon was suspended after pleading guilty in
Federal Court for the Northern District of Georgia
to using a false Social Security number to obtain a
Title I HUD insured property improvement loan.
The false Social Security number was used to hide
his true credit situation. Additionally, Lynda Elaine
Bohannon, his wife, entered into a pre-trial diver-
sion agreement for her part in making the false
statements.

    In Denver, CO, defendant Elena Romero
received notification of her proposed debarment
from participation in procurement and non-procure-
ment transactions as a participant or principal with
HUD and throughout the Executive Branch of the
Federal Government for a three-year period. At the
same time, Romero, Torres and Associates was
notified of their proposed debarment. Defendant
Andres Torres was notified of his proposed debar-
ment for an indefinite period. The parties previ-
ously pled guilty to conspiracy in a real estate
scheme involving Andres Torres, his former wife,
Elena Romero, Michael Slavens, and other
strawbuyers. Torres acquired properties in the

Chapter 2 - HUD’s Single Family Housing Programs                                                         28
   Chapter 3 — HUD’s Public and Indian Housing Programs
    HUD provides grants and subsidies to approximately 4,200 public housing authorities (HAs) nationwide.
About 3,200 HAs manage public housing units and another 1,000 HAs, with no public housing, manage
units under Section 8 Programs. (Many HAs administer both Public Housing and Section 8 Programs.)
HUD also provides assistance directly to HAs’ resident organizations to encourage increased resident
management of public housing developments and to promote the formation and development of resident
management entities and resident skills. Programs administered by HAs are designed to enable low-income
families, the elderly, and persons with disabilities to obtain and reside in housing that is safe, decent,
sanitary and in good repair.

Audits
    During this reporting period, the OIG issued 21 reports; one internal audit, one internal memorandum,
twelve external audits, and seven external memoranda in the Public and Indian Housing Program area.
These reports disclosed over $24 million in questioned costs, and almost $1.9 million in recommendations
that funds be put to better use. We conducted reviews of HUD’s Public and Indian Housing Information
Center, property management contracts, various activities in Section 8, Low-Income Housing Programs,
and the general administrative activities of some HAs.


            Public and Indian Housing Reports Issued                   Public and Indian Housing Dollars


                                                         $30,000,000
                                  1      1
             7                                           $25,000,000

                                                         $20,000,000

                                                         $15,000,000

                                                         $10,000,000
                                              12
                                                          $5,000,000

                                                                 $0
            Internal Audit        Internal Memorandum                    External Audits     External Memoranda
            External Reports      External Memoranda                     Questioned Costs   Funds Put to Better Use




PIH Information Center
    In Washington, DC, we completed an audit of the management, operational, and technical controls
over the security of HUD’s Public and Indian Housing Information Center (PIC). PIC is a technologically
advanced web-based information system designed to facilitate a more timely and accurate exchange of data
between public housing agencies (PHAs) and local HUD offices by allowing PHAs to electronically submit
information to HUD. We found deficiencies and weaknesses in controls including: (1) inadequate queries
and reports for monitoring and controlling user access to PIC; (2) lack of a comprehensive process for
monitoring and controlling PIC user access; (3) inadequate access controls over the PIC Security
Administration Sub-Module; (4) no segregation of duties over the Security System Administration
function; (5) inadequate controls for safeguarding confidential and sensitive PIC data; (6) weak access
controls for identifying and authenticating PIC users; and (7) not using system and application audit logs for
security and system maintenance purposes.



Chapter 3 - HUD’s Public and Indian Housing Programs                                                                  29
     A comprehensive assessment of vulnerabilities       procedures to correctly perform and document unit
and risks was not performed during the initiation or     inspections at housing developments, and to gener-
development/acquisition phases of the PIC system         ate and address repair work orders timely; and (5)
life cycle. Furthermore, a comprehensive security        implements policies and controls to recertify
policy was not prepared before security aspects of       tenants on their move-in anniversary dates and
the PIC system were developed.                           maintains signed documentation for all tenants at
                                                         the housing sites. (Report No. 2003-CH-1018)
    These deficiencies and weaknesses expose PIC
data to unnecessary risk of loss of confidentiality,
integrity, and availability. HUD’s Office of Public      Section 8 Programs
and Indian Housing (PIH) has taken action to                 In response to a request from HUD’s Public
correct several control weaknesses. However, more        Housing Program Center Coordinator, Indianapolis
remains to be done. Risks of system disruption,          Field Office, we audited the Fayette County, IN
exploitation of data for identity theft and fraud, and   Housing Authority’s Section 8 Housing Program
destruction of data by malicious hackers or dis-         and found that the Authority did not administer its
gruntled employees remain.                               Section 8 Program in an efficient and effective
    We recommended that PIH conduct a compre-            manner, and failed to comply with HUD’s housing
hensive vulnerability and risk assessment, develop a     quality standards for its rental units. Contrary to
comprehensive security plan for PIC, and correct         HUD directives, the Authority requested over
deficiencies and weaknesses in operational and           $538,000 in excess Section 8 funds from HUD over
technical controls. (Report No. 2003-DP-0001)            a four-year period to cover prior operating losses.
                                                         HUD ordered the Authority to cease this practice in
Property Management Contracts                            February 2000. The Authority did not have ad-
                                                         equate cash to repay the funds to HUD, and will take
    An OIG audit of the Chicago, IL Housing              over 27 years to return the over-claimed subsidy at
Authority’s outsourced property management               the current repayment rate of $20,000 per year.
contracts found that the Authority failed to properly
                                                             We also found that the Authority did not ad-
monitor and administer its management agreements
                                                         equately control its receipt and use of cash and did
with nine private management firms and two resi-
                                                         not adequately maintain 15 units it rented to Section
dent management corporations. The Authority did
                                                         8 tenants. A March 2002 OIG inspection of the units
not properly monitor its contractors’ compliance
                                                         identified 240 housing quality standards violations.
with requirements of the Minority, Women, and
                                                         The Authority’s former housing inspector failed to
Disadvantaged Business Enterprises and Section 3
                                                         identify 113 of these existing deficiencies at the time
Programs. The management contractors also failed
                                                         of his inspections between 1998 and 2001. The
to adhere to their management agreements and
                                                         Authority had identified 40 of the 240 violations,
other requirements for maintenance, work orders,
                                                         but failed to correct them.
unit inspections, and tenant recertifications.
                                                             We recommended that HUD: (1) take administra-
    We recommended that HUD ensure that the
                                                         tive action against the Authority’s former executive
Authority: (1) imposes all available remedies
                                                         director and board members for the excessive
against the contractors for their noncompliance or
                                                         Section 8 fund requests, improper use of Section 8
obtains all necessary documentation to support
                                                         funds, and their failure to properly maintain Section
unsupported program expenses of over $11 million;
                                                         8 rental units; (2) require the Authority to provide
(2) implements policies and procedures to monitor
                                                         adequate supporting documentation for expenditures
the performance of its contractors and maintains the
                                                         cited in the report and repay its Section 8 Voucher
required documents to support the contractors’
                                                         Program from non-federal funds for ineligible and
compliance; (3) provides training and refresher
                                                         unsupported items; and (3) require the Authority to
courses for the management contractors to assure
                                                         repay its Section 8 Voucher Program from non-
that contractors are fully aware of federal require-
                                                         federal funds for the Section 8 subsidies it received
ments and standards; (4) implements policies and

Chapter 3 - HUD’s Public and Indian Housing Programs                                                          30
for rental properties that it owned but did not            the Authority now has the flexibility to allocate
properly maintain. (Report No. 2003-CH-1019)               Section 8 funds not used on vouchers for other
                                                           housing activities, including capital programs. Even
     We audited the Philadelphia, PA Housing               though the Authority is now under the demonstra-
Authority’s Tenant-Based Section 8 Program to              tion program, the operational issues identified in
determine why the Authority was not fully utilizing        this report are still pertinent and need to be ad-
its tenant-based Section 8 funding to assist the           dressed to improve operations. The Authority
maximum number of families under the program.              recognized this and took corrective action to ad-
Although the Authority has steadily increased the          dress a number of the issues during the audit.
number of vouchers it issued since March 2000, it          However, further actions need to be taken to ad-
has consistently and significantly underutilized its       dress the remaining issues.
available Section 8 funding from HUD. For example,
                                                               We recommended, among other things, that the
for its fiscal year ending March 2000, the Authority
                                                           Authority be directed to implement measures
did not use $24.7 million of its available budget
                                                           required by its Administrative Plan to analyze the
authority of $96.6 million, and $23.9 million of its
                                                           adequacy of its payment standards annually; de-
available budget authority of $107.6 million for its
                                                           velop supervisory procedures to ensure that Section
fiscal year ending March 2001. Since the Authority
                                                           8 employees enter complete management data into
was not able to fully utilize its available funding,
                                                           the Authority’s computer system and adequately
HUD recaptured $47.9 million of Section 8 funds
                                                           maintain client files; and collect and analyze data
from the Authority in August 2001. However, about
                                                           recommended in HUD’s Housing Choice Voucher
18,000 families remained on the Authority’s Sec-
                                                           Program Guidebook to include response rates from
tion 8 waiting list as of January 2002. We estimate
                                                           waiting lists, voucher success rates, and staffing
that the Authority could have assisted an additional
                                                           required for lease-up, and use the results to develop
3,200 families.
                                                           a strategy to improve utilization. (Report No. 2003-
     In our audit, we identified a number of weak-         PH-1803)
nesses in the Authority’s Section 8 administration
that adversely impacted its ability to fully utilize its       In Belmont, CA, in response to concerns of the
Section 8 funding. Specifically, we found the              Director of Public Housing in the HUD San Fran-
Authority needed to more effectively implement             cisco Office, we completed an audit of the Housing
required procedures to improve utilization; super-         Authority of the County of San Mateo’s (HACSM)
vise employees; collect, maintain, and analyze key         Conventional Low-Rent Housing and Section 8
program data; follow up on its landlord and voucher        Subsidy Programs. The objective of the review was
holder outreach efforts; and address external factors      to determine if HACSM could improve the effective-
it believed contributed to low utilization. Further,       ness of operations and compliance with federal
we noted the Authority requested and received more         requirements over its procurement and contracting
than 3,700 additional vouchers, from April 1999            practices.
through April 2001, that it could not reasonably
                                                               We identified serious problems relating to
accommodate; this only exacerbated its utilization
                                                           HACSM’s procurement and contracting practices.
problem.
                                                           This included the continued use of a vendor/
    In February 2002, HUD signed an agreement              contractor for rehabilitation without following
with the Authority accepting it into a new flexible        appropriate procurement, bidding, and contracting
housing demonstration program known as Moving              practices as required by the Codes of Federal
to Work. Although the Authority’s Moving to Work           Regulations and HUD handbooks. HACSM also
agreement included a Section 8 component, it               contracted with the County of San Mateo, a related
marked the end of the Authority’s traditional              party, without following procurement practices or
Section 8 Program until April 2008. Under Moving           maintaining records to substantiate expenses. In
to Work, HUD exempted the Authority from many              addition, HACSM failed to follow appropriate pur-
Public Housing and Section 8 Program rules, and            chase order procedures. As a result, HACSM in-

Chapter 3 - HUD’s Public and Indian Housing Programs                                                          31
curred over $230,000 in excessive and unreasonable          We recommended that HUD instruct the County
costs and $90,000 in questionable and unsupported      to: (1) reimburse all ineligible costs to the Section 8
expenditures charged to federally funded programs.     Program from non-federal funds; (2) determine the
                                                       eligibility of all unsupported housing assistance
    We recommended that HUD require HACSM to
                                                       payments; and (3) submit the year-end settlement
revise its procurement policies to ensure they
                                                       forms for the appropriate fiscal years so that HUD
comply with appropriate requirements, return
                                                       can perform the year-end settlement reconciliations.
excessive unit turnover maintenance costs of over
                                                       We also made recommendations that should im-
$230,000 to the project’s operating account, de-
                                                       prove the County’s internal controls and enhance
velop procedures and controls to ensure it only
                                                       compliance with HUD requirements and regulations.
reimburses the County of San Mateo for actual
                                                       (Report No. 2003-NY-1801)
expenses, and provide support for all questionable
costs. (Report No. 2003-LA-1002)
                                                            In response to a citizen’s complaint, we audited
                                                       the Seattle, WA Housing Authority’s administration
    We reviewed the Union County, NJ Division of
                                                       of its HUD subsidized Welfare-to-Work (WTW)
Community Development to determine: (1) the
                                                       Section 8 Tenant-Based Assistance Program. The
cause of a misappropriation of Section 8 funds; (2)
                                                       complaint alleged that the Authority is not properly
the total amount of Section 8 funds misappropri-
                                                       administering its WTW Program when selecting
ated; (3) if Community Development Block Grant
                                                       program voucher recipients, and procuring the
(CDBG) rehabilitation funds were misappropriated;
                                                       services of nonprofit organizations to assist and
and (4) whether the County has procedures in place
                                                       recruit prospective WTW program applicants. We
to monitor the activities of a consultant that is
                                                       found that the complaint was generally valid. We
currently administering the County’s Section 8
                                                       believe that in its haste to get its WTW Program
Program. The review disclosed that an employee of
                                                       vouchers leased up by the deadline, the Authority
a former consulting firm, which administered a
                                                       disregarded program requirements, and did not
portion of the County’s Section 8 Program, em-
                                                       provide adequate management oversight over
bezzled over $209,000 of program funds, and that
                                                       program implementation. As a result, the Authority
the existence of various program participants is
                                                       did not achieve the objective of the WTW Program
questionable. The review also disclosed that the
                                                       to assist eligible families in transitioning from
County did not submit the required Section 8 year-
                                                       welfare to work. In addition, the Authority denied
end settlement forms to HUD for the years ended
                                                       many long-time Section 8 waiting list applicants the
December 31, 2000, and 2001. This occurred
                                                       opportunity to participate in a program that would
because the County completely relied on consult-
                                                       help them transition from welfare to work. Al-
ants to administer its Section 8 Program, and
                                                       though the Authority followed its procurement
because one consultant did not maintain adequate
                                                       requirements, it spent over $130,000 of WTW funds
program records. As such, the County failed to
                                                       on ineligible costs.
properly monitor the consultants to ensure adher-
ence with program requirements, and to obtain               We recommended that HUD require the Author-
assurances that funds were being properly safe-        ity to take corrective action to comply with WTW
guarded. We questioned housing assistance payment      Program requirements and reimburse the program
costs of over $73,000 due to inadequate supporting     for ineligible costs. We also recommended that HUD
documentation.                                         review the Authority’s performance as a designated
                                                       Moving to Work (high performer) Authority.
     The review disclosed that the County currently
                                                       (Report No. 2003-SE-1003)
has procedures in place to monitor the activities of
the consultants administering its Section 8 Housing
                                                            As part of our audit of public housing authori-
Assistance Program, and that there were no indica-
                                                       ties (PHAs) in Massachusetts and their administra-
tions that funds under the County’s CDBG Rehabili-
                                                       tion of the mobility/portability features of housing
tation Program were misappropriated.
                                                       choice vouchers, we performed a limited review of
                                                       the Brockton, MA Housing Authority. We found
Chapter 3 - HUD’s Public and Indian Housing Programs                                                        32
that the Authority was generally administering the      improper contracting actions, and did not ad-
mobility/portability features of its housing choice     equately administer its HOPE VI contracts. These
vouchers effectively and efficiently. However, our      deficiencies occurred because the former executive
review disclosed that families terminated from the      director did not establish an adequate internal
Authority’s Section 8 Program were not removed          control environment for the program’s administra-
from the reimbursement rolls of the initial PHA in      tion.
all cases. We attributed this to the fact that the
                                                            In addition, the Authority: did not follow HUD
Authority failed to reconcile its Section 8 Portabil-
                                                        requirements when drawing funds from the HUD
ity-In Accounts Receivable Accounts. The
                                                        Line of Credit Control System (LOCCS); did not
Authority’s General Ledger and Subsidiary Ac-
                                                        maintain accurate and complete accounting records;
counts for Portability-In Accounts Receivable were
                                                        and displayed various other deficient financial
out of balance by almost $417,000 at October 31,
                                                        management practices. These deficiencies occurred
2002.
                                                        because Authority managers did not provide ad-
    We recommended, among other things, that the        equate supervision and oversight and did not
Authority be required to explain how the                establish proper procedures to ensure the Authority
unreconciled balance of almost $417,000 will be         was in full compliance with grant agreements and
refunded or collected. The Authority should also        other applicable requirements. The Authority’s poor
assure HUD that the repayments or collections will      financial management resulted in several deficien-
not be reflected in any current, future, or prior       cies, including: over $31.7 million in funds drawn
year-end settlement with HUD, and that the handling     from LOCCS that could not be readily supported;
of repayments or collections will not conflict with     accounting records containing errors of more than
the changes in administrative fee reserves included     $37.2 million and which disagreed with HUD’s
in the FY 2003 Appropriation Act. (Report No.           records by approximately $27.9 million; develop-
2003-BO-1004)                                           ment costs authorized by HUD that were exceeded
                                                        by over $2 million for one development and were
General Activities                                      on track to be exceeded for a second development;
                                                        and duplicate funding of nearly $917,000 that was
     In Baltimore, MD, an audit of the Housing          inappropriately retained.
Authority of Baltimore City’s Homeownership and
Opportunity for People Everywhere (HOPE VI)                 During the audit, the current executive director
Program found the Authority’s procurement and           took a number of actions to improve the manage-
contract administration practices violated regula-      ment of the HOPE VI Program. We recommended
tions; managers did not maintain accurate financial     that administrative action be taken against the
records as required; and administration of the          former executive director. We made additional
Community and Supportive Services Program was           recommendations to improve the Authority’s
not effective. As a result, a number of deficiencies    administration of its HOPE VI Program and to return
in the Authority’s operations were noted. Among         funds to HUD. (Report No. 2003-PH-1003)
the most notable was that the Authority spent $28.5
million above the Total Development Cost (TDC)               We audited the operations of the Portsmouth,
limits on two developments. The Authority’s former      VA Redevelopment and Housing Authority and
executive director provided misleading information      found significant weaknesses in the way the Author-
to HUD and did not fully disclose other information     ity awarded and administered a number of its
related to the development activities. Because HUD      modernization contracts. Specifically, we found that
relied on the former executive director’s assertions,   the Authority awarded three consecutive contracts
it did not have all the facts and granted waivers to    valued at about $8 million from FYs1997 to 2001 to
exceed development standards and award contracts.       a single contractor who substantially missed dead-
                                                        lines, performed substandard work, and failed to
   The Authority did not document key procure-          comply with contract specifications. The Authority
ment actions, initiated and completed a number of       also used its own maintenance staff to make repairs

Chapter 3 - HUD’s Public and Indian Housing Programs                                                      33
covered by the contract warranty and did not ensure           We audited selected aspects of the Scranton,
the contractor performed work in accordance with          PA Housing Authority’s (SHA) Low-Income Hous-
Occupational Safety and Health Agency guidelines.         ing and Section 8 Programs and found that the
These problems generally occurred because the             SHA’s public housing developments were well
Authority did not adequately consider the                 maintained and in excellent repair. However, we
contractor’s ability to perform the work and did not      identified other weaknesses in the SHA’s operations.
maintain an adequate contract administration system       Specifically, the SHA: (1) charged HUD’s Conven-
to ensure contractors performed in accordance with        tional Program over $89,000 for garbage removal
the terms, conditions, and specifications of their        and nearly $120,000 for general administrative
contracts. A HUD housing inspector could only             salary costs that should have been charged to its
validate work estimated at about $3.5 million for         city owned project; (2) improperly received about
the $8 million the Authority expended on the three        $9,000 in subsidy for three units used as temporary
modernization contracts. As a result, we questioned       offices; (3) removed the majority of units in a
the entire $8 million value of the contracts. Further,    development from the rental market until the entire
the Authority selected the developer of its $24.8         development was completely rehabilitated, unneces-
million HOPE VI grant without adequately docu-            sarily increasing the number of vacant units used by
menting the reasons why the developer was se-             HUD to pay operating subsidies, and reducing the
lected, and could not support HOPE VI costs totaling      number of units available for low-income families;
about $75,000.                                            (4) did not properly establish waiting lists or
                                                          account for or process all tenant applications, and,
     We also identified significant weaknesses in the
                                                          contrary to HUD requirements, allowed applicants to
Authority’s maintenance of its low-income housing
                                                          wait for units at specific developments; (5) did not
and administration of its Section 8 Program. How-
                                                          perform adequate outreach efforts to find qualified
ever, during the audit, the Authority took corrective
                                                          applicants for its vacant units; (6) hired family and/
actions to significantly improve its performance in
                                                          or relatives of the executive director and board
these areas. For example, the Authority increased
                                                          members; and (7) did not perform accurate inspec-
its physical condition scores under HUD’s Public
                                                          tions to ensure Section 8 units met housing quality
Housing Assessment System for its four develop-
                                                          standards.
ments by 11 to 77 percent from September 2001 to
December 2002. Further, the Authority provided                During the course of the audit, the executive
about 500 additional low-income families with             director took immediate action to correct the SHA’s
Section 8 assistance from June 30, 2001, through          operating policies and procedures and repaid the
June 30, 2003.                                            Conventional Program nearly $300,000. Since the
                                                          SHA completed all the required actions prior to
    We recommended that HUD determine the actual
                                                          report issuance, and we verified the corrective
value of work completed on the three modernization
                                                          actions were completed, the report contained only
contracts for which the Authority paid $8 million.
                                                          one recommendation. We recommended HUD
For work the contractor failed to perform or did not
                                                          complete an on-site review within one year from
perform in accordance with contract specifications,
                                                          report issuance to ensure the SHA continues to make
we recommended that HUD require the Authority to
                                                          satisfactory progress. (Report No. 2003-PH-1006)
enforce the terms of the contracts, recover the value
of work that was not completed according to con-
                                                               In Wewoka, OK, based on complaints made by
tract specifications, or repay HUD the value from
                                                          former executive directors, we audited the Housing
non-federal funds. We further recommended that
                                                          Authority of the Seminole Nation of Oklahoma and
HUD take appropriate administrative action to
                                                          found that Authority officials improperly procured
prevent the contractor from performing additional
                                                          housing rehabilitation services, land, and mobile
work for the Federal Government, and as appropri-
                                                          homes with Indian Housing Block Grant funds.
ate, against Authority officials to protect the taxpay-
                                                          Specifically, officials procured: (1) housing reha-
ers from future waste and abuse. (Report No. 2003-
                                                          bilitation services without required bid solicitations,
PH-1005)
                                                          contracts, work specifications, and accurate inspec-
Chapter 3 - HUD’s Public and Indian Housing Programs                                                           34
tions; (2) land without required appraisals and        with applicable federal and HUD policies and
environmental reviews; and (3) mobile homes            adheres to those policies; (2) adopts contract
without competitive proposals and properly ex-         administration procedures to ensure that payments
ecuted contracts. The improper procurements            for services are in accordance with contracts; (3)
occurred because officials disregarded the             repays ineligible and unsupported costs from non-
Authority’s procurement policy and HUD require-        federal funds; and (4) removes specific inappropri-
ments. As a result, the Authority misspent over        ate clauses from its current and future contracts.
$780,000 in grant funds.                               (Report No. 2003-LA-1801)
    Authority officials paid for: (1) poor workman-
                                                            In response to a Congressional request resulting
ship and work not done on housing rehabilitation;
                                                       from constituents’ complaints, we performed a
(2) land without assurance of satisfaction of envi-
                                                       limited review of the Housing Authority of the City
ronmental requirements and that it was fairly
                                                       of San Angelo, TX. The review disclosed that a
priced; and (3) mobile homes without assurance of
                                                       conflict of interest did not exist between the Author-
delivery and that they were priced competitively. In
                                                       ity and the rental of apartments to Colt Baseball
addition, officials should put to better use about
                                                       players. However, a conflict of interest did exist
$91,000 of grant funds intended for mobile homes
                                                       between the assistant executive director and a
that were not delivered.
                                                       vendor wherein the Authority obtained goods from
    We recommended that HUD take action to             a vendor directly related to the assistant director;
ensure that the board of commissioners and the         the Authority did not take appropriate steps to
executive director have the necessary training and     remediate mold at the Cedar Crest Knickerbocker
knowledge of procurement policy and Native             Project; and the Authority did not perform its
American Housing Assistance and Self-Determina-        fiduciary duty during the construction of the elderly
tion Act regulations. In addition, we recommended      duplexes, and therefore the duplexes cost $500,000
reimbursement of misspent grant funds of over          but were appraised at only $334,000. In addition,
$780,000 and the avoidance of ineligible grant         Authority management disregarded and circum-
expenditures of about $91,000. (Report No. 2003-       vented controls in procurements, accounts payables,
FW-1005)                                               and grants management.
                                                           We recommended that the Office of Public
    At the request of the Director of the Office of
                                                       Housing require the Authority to implement man-
Public Housing in San Francisco, we reviewed 16
                                                       agement controls to prevent management’s ability to
procurement actions at the City of Las Vegas, NV
                                                       circumvent controls, reimburse the City of San
Housing Authority (LVHA). Our objective was to
                                                       Angelo for ineligible and unsupported grant funds,
review the four HUD approved procurement meth-
                                                       and take appropriate administrative action against
ods: sealed bids, competitive proposals, noncom-
                                                       those responsible officials to protect the Authority
petitive proposals, and small purchase procedures.
                                                       from further abuse. We also recommended that the
We concluded that, in some cases, policies and
                                                       Office of Community Planning and Development
procedures were not adequate to ensure compliance
                                                       require the City of San Angelo to repay HUD for
with federal regulations, contracts were awarded
                                                       ineligible costs of over $2,000 and unsupported
without competition, and services in excess of the
                                                       grant costs of nearly $77,000. (Report No. 2003-
small purchase limit were obtained without a
                                                       FW-1804)
contract. Also, when contracts did exist, the terms
were often not enforced or included open-ended
escape clauses that favored the contractor. Our
review of the procurement actions identified ineli-
gible costs of $57,000 and unsupported costs of
almost $102,000.
   We recommended that HUD ensure that the
LVHA: (1) revises its procurement policy to comply

Chapter 3 - HUD’s Public and Indian Housing Programs                                                       35
                              Reprinted by permission of the San Angelo Standard-Times, May 29, 2003

    In response to a citizen’s complaint, the OIG                    ity assisted 1,992 families in finding adequate
reviewed the Mount Airy, NC Housing Authority                        alternative housing. The other tenants were either
and found that some of the citizen’s allegations                     evicted, deceased, departed without paying rent, or
were valid. Specifically, the Authority: (1) allowed                 their status could not be determined due to incom-
identity-of-interest companies to bid against one                    plete Authority records. Further, despite some
another and then allowed losing bidders to perform                   initial setbacks, the Authority established a process
the work as subcontractors; (2) did not perform                      to ensure that displaced tenants received priority in
required cost and price analyses, enforce contractor                 reoccupying units in the newly completed HOPE VI
performance, or consistently obtain formal con-                      developments in accordance with their HUD ap-
tracts; (3) split the cost of one contract into separate             proved Relocation Plan. For the two developments
contracts in an attempt to reduce costs; and (4)                     the Authority had redeveloped by the beginning of
allowed the executive director and other staff to use                the audit, Lafayette Courts and Lexington Terrace,
Authority owned vehicles to commute daily between                    1,484 units were replaced with 729 units. Alto-
their homes and work without reporting the taxable                   gether, 198 of the displaced tenants were placed in
employee fringe benefits.                                            the 404 available public housing units.
    We recommended, among other things, that                             We did, however, identify a number of deficien-
HUD   ensure that the Authority obtains adequate                     cies in the Authority’s administration of its tenant
training for procurement staff, prepares indepen-                    relocation process. Specifically, the Authority did
dent cost estimates before receiving bids or propos-                 not follow the appropriate HUD handbook when it
als and performs cost and price analyses, executes                   processed relocation payments. This caused the
formal contracts as appropriate, discontinues the                    Authority to make over $64,000 in relocation
practice of splitting purchases, and either discontin-               assistance overpayments and nearly $21,000 in
ues the practice of allowing staff to use Authority                  underpayments to several tenants. We also ques-
owned vehicles for commuting or complies with                        tioned the Authority’s administration of the moving
related IRS requirements. (Report No. 2003-AT-                       contract used to relocate several tenants. The
1007)                                                                contractor over-billed the Authority for nearly
                                                                     $24,000 and the Authority also failed to include an
     In Baltimore, MD, an audit of the Housing                       appropriate liability clause in the moving company’s
Authority of Baltimore City’s relocation of HOPE VI                  contract, which would have saved the Authority
residents found that the Authority generally did an                  nearly $10,000 in relocation expenditures.
adequate job in assisting displaced HOPE VI tenants
                                                                         We made a number of recommendations to
in finding suitable alternative housing. The Author-
                                                                     assist the Authority in improving its relocation
ity demolished six developments with 4,194 units.
                                                                     process. (Report No. 2003-PH-1004)
Of the 2,246 occupied units, we found the Author-

Chapter 3 - HUD’s Public and Indian Housing Programs                                                                     36
Civil False Claims                                     Section 8 Assistance
    In Twinsburg, OH, at the request of the U.S.       Management and Program Officials/
Attorney’s Office for the Northern District of Ohio,   Employees
the OIG reviewed J.T. Eaton & Company, Inc., to
identify OIG subsidized housing authorities that           Defendant Tracy Michelle Roach, former
purchased pest control products from J.T. Eaton        Section 8 coordinator for the City of York, SC
and the amounts paid for those products. Of the        Housing Authority, was sentenced in Federal Court
659 housing authorities we contacted, we received      for the District of South Carolina to 15 months
one positive response from the Lucas Metropolitan      confinement and three years supervised release,
Housing Authority in Toledo, OH. In addition, we       ordered to pay $98,457 in restitution, and fined
received positive responses from the New York City     $100. Roach previously pled guilty to embezzling
Housing Authority and the Wilmington, DE Hous-         over $98,000 in federal funds for her personal use.
ing Authority after expanding our review. The          She embezzled the funds by writing duplicate
responses demonstrated that between November 1,        housing assistance payment checks to Section 8
1996, and January 12, 2001, the housing authorities    landlords.
paid more for animal repellants and pesticide
products manufactured by J.T. Eaton than previ-             In Rochester, NY, in Federal Court for the
ously identified to the U.S. Attorney’s Office. The    Western District of New York, defendant Mark
U.S. Attorney’s Office followed up with the manu-      Fulmer, a former housing rehabilitation specialist
facturer and the suppliers we identified. Based on     for the Rochester Housing Authority, pled guilty to
that follow-up, the U.S. Attorney’s Office revised     one count of filing a false income tax return.
the estimate of HUD related damages from nearly        Between 1993 and 1999, Fulmer solicited and
$34,000 to over $79,000. The U.S. Attorney’s           received kickbacks from Authority contractors.
Office negotiated a settlement agreement effective     Fulmer either increased the contract amount, which
September 18, 2003, that includes a recovery for       allowed the contractors to complete the work at full
damages to HUD.                                        salary with an additional amount remaining for
                                                       Fulmer, or gave them a job that required little or no
    We recommended that HUD follow up with the
                                                       work. Fulmer received a sentence concurrent with a
U.S. Attorney’s Office to ensure that HUD receives
                                                       previous sentence. In May 2002, he was sentenced
the $79,000 due under the settlement agreement
                                                       to five years probation, six months home confine-
with J.T. Eaton. (Report No. 2003-CH-1803)
                                                       ment, and 200 hours of community service, and
                                                       was ordered to pay $90,000 in restitution to HUD.
                                                       In addition, Fulmer will have to pay tax on the
Investigations                                         $90,000 he received plus interest and penalties that
                                                       will be determined by the IRS.
    During this reporting period, the OIG opened
910 investigation cases and closed 454 cases in the        In Hartselle, AL, in Federal Court for the
Public and Indian Housing Program area. Final          Northern District of Alabama, defendant Brenda
judicial action taken on these cases during the        Ford, former executive director of the Regional
period included $233,454 in recoveries/receivables,    Housing Authority of Lawrence, Cullman, and
$5,109,274 in restitution, $22,768 in fines, 150       Morgan Counties, was sentenced to 10 months
convictions, pleas, and pre-trial diversions, 377      incarceration and 36 months supervised release,
indictments/informations, 29 administrative sanc-      and ordered to pay $50,000 in restitution. Ford
tions, 514 arrests, and 1,632 months in prison. The    previously pled guilty to making false statements to
results of our more significant investigations are     HUD. She used Authority funds for her personal
described below.                                       benefit.




Chapter 3 - HUD’s Public and Indian Housing Programs                                                      37
    In Reno, NV, in Federal Court, District of          tor of the Maxwell Housing Authority, Johnson
Nevada, defendant Shannon Thompson, a former            stole tenant rent proceeds and caused herself to
employee of the Te-Moak Indian Housing Authority,       receive salary overpayments.
was sentenced to 10 months incarceration and three
years supervised release, and ordered to pay                Defendant Brian Panich, the former executive
$29,999 in restitution. Between July and November       director of the Liberty, NY Housing Authority, was
2001, Thompson embezzled approximately $30,000          sentenced in Federal Court, Southern District of
of Housing Authority funds for his own use. He          New York, to two years probation for theft or
previously pled guilty to one count of embezzle-        bribery concerning Section 8 Program funds. From
ment from a Tribal organization.                        1997 to 2001, as executive director, Panich used
                                                        $22,000 in Section 8 funds as personal loans to
    Defendant Julio Perez, III, former Housing          himself.
Authority of Corpus Christi, TX (HACC) manager
of information systems, was sentenced in Federal            In St. Louis, MO, defendant Lesa Gruber,
Court for the Southern District of Texas to 18          former executive director of the Oran Housing
months in prison and three years supervised re-         Authority, signed a pretrial agreement in which she
lease, and ordered to pay $25,000 in restitution, a     admitted embezzling funds from HUD’s Section 8
$3,000 fine, and a $100 special assessment fee.         Program while she was the executive director.
Perez pled guilty in February 2003 to theft or          Gruber embezzled the funds by cashing unautho-
bribery concerning programs receiving federal           rized checks made payable to herself and drawn on
funds. Perez embezzled $133,645 from the HACC,          the Authority’s account. She also embezzled funds
committed wire fraud, and laundered funds through       by cashing Section 8 portability checks written to
his wife’s financial institution. He devised a scheme   the Oran Housing Authority from the Chaffee
to obtain money from HACC through a commercial          Housing Authority. Gruber resigned her position as
bribery scam in which he influenced the HACC            executive director in 1999, shortly after she admit-
board of directors in connection with the awarding      ted to OIG that she embezzled the funds and used
of a computer upgrade contract. As part of the          the money to support her gambling habit. Gruber
bribery scheme, Perez was treated by Pantex Com-        agreed to pay $17,646 in restitution.
puters, Inc., as an independent “consultant” and
received kickbacks in exchange for his influence.           Defendant Patricia Wilson-Heath was sentenced
                                                        in New Haven, CT, in U.S. District Court for the
     In New York, NY, in Federal Court for the          District of Connecticut, to five years probation,
Southern District of New York, defendant Robert         three months of which must be served in home
Swinton was sentenced to one year and one day in        confinement with electronic monitoring, 100 hours
jail, three years supervised release, and $20,500 in    of community service, and restitution of $13,812 to
restitution. Swinton pled guilty in March 2003 to       the Housing Authority of the City of New Haven
extortion. While serving as deputy director of the      (HANH). Wilson-Heath, a former HANH employee,
New York City Housing Authority’s Department of         previously pled guilty to an information on one
Facility Planning, Swinton attempted to extort          count of theft and conversion of government funds.
$28,000 in cash from a Harlem shopkeeper whose          While employed at the HANH, she accessed the
store was located in Rangel Houses, a HUD subsi-        computer records of certain landlords and altered
dized residence.                                        the information, causing HANH checks to be issued
                                                        to her sister in Florida under the payee identifica-
    Defendant Janelle Johnson was sentenced in          tion numbers of those landlords.
Albuquerque, NM, in U.S. District Court for the
District of New Mexico, to six months home                   Defendant Eddy Lee Summers, former deputy
detention and five years probation, and ordered to      executive director of the Wheeling Housing Author-
pay $15,851 in restitution. Between July 1999 and       ity (WHA), was sentenced in Wheeling, WV, in
April 2001, while employed as the executive direc-      U.S. District Court for the Northern District of

Chapter 3 - HUD’s Public and Indian Housing Programs                                                       38
West Virginia, to two years supervised probation           In a related case, defendant Jeffery Midgett was
and ordered to pay $1,100 in fines and court costs.    sentenced in U.S. District Court for the Eastern
Summers previously pled guilty to embezzling           District of Arkansas to 24 months probation and
$3,496 from the WHA’s petty cash account by            restitution of $1,469. Midgett, the boyfriend of
submitting falsified invoices for equipment and        Rhonda Jenkins, previously pled guilty to one count
services. Summers furthered the fraud by identify-     of submitting false statements to HUD. Although
ing these expenditures as emergencies and by-          Midgett was not qualified to receive housing assis-
passing the WHA’s financial control system. Sum-       tance, Jenkins provided Midgett with rent-free
mers was also ordered to pay $12,240 in restitution,   housing by tendering Section 8 checks belonging to
which includes petty cash reimbursement, legal         the Authority to Midgett’s landlord. On HUD benefit
expenses, and fees for the forensic audit conducted    certification forms, Jenkins and Midgett listed as
at the WHA. The investigation was initiated after      the tenants of Midgett’s residence other individuals
finance representatives from the WHA noticed           who qualified for housing assistance.
inconsistencies as well as an inordinate amount of
                                                           Also in a related case, defendant Joyce
“emergency” expenditures made by Summers.
                                                       Goodman was sentenced in U.S. District Court for
                                                       the Eastern District of Arkansas to 24 months
    Defendant Carol Pagaduan, former Port Gamble
                                                       probation and was ordered to pay $2,815 in restitu-
S’Klallam Tribe Housing Authority staff accoun-
                                                       tion and a $250 fine. Goodman, a friend of Rhonda
tant, was sentenced in Seattle, WA, in Federal
                                                       Jenkins and the property manager for Corning
Court for the Western District of Washington, to
                                                       Farm Supply, a landlord in Clay County, AR,
five years supervised probation and was ordered to
                                                       previously pled guilty to one count of submitting
pay $9,591 in restitution. Pagaduan previously pled
                                                       false statements to HUD. Acting in her capacity as
guilty to one count of theft of federal program
                                                       property manager, Goodman knowingly allowed
funds. While employed as the staff accountant,
                                                       Jenkins and Midgett to occupy a residence in
Pagaduan used her position to embezzle $9,591 in
                                                       Corning. At the same time, she listed other indi-
rent funds. These funds were received in cash from
                                                       viduals as tenants for this residence and accepted
Housing Authority tenants; the funds were stolen
                                                       Section 8 checks in the names of these fictitious
between November 2001 and May 2002.
                                                       tenants.
     Defendant Rhonda Jenkins, former executive
                                                           Defendant Angelica White signed a pretrial
director of the Clay County Housing Authority, and
                                                       diversion agreement in Little Rock, AR, in Federal
defendant Velma Kathryn Ray, a friend of Jenkins,
                                                       Court for the Eastern District of Arkansas, admit-
were sentenced in Little Rock, AR, in U.S. Dis-
                                                       ting to embezzling funds from the Clay County
trict Court for the Eastern District of Arkansas, to
                                                       Housing Authority and failing to report the em-
10 months imprisonment and 36 months probation,
                                                       bezzlement of funds by others. White agreed to
and were ordered to pay $50,158 in restitution.
                                                       participate in a substance abuse treatment program
Defendant Greg Ray signed a pretrial diversion
                                                       and pay restitution of $2,673 in return for 18
agreement with the U.S. District Court, Eastern
                                                       months of deferred adjudication. From August 2001
District of Arkansas, admitting to embezzlement
                                                       to March 2002, White, along with others, including
and conspiracy to embezzle funds from the Clay
                                                       the executive director, created false Section 8
County Housing Authority. Greg Ray agreed to pay
                                                       landlords and tenants in the Authority’s books and
$3,619 in restitution in return for 18 months of
                                                       records. They then received payments from the
deferred adjudication. The defendants established
                                                       Authority in the names of the false landlords and
Section 8 accounts in the names of fictitious land-
                                                       used the funds for their personal benefit.
lords/tenants, wrote Authority checks payable to the
fictitious landlords, and received and cashed these
                                                            Defendant Brenda Ford pled guilty in Hunts-
checks for their personal use. Jenkins also used the
                                                       ville, AL, in U.S. District Court for the Northern
Authority’s credit card for personal purchases.
                                                       District of Alabama, to two counts of theft of
                                                       government funds and two counts of false state-
Chapter 3 - HUD’s Public and Indian Housing Programs                                                        39
ments. Ford, the former executive director of the       count of theft by failure to make required disposi-
Hartselle Housing Authority, was previously             tion of funds received. Coughlin had been charged
charged with theft of HUD funds from the Authority.     with 208 counts of theft for failure to make required
She was ordered to pay $50,000 in restitution.          disposition of funds, tampering with public records,
                                                        and receiving stolen property. She was employed as
    In Philadelphia, PA, defendant Charmaine            the housing coordinator at the Pennvale public
Mabry pled guilty in U.S. District Court for the        housing development when the thefts occurred.
Eastern District of Pennsylvania to extortion under     Coughlin stole the cash rent payments that she had
color of the official right (Hobbs Act), conspiracy     received from tenants, and lowered the rents for
to commit an offense against the United States, and     other tenants without justification or authorization.
theft concerning a program receiving federal funds.     The Housing Authority suffered a loss of approxi-
Mabry, a former Philadelphia Housing Authority          mately $28,000.
Section 8 eligibility specialist, received bribes in
return for manipulating and bypassing the                   Defendant Antonio Essex pled guilty in St.
Authority’s Section 8 lottery system, which is          Louis, MO, in Federal Court, Eastern District of
intended to be used to fairly and properly select       Missouri, to 14 counts of theft of government
eligible Section 8 recipients. This allowed each        funds. Essex admitted that he stole funds from the
recipient to illegally obtain Section 8 vouchers. In    HUD funded Clinton-Peabody Tenant Association.
addition, Mabry was suspended from participation        He obtained Association checks, had the checks
in procurement and non-procurement transactions         made out in his name, personally endorsed the
as a participant or principal with HUD and through-     checks, and cashed them at various locations. The
out the Executive Branch of the Federal Govern-         total amount of the theft was $5,450.
ment.
                                                            Defendant Susan Adams, executive director of
    Section 8 recipients Adrienne Albright, Vernell
                                                        the Auburn Housing Authority, was indicted in
Devan, Delores Dolison, Dorris McCullough,
                                                        Auburn, NE, in Federal Court for the District of
Charles Moore, and Cornetha Sneed each pled
                                                        Nebraska, on one count of embezzlement. Adams
guilty to conspiracy to commit an offense against
                                                        embezzled $15,881 from the Authority by fraudu-
the United States and theft concerning a program
                                                        lently receiving duplicate paychecks. She also
receiving federal funds. The individuals paid
                                                        submitted vouchers and received multiple reim-
Mabry bribes ranging from $400 to $1,000. As a
                                                        bursements for the same business expenses.
result of this fraud, Section 8 vouchers in excess of
$74,000 were fraudently paid on behalf of these
                                                            Defendants Joe R. Calabaza, Jerry B. Nieto,
individuals.
                                                        Howard Tenorio, and Lorenzo F. Coriz were
                                                        indicted in Albuquerque, NM, in Federal Court
    In Eden, NC, in Federal Court for the Middle
                                                        for the District of New Mexico. Each defendant was
District of North Carolina, defendant April Deese,
                                                        charged with one count of conspiracy. In addition,
a former Section 8 manager, pled guilty to two
                                                        they were all charged with embezzlement and theft
counts of theft of government funds. Deese was the
                                                        from Indian Tribal Organizations and aiding and
on-site manager for five housing complexes, two of
                                                        abetting; Calabaza was charged with 29 counts,
which were Section 8 developments. From 1999 to
                                                        Nieto with one count, Tenorio with two counts, and
2001, Deese deposited tenant rents in her personal
                                                        Coriz with three counts. The four were also charged
bank account and used the funds for her own
                                                        with theft of federal program funds; Calabaza was
benefit. She caused a loss of approximately
                                                        charged with 10 counts, Nieto with one count,
$55,000 to HUD.
                                                        Tenorio with one count, and Coriz with three
                                                        counts. Calabaza, who is a the former executive
    Defendant Theresa Coughlin, a former em-
                                                        director of the Santo Domingo Tribal Housing
ployee of the Housing Authority of Lycoming
                                                        Authority (SDTHA), and Nieto, Tenorio and Coriz,
County, PA, pled guilty in the Lycoming County
                                                        who are former SDTHA board members, allegedly
Court of Common Pleas to one consolidated felony
Chapter 3 - HUD’s Public and Indian Housing Programs                                                         40
embezzled over $200,000 from SDTHA. Most of the         can Processing Center. Wilfred Niedo designated
embezzled money came from a SDTHA bank account          his wife as the president of this fictitious company,
that the defendants opened with SDTHA/HUD funds.        and then generated Indian Housing Authority
The account was set up solely for their personal        checks payable to the fictitious company. He hand
use. Calabaza would make the cash withdrawals           carried these checks to his wife. At Wilfred Niedo’s
from the account and then distribute some of the        direction, Laura Niedo cashed multiple fraudulent
funds to the other three defendants. On several         checks and returned the cash proceeds to her
occasions, the other three defendants also made         husband. The loss to the government is $7,500.
some of the cash withdrawals themselves. When the
funds in the account ran low, the defendants trans-         In New York, NY, defendants Jacquelyn
ferred additional money from other SDTHA bank           Rogers, Lakisha O’Neal, and Wanda Bonilla were
accounts. The embezzled money was used by the           arrested and charged in State Court with grand
four defendants for personal expenses and enter-        larceny in the third degree. The defendants used
tainment, including gambling, vehicle purchases,        their ATM cards to withdraw funds from the Munici-
and payment of personal debts.                          pal Credit Union (MCU). The MCU computer
                                                        systems were disabled during the World Trade
    In New Orleans, LA, in Federal Court for the        Center (WTC) attacks in September 2001. As a
Eastern District of Louisiana, defendant Debra          result, there was no limit on the amount of funds
Smith, the former Section 8 housing assistance          that could be withdrawn. These individuals with-
manager for the Housing Authority of Bogalusa,          drew the money during the weeks following the WTC
was charged in a three-count information with           attacks. The funds withdrawn were far in excess of
submitting false statements to HUD. From January        the defendants’ account balances. Rogers is an
1997 to March 1999, Smith allegedly used her            employee at the New York City Housing Authority
position to create and approve fraudulent Section 8     (NYCHA), and O’Neal and Bonilla are NYCHA
housing assistance payment contracts in the names       tenants.
of family and friends. The scheme resulted in the
                                                            In a related case, 68 individuals were arrested
payment of approximately $25,000 in fraudulent
                                                        and charged in State Court with grand larceny in
Section 8 assistance to landlords who are Smith’s
                                                        the third degree. These individuals also used their
relatives.
                                                        ATM cards to withdraw funds from the MCU in
                                                        excess of their account balances. Of the 68 indi-
    Defendant Paul Howard was indicted in Platte
                                                        viduals, the following NYCHA employees were
County District Court on one count of felony theft.
                                                        arrested: Maritza Diaz, Quanbie Green, Ronald
Howard stole a credit card from the Housing
                                                        Lyons, Lamont McCorkle, Jose A. Ramos, Lance
Authority of Kansas City, MO (HAKC), upon
                                                        John Stephenson, Rhasheeda Thigpen, and Charles
termination of his employment in July 2002. From
                                                        Williams. Twenty of the arrestees were NYCHA
the date of his termination through October 2002,
                                                        tenants: Gigi Lofton, Paul Williams, Ingrid Carter,
Howard stole $12,179 from the HAKC by using the
                                                        Belinda Robinson, Kim Ward, Latayna Simpson,
credit card to obtain gas, cash, and other miscella-
                                                        Yolanda Dixon, Rosalyn Stevenson, Theresa
neous items.
                                                        Alcantaro, Angela Wiggins, Kamau Christian, Alan
                                                        Godfrey, Regina Wooden, William Polanco, Louise
     Defendants Wilfred Niedo and his wife Laura
                                                        Davis, Pamela Harvell, Mario Osman, Bowana
Niedo, also known as Laura Tapp, were indicted in
                                                        Robinson, Roheen Oats, and Kim Darkins.
Oklahoma City, OK, in Federal Court for the
Western District of Oklahoma, on charges of                 In another related case, defendants Addie
conspiracy, theft from an Indian Tribal Agency, and     Moses, Charise Stewart, and Keshia Nimmons were
aiding and abetting. An investigation disclosed that    arrested and charged in State Court with grand
while acting as the executive director of the Wichita   larceny in the third degree. The defendants used
Indian Housing Authority, Wilfred Niedo set up a        their ATM cards to withdraw funds from the MCU in
fictitious company identified as the Native Ameri-      excess of their account balances. Stewart and

Chapter 3 - HUD’s Public and Indian Housing Programs                                                       41
Nimmons were NYCHA employees, while Moses              the IRS, and unapproved retroactive pay raises for
was a NYCHA tenant.                                    Tafolla and Lambert.

    Defendant Beverly Lewis, former executive              In Little Rock, AR, HUD sent the former
director of the Housing Authority of the City of       executive director of the Clarksville Housing
Canton, GA, voluntarily surrendered to the City of     Authority, defendant Gregory Wilson, a notice of
Canton Police Department. Lewis was charged in         suspension from participation in procurement and
State Court, Cherokee County, with theft for           non-procurement transactions as a participant or
unlawfully appropriating a property belonging to       principal with HUD and throughout the Executive
the Housing Authority. Lewis resigned as executive     Branch of the Federal Government. This action was
director on May 14, 2003, after a fee accountant       based on a criminal information filed in the Circuit
discovered that she had inappropriately used the       Court of Pope County. Wilson was arrested for
Authority’s credit card for personal use.              possession and sale of illicit drugs both on and off
                                                       Clarksville Housing Authority property.
    In Berlin, CT, defendant Denise Guite was
arrested pursuant to a Connecticut State arrest            Defendant George Douglas Linicomn, former
warrant on 11 counts of larceny in the first degree    executive director of the Corsicana, TX Housing
and four counts of larceny in the second degree.       Authority (CHA), was notified that HUD has placed
Guite, the former executive director of the Berlin     him on immediate suspension from future participa-
Housing Authority, allegedly embezzled $111,422        tion in procurement and non-procurement transac-
from the Authority between November 2000 and           tions as a participant or principal with HUD and
November 2002. This dollar amount includes cash        throughout the Executive Branch of the Federal
withdrawals, unauthorized retail purchases, unau-      Government. His suspension was based on his
thorized travel, and excess wages.                     indictment on one count of theft by a public servant
                                                       ($1,500 or more but less than $20,000). Linicomn
    The San Angelo, TX Housing Authority board         admitted his wrongdoing to the HUD Office of
of commissioners fired defendant Alex Tafolla,         Public Housing in Fort Worth, as well as the CHA
executive director of the San Angelo Housing           board of directors, after an investigation revealed
Authority. The firing followed months of allegations   that he had CHA property in his possession.
of mismanagement and abuse, findings by the OIG,
and reports by the accounting firm Webb and Webb.      Tenants
The commissioners began formal proceedings to
discipline Tafolla and Mark Lambert, assistant             In Staten Island, NY, six individuals were
director of the Housing Authority, in June. Lambert    sentenced and another pled guilty in Federal Court,
submitted his resignation on July 21, before the       Eastern District of New York, for their involvement
commissioners could take any disciplinary action       in providing false statements to the management
against him.                                           company of Parkhill, a Section 8 housing develop-
                                                       ment, during the annual recertification process. The
     OIG highlighted several incidents including a     investigation disclosed that a number of these rental
conflict of interest that arose when Lambert’s         assistance recipients were in fact homeowners who
company, Hard Drive Cafe, sold goods and services      lived in other parts of the United States. They
to the Authority. OIG also reported that the Author-   traveled back to Staten Island once a year to partici-
ity expended $76,800 in unsupported grant funds        pate in the recertification process.
on constructing duplexes, and failed to use minimal
Environmental Protection Agency mold remediation           Bamidele T. Lawal was sentenced to 16 months
safety standards. The Webb report, which was           incarceration and 36 months supervised release,
conducted at the request of the board, found dupli-    and ordered to pay $77,674 in restitution. Vincent
cate employee reimbursements for gas purchases         E. Esoga was sentenced to five months incarcera-
and mileage, $160,000 in unreported payments to        tion and five months house detention. He also
                                                       received 36 months supervised release to run

Chapter 3 - HUD’s Public and Indian Housing Programs                                                        42
concurrently, and was ordered to pay $74,438 in         addition to underreporting their income, they
restitution and $3,000 in fines. Presley A. Hanson      purchased a home with an FHA insured mortgage
and Stephen Freeman were sentenced to two years         while receiving Section rental assistance. They then
probation for mail fraud and ordered to pay             used their Section 8 subsidy to pay their monthly
$44,604 in restitution. Jeneba Swaray was sen-          mortgage payments. The defendants also admitted
tenced to three years probation and ordered to pay      to conspiring to submit false documentation in
$41,888 in restitution. Joy Pope pled guilty to mail    order to qualify for the FHA insured mortgage and
fraud.                                                  using the mail to help further the fraud scheme.

    In Canton, OH, defendant Berniece Jackson               In St. Louis, MO, defendant Annie Dismuke,
was sentenced in Stark County Court to three years      also known as Annie Cistrunk, was sentenced in
in prison for masterminding a fraud scheme. Three       Federal Court, Eastern District of Missouri, to four
additional defendants, Elijah Baldwin, Latasha          months home confinement and five years probation,
Stokes, and Evette Brown, were placed on three          and ordered to pay $29,651 in restitution. Dismuke,
years probation and ordered to serve 200 hours of       a Section 8 tenant, received rental assistance under
community service.                                      one Social Security number while working under a
                                                        Social Security number belonging to a different
     As part of the scheme, bank account numbers of
                                                        individual. She also obtained vehicle loans and
the Stark Metropolitan Housing Authority (SMHA)
                                                        opened bank accounts under the same false Social
were used to counterfeit SMHA checks. The counter-
                                                        Security number. Her sentence was based on her
feit checks were subsequently used to buy computer
                                                        plea of guilty to one count of making false state-
equipment, which in turn was used to print more
                                                        ments to HUD.
fictitious checks. The scam caused a loss to SMHA
in excess of $45,000. Investigators believe the
                                                            In St. Louis, MO, in Federal Court for the
defendants were able to garner the SMHA bank
                                                        Eastern District of Missouri, defendant Bryant
account numbers via utility checks sent to public
                                                        Butler was sentenced to five years probation and
housing residents to assist them with paying utility
                                                        ordered to pay $27,599 in restitution to the St.
bills.
                                                        Louis County Housing Authority. Butler previously
                                                        pled guilty to a three-count indictment charging him
     In Chicago, IL, defendant Marjorie L. Butler,
                                                        with making false statements to HUD. Bryant re-
a Section 8 tenant, pled guilty in Cook County
                                                        ceived Section 8 rental assistance from 1994 to
Court to a State of Illinois felony count of forgery.
                                                        2001 under one Social Security number while
Butler admitted that she did not disclose her and
                                                        working full-time under a different Social Security
her boyfriend’s income during her Section 8 recer-
                                                        number. He failed to report his employment in-
tification for the years 2000 through 2002, during
                                                        come, thereby causing a $27,599 loss to HUD.
which time she was employed and earning more
than $40,000 per year. She received $36,346 in
                                                            Defendant Christy Murchinson, also known as
HUD Section 8 benefits to which she was not en-
                                                        Christy Miller, was sentenced in St. Louis, MO, in
titled. Butler was sentenced to 30 months probation
                                                        Federal Court for the Eastern District of Missouri,
and ordered to pay $36,346 in restitution.
                                                        to seven months imprisonment and three years
                                                        probation, and ordered to pay $24,416 in restitution
    Defendants Wanda Rhodes and Mathew White,
                                                        to the St. Louis County Housing Authority.
former Section 8 tenants at the Freeport Housing
                                                        Murchinson previously pled guilty to one count of
Authority, were sentenced in Brooklyn, NY, in
                                                        making false statements to HUD. According to
Federal Court for the Southern District of New
                                                        Housing Authority records, Murchinson was an
York, to five years probation and six months home
                                                        unemployed single mother receiving Section 8
confinement, and were ordered to pay $32,828 in
                                                        rental assistance. An investigation disclosed that she
restitution to the Authority and a $100 special
                                                        was in fact employed, earning $18 per hour and
assessment. White and Rhodes previously pled
                                                        married to a firefighter who earned $75,000 per
guilty to conspiracy to commit mail fraud. In
Chapter 3 - HUD’s Public and Indian Housing Programs                                                        43
year. Murchinson also used a false Social Security            Defendant Tonya Bolden pled guilty in State
number to purchase a vehicle and a computer. She          District Court in Houston, TX, to a criminal
later filed a Chapter 7 bankruptcy petition using the     complaint of theft that was filed on May 19, 2003.
same false Social Security number in which she            Bolden was sentenced on the same day to five years
listed over $100,000 in debts.                            probation, fined $300, and ordered to pay $16,149
                                                          to the Housing Authority of the City of Houston
    Defendants Monizha Karimi, a Section 8                (HACH). On May 6, 2003, Bolden received in error
landlord, and Shah Lal, a Section 8 tenant, pled          a $16,149 check from the Houston Housing Assis-
guilty and were sentenced in Dakota County Court,         tance Partnership (HHAP), which is the Section 8
Burnsville, MN. Both defendants were sentenced            contractor for HACH. Bolden was notified by HHAP
to four years probation and ordered to jointly pay        on several occasions that the funds were mistakenly
$22,116 in restitution. Karimi was also sentenced to      sent to her and was advised that she needed to
45 days of electronic home monitoring, while Lal          return the funds; Bolden refused.
was sentenced to 25 days of home confinement.
Karimi, as a landlord, collected Section 8 benefits            In Topeka, KS, in Federal Court for the Dis-
on behalf of Lal in spite of the fact that the property   trict of Kansas, defendant Verel T. Westover was
was being subleased to a non-Section 8 tenant. The        sentenced to one year and one day in prison and
defendants actually occupied another Section 8 unit       two years supervised release, and was ordered to
that belonged to another family member, who has           pay $15,200 in restitution for making false state-
yet to be charged in this case.                           ments to obtain rental subsidies and food stamps.
                                                          Westover was involved in a scheme to obtain rental
     In Cleveland, OH, defendant Charmane Lowe            assistance from HUD and food stamps from the
was sentenced in Federal Court, Northern District         Department of Agriculture Food Stamp Program by
of Ohio, to three years probation and was ordered         submitting statements indicating that he was unem-
to pay the Cuyahoga Metropolitan Housing Author-          ployed when in fact he was employed as a truck
ity (CMHA) $20,410 in restitution after pleading          driver.
guilty to one count of mail fraud. In 1999, Lowe
applied for a mortgage loan using her minor                   Defendant Daisy Womack, a Section 8 tenant,
daughter’s name, Social Security number, and              pled guilty in Commonwealth of Pennsylvania State
credit. She used associates to act as Section 8           Court to one count of theft by deception and was
landlords and funnel housing assistance payments          sentenced to 60 months supervised release and
back to her while she was the Section 8 tenant. The       ordered to pay $14,492 in restitution to the Phila-
loan was brokered by Bevel, Bevel & Associates.           delphia, PA Housing Authority (PHA). An investi-
Between July 1999 and July 2002, Lowe fraudu-             gation found that Womack fraudulently obtained
lently received $20,410 in Section 8 rental assis-        housing assistance payments to which she was not
tance payments by falsely claiming to be a tenant of      entitled. Between September 1999 and March 2003,
the property she actually purchased and owned.            Womack concealed her assets from the PHA, includ-
                                                          ing the cash purchase of four Philadelphia homes.
    Former Section 8 recipient Helen Elliott was          During this time, she was receiving Section 8
sentenced in Charlottesville, VA, in U.S. District        benefits. The PHA confirmed that Womack never
Court, Western District of Virginia, to five years        disclosed the purchase of the homes when she
probation and four months home confinement, and           signed her recertification forms.
was ordered to pay $16,439 in restitution to HUD.
Elliott failed to report income from her principal            In Fort Worth, TX, defendant Christi Michelle
employer over a four-year period when recertifying        Wright pled guilty in Tarrant County State Court to
for her Section 8 assistance. The defendant previ-        two separate indictments. In the first indictment,
ously pled guilty to one count of making false            Wright pled guilty to a state jail felony charge of
statements to HUD.                                        making false statements to HUD on her application
                                                          for housing assistance. Based on these false state-

Chapter 3 - HUD’s Public and Indian Housing Programs                                                       44
ments, she received $13,706 in Section 8 benefits to   Cuyahoga Metropolitan Housing Authority (CMHA).
which she was not entitled. Following the second       Benjamin acted as the Section 8 landlord of a single
indictment, Wright pled guilty to a third degree       family property that he acquired with an FHA
felony for making false statements to the Texas        insured mortgage. He also lived in the FHA insured
Department of Human Services (TDHS) on her             property while falsifying Section 8 documents,
application for assistance by failing to report her    submitted to the CMHA, regarding his true address.
live-in boyfriend and his income. Based on these       Benjamin’s girlfriend, Pamela Phillips, also resided
false statements, she received $24,134 in Texas Aid    with him at the FHA insured property as a Section 8
for Needy Families assistance to which she was not     tenant. This case is noteworthy from the standpoint
entitled. Wright was sentenced to five years proba-    that while Benjamin was on trial for drug offenses,
tion and restitution of $13,706 on the HUD charge,     he admitted to the HUD fraud during his testimony.
and 10 years probation and restitution of $24,134
on the TDHS charge. Her probation will run concur-         In Norfolk, NE, defendant Laurie Vaughn, a
rently.                                                Section 8 tenant, was sentenced in Madison County
                                                       District Court to 24 months probation and ordered
    In Rockville, MD, defendant Anita Cowan, a         to pay $7,635 in restitution after being charged with
former Montgomery County Housing Opportunities         one count of theft by deception. Vaughn defrauded
Commission (HOC) tenant, was sentenced in Mary-        the Norfolk Housing Authority by failing to accu-
land State Court on felony theft charges. She          rately report her household income.
received five years probation and was ordered to
pay $11,760 in restitution to the public housing           Defendant Aimee Mostek, a Section 8 tenant of
agency. An investigation disclosed that from March     the Columbus Housing Authority, was sentenced in
2001 through April 2002, Cowan failed to report to     Polk County District Court, Osceola, NE, on one
the HOC that, along with her husband, she pur-         count of theft by deception. She received 24 months
chased an FHA insured property. Cowan also failed      probation and 120 hours of community service, and
to report the income that she received from other      was ordered to pay $7,140 in restitution. Mostek
family members when she subleased her subsidized       was initially charged for failing to report her correct
unit to them. Cowan’s Section 8 housing assistance     household income and composition to the Colum-
was terminated.                                        bus Housing Authority. She did not report her
                                                       employment as well as the income generated by
    In Columbia, MO, in Federal Court for the          subleasing a portion of her residence. The total loss
Western District of Missouri, defendant Christina      to the government is $7,140.
Berruz entered into a pre-trial diversion agreement.
Berruz, a Section 8 tenant, failed to report her            Defendant Larry Stewart, a former Cambridge,
income to the Columbia Housing Authority. She          MD Housing Authority (CHA) Section 8 tenant,
previously admitted to providing false statements to   pled guilty in Dorchester County District Court to
the Authority to intentionally misrepresent her        felony theft charges and was sentenced 30 days
household income in order to qualify for assistance    incarceration and two years probation, and ordered
to which she was not entitled. According to the        to pay $7,000 in restitution to the CHA. From
agreement, Berruz will be on a 12-month diversion      August 1998 through November 2001, Stewart
program and will pay $8,084 in restitution.            failed to disclose on official recertification forms
                                                       his employment at a local automobile shop. His
    In Cleveland, OH, in Federal Court for the         fraudulent activity was discovered when a CHA
Northern District of Ohio, defendant Aubrey            official completed a random check of the Maryland
Benjamin was sentenced following his guilty plea to    Department of Labor and Licensing files, which
fraudulently accepting $7,663 in Section 8 funds.      disclosed that Stewart had been employed since
He received five months in prison and two years        May 1999. Stewart was terminated from the Section
supervised release, was fined $3,000, and was          8 Program by the CHA.
ordered to pay $7,663 in restitution to the

Chapter 3 - HUD’s Public and Indian Housing Programs                                                        45
     Defendant Marilyn Stone was sentenced in State         In Brooklyn, NY, defendant Vivien Carter, a
Superior Court, Nevada County, CA, to 120 days          former Section 8 tenant, signed a deferred prosecu-
in jail, three years probation, fined $870, and         tion agreement for a term of one year. The U.S.
ordered to pay $5,312 in restitution to the County      Attorney for the Southern District of New York and
of Nevada. Stone failed to disclose to the Nevada       the defense agreed to an arrangement for Carter to
County Housing and Community Development and            pay full restitution of the amount owed and declined
Human Services Agency that she had signed over          to prosecute Carter due to the relatively small
care, custody, and control of her daughter. Stone       amount of money involved ($5,974). Carter was
signed annual certifications that her household         accused of underreporting her income to the New
composition had not changed and that her daughter       York City Housing Authority in order to receive
still lived with her. An investigation disclosed that   Section 8 rental assistance.
Stone provided false statements to the Authority and
the Human Services Department.                               Defendant Dawn Kirkley pled guilty in St.
                                                        Augustine, FL, in State Court for the Northern
     In Milford, OH, after being charged in             District of Florida, to public assistance fraud and
Clermont County Court with theft by deception for       was sentenced to 18 months probation and ordered
failure to report her correct household income and/     to pay $3,500 in restitution. Kirkley previously pled
or composition, defendant Flora Nicolazzo, a            guilty to making false statements and housing fraud
Section 8 tenant, pled guilty to a lesser count of      and was ordered to pay $4,404 in restitution. She
misdemeanor theft. Nicolazzo also admitted to           failed to comply with the order, and a state warrant
defrauding the Clermont County Office of Job and        was issued for her arrest. Kirkley was arrested
Family Services and the Social Security Administra-     while residing in Flagler Village Apartments, a HUD
tion. Specifically, she failed to inform the Clermont   Section 8 complex.
Metropolitan Housing Authority that her husband,
who was employed, lived with her in the Section 8           Defendant Priscilla French, a Section 8 tenant,
unit. On the day of her plea, Nicolazzo was sen-        was sentenced in Nashville, TN, in State Court,
tenced to Clermont County jail for 180 days, with       Middle District of Tennessee, for reporting false
180 days suspended, and five years probation. She       income to the Metropolitan Development and
was also ordered to pay $4,027 to the Authority.        Housing Agency, resulting in a $13,832 overpay-
                                                        ment of Section 8 assistance. French was sentenced
    In Batavia, OH, defendants Anne and Dwayne          to two years (suspended), two years supervised
Hunt, Section 8 tenants, pled guilty and were           probation, and ordered to perform 240 hours of
sentenced in Clermont County Court for their role       community service in lieu of restitution.
in benefits fraud against the Clermont Metropolitan
Housing Authority. Specifically, they failed to             Defendants Marilyn Williams, Anthony Will-
report their correct earnings to the Authority. They    iams, Tonya Denise Wiggins, Sherry Alexis Wash-
were each sentenced to five years probation and         ington and Tanisha Scott were each sentenced in
ordered to pay joint restitution of $4,569.             Jacksonville, FL, in State Court for the Northern
                                                        District of Florida, on public assistance fraud
     In Fort Worth, TX, in Federal Court for the        charges. Marilyn Williams was sentenced to five
Northern District of Texas, defendant Cecilia A.        years probation, ordered to pay $7,228 in restitu-
Rosales was charged with violating her probation        tion, and fined $350. Anthony Williams received
and was arrested. Rosales was sentenced to five         one-year probation and was ordered to pay $772 in
years probation after pleading guilty on February       restitution and $298 in fines. Tonya Denise Wiggins
26, 2001, to making false statements to HUD on her      was sentenced to two years probation, ordered to
Section 8 application and recertifications. The false   pay $660 in restitution, and fined $323. Sherry
statements included her income and family compo-        Alexis Washington was sentenced to two days
sition. This resulted in a $24,337 loss to the De-      incarceration and ordered to pay $606 in restitution
partment.                                               to the Jacksonville Housing Authority and $276 in

Chapter 3 - HUD’s Public and Indian Housing Programs                                                       46
fines and court costs. Scott was sentenced to six       ment of monthly cash grants from the Missouri
months supervised probation and 15 hours of             Division of Family Services was $34,964.
community service, and ordered to pay $229 in
restitution to the Authority and $505 in fines and          The following residents of the Yonkers, NY
court costs.                                            Municipal Housing Authority have made or are
                                                        suspected of making false statements to HUD and
     On the same day, defendant Belinda Collins was
                                                        the Authority:
sentenced for felony public assistance fraud to five
years probation and ordered to pay $5,042 in                Defendant Thelma Young pled guilty in Federal
restitution to the Authority and $506 in fines and      Court for the Southern District of New York to theft
court costs. Collins also provided false statements     of government funds. The defendant defrauded the
to receive Section 8 assistance to which she was not    Section 8 Program since 1996 by concealing her
entitled. Also, defendant Latrell Rena Boykins          employment income from the management agent of
failed to appear for her pre-trial hearing for felony   the East River Houses, causing a $7,000 overpay-
public assistance fraud. A warrant has been issued      ment of Section 8 assistance.
for her arrest.
                                                            Defendants Shelli Phoenix and Shirley Jones
    Other individuals have been arrested and            pled guilty to federal benefits fraud. Phoenix held
charged in this case. The defendants included           two rent subsidized apartments and failed to dis-
Latasha Mobley, Linda Montfort, Mounita Plant,          close her true income to the Housing Authority.
Ethel Steward, Sherry Washington, Michelle              Jones, who lived in one of the apartments, benefited
Marshall, Tanika Harris, and Maria Collins. They        from the fraud.
were charged in State Court, Middle District of
                                                            Defendants Amera and Abdallah Makhlouf
Florida.
                                                        were indicted on charges of theft of public money
                                                        and making false statements. From July 1998
    In Kansas City, MO, defendant Jacqueline S.
                                                        through April 2003, the defendants failed to accu-
Ferguson pled guilty in Clinton County District
                                                        rately report their income and household composi-
Court to stealing by deceit. She was sentenced to
                                                        tion to the Authority. This resulted in the overpay-
five years probation and was ordered to pay restitu-
                                                        ment of approximately $52,705 in HUD housing
tion for the entire amount of the theft. Ferguson
                                                        subsidies.
fraudulently received Section 8 benefits from ABCD
Public Housing Agency and the State of Missouri.            Defendants Daifallah Rabadi, Amal Rabadi,
The total loss to the government is $30,904.            Nouf Rabadi, Amanda Soto, Bilal Mehdawi, Lamya
                                                        Makhlouf, Ana Medina, Angela Montas, Enrique
    Defendant Sheryl Cannamore pled guilty in St.       Perez, Giselle Baez, Augustin Scharron, Jeannette
Louis, MO, in Federal Court for the Eastern             Torres, Salvatore Moliterno, Latonia and Dave
District of Missouri, to making false statements on     Morris, Hilda Concepcion, and Nelson Henriquez
public housing recertification forms and applica-       were arrested on charges of theft of government
tions for food stamp benefits. Cannamore, a resi-       funds. The defendants either provided false state-
dent of the Clinton-Peabody public housing devel-       ments to the Authority during the annual recertifi-
opment, failed to report her income as a full-time      cation process by misrepresenting their family
employee of the Federal Reserve Bank of St. Louis       composition, income, and assets, or benefited from
on her annual tenant recertifications. She listed her   the Section 8 assistance received by those who
only income as monthly cash grants from the             provided the false statements. Defendant Fayroz
Missouri Department of Social Services. Housing         Ahmad Assaf was arrested on charges of theft of
benefit overpayments for Cannamore for the period       government funds and Social Security fraud. Assaf,
July 1994 through April 2002 amounted to                a Section 8 landlord, failed to inform the Authority
$28,569. The amount of overpayment of                   that a tenant had moved and continued to receive
Cannamore’s food stamp benefits for 1996 through        Section 8 payments for this tenant for several
2002 was $17,789, while the amount of overpay-          months.

Chapter 3 - HUD’s Public and Indian Housing Programs                                                       47
    In related cases, Pamela Riddick pled guilty in      cations. The loss to the government is approxi-
Federal Court for the Southern District of New           mately $146,425.
York to theft of government funds. Defendant
Calvin Powell pled guilty in the same court to               In Wichita, KS, in Federal Court for the
conversion of government funds. Defendant Kim-           District of Kansas, defendant Chaketha Johnson
berly King received a deferred prosecution for a         was indicted on two counts of making false state-
term of six months. King has agreed to pay $50 a         ments to the Wichita Housing Authority. Allegedly,
month toward the $300 restitution she owes, and in       Johnson fraudulently received $73,827 in rental
February 2004, she will be required to sign a            assistance over a 12-year period. The indictment
confession of judgment for $3,345, the remaining         charged her with making false statements concern-
amount she owes. King previously surrendered in          ing household composition and unreported income
relation to a criminal complaint charging her with       for the years 1998 and 1999. This case was filed
theft of federal funds for underreporting her income     with the OIG in 2000 after the Wichita Housing
in order to receive Section 8 assistance to which        Authority received an anonymous tip that Johnson’s
she was not entitled.                                    husband, DerWard Johnson, had lived with her
                                                         since 1989.
    Defendant Alberta Cowan pled guilty in St.
Louis, MO, in Federal District Court for the                  In Colorado Springs, CO, in Federal Court for
Eastern District of Missouri, to one count of            the District of Colorado, defendant Denise Souser,
making a false statement to HUD. Cowan applied for       a former Section 8 tenant, was indicted on five
and received a Section 8 rental voucher in Mexico,       counts of making false statements. Souser began
MO, in May 2000 and subsequently transferred the         receiving rental assistance from the Colorado
voucher to Mount Vernon, NY. She then leased a           Springs Housing Authority in 1994. On her yearly
rental unit in Mount Vernon, receiving rental            recertifications, she claimed that her only source of
assistance of over $850 per month for over two           income was child support and/or alimony. However,
years. In reality, Cowan never moved from Missouri       an investigation disclosed that Souser had been
to New York. Cowan’s daughter, who was employed          employed as a nurse’s aide since 1994. The Author-
and earning over $60,000 per year, occupied the          ity overpaid $38,100 in rental subsidies to Souser.
rental unit in New York. Cowan then applied for
rental assistance at the Chevy Chase Apartments, a            Defendant Patrick E. McHugh, Jr., was indicted
project-based HUD subsidized property in Mexico,         in Boston, MA, in Federal Court for the District of
MO, in March 2002. Between May and September             Massachusetts, on two counts of theft of govern-
2002, HUD paid subsidy for Cowan in both Mis-            ment money. McHugh allegedly received $33,341
souri and New York. Cowan made numerous false            in Section 8 benefits to which he was not entitled by
statements on her certifications, including failing to   failing to claim his accurate income on Section 8
report real property, her bank accounts, a $38,972       recertifications between 1998 and 2003. McHugh
workers’ compensation settlement, a $27,867              also received $65,575 in Social Security benefits to
disability back pay settlement, and a $80,469            which he was not entitled.
divorce settlement, all of which she received during
the two-year period.                                         Defendant Candy Renee Anderson, a former
                                                         Section 8 tenant, pled guilty in Richmond, CA, in
    Defendants Gary and Linda Clark, Section 8           U.S. District Court for the Northern District of
tenants, were indicted in Sioux City, IA, in Federal     California, to one count of theft of government
Court for the Northern District of Iowa, on one          monies. Anderson failed to disclose to HUD her
count of conspiracy to commit fraud. An investiga-       part-time employment from 1996 to 2001. As a
tion found that the Clarks had owned and operated        result, HUD provided more than $27,900 in over-
a business for over 10 years. During this time           paid Section 8 housing assistance on Anderson’s
period, they failed to accurately report their income    behalf.
on Social Security Administration and HUD certifi-

Chapter 3 - HUD’s Public and Indian Housing Programs                                                        48
     Defendant Lorraine Lobato, a former public        caused checks and money to be transmitted from
housing tenant, was indicted in Denver, CO, in         the State of California to the State of Minnesota,
Federal Court for the District of Colorado, on three   from the State of Minnesota to Dubai, United Arab
counts of making false statements. An investigation    Emirates, and from Dubai to Somalia without a
disclosed that Lobato’s partner moved in with her      money transmitting license. Mohammed failed to
in January 2001 and lived with her until the Denver    report income and commissions received to the
Housing Authority (DHA) evicted them in May            local housing authority, resulting in a $11,319 loss
2003. During her yearly recertifications, Lobato       to HUD.
failed to inform the DHA that another individual
resided with her; she also failed to report the            In Chicago, IL, defendants Robert and Sabrina
individual’s income. As a result of the false state-   Guthrie, both Section 8 tenants at the DuPage
ments, the DHA overpaid $18,095 in rental subsi-       Housing Authority, were indicted separately on
dies to Lobato.                                        three State of Illinois felony counts of state benefits
                                                       fraud, theft, and conspiracy. The indictments allege
    Defendant Sandra Garcia, a Section 8 tenant,       that the defendants received excess Section 8
was indicted in Chicago, IL, by the Illinois Attor-    benefits to which they were not entitled by failing to
ney General’s Office on one count of State benefits    report their full time employment and income to
fraud. Garcia allegedly failed to report her income    HUD for the period October 2001 to December
and assets to HUD and the Illinois Department of       2002. The loss to HUD is approximately $10,502.
Public Aid. In doing so, she received more than
$13,000 in Section 8 and public assistance benefits.       Defendant Shereth Martin surrendered to the
                                                       U.S. Marshals Service and was charged in Newark,
    Defendant Joyce Marie Dykes, also known as         NJ, in Federal Court for the District of New Jersey,
Lecretta Jones and Lecretta J. Dykes, was indicted     with making a false statement to HUD. An investiga-
in San Antonio, TX, in Federal Court for the           tion disclosed that Martin, an employee of the
Western District of Texas, on one count of theft of    Railroad Retirement Board, resided in the Sam Sica
public money. From January 2001 to September           Homes, a low-income housing development oper-
2002, Dykes fraudulently received $12,254 in           ated by the Carteret Housing Authority (CHA), from
Section 8 housing assistance payments. Dykes, who      1999 to August 2003. From July 2001 through July
applied for and received Section 8 assistance at a     2003, Martin submitted forged pay stubs from her
San Antonio residence, also owned this same            employer, which she had altered to delineate a
residence under the alias name of Lecretta Jones.      deduction for the repayment of sick leave, when in
The deed for the property also lists Lecretta J.       fact no such deduction had been taken. This fraudu-
Dykes as the owner. In reality, Dykes, as the          lent deduction appeared to lower Martin’s pay,
Section 8 tenant, and Jones, as the Section 8 land-    which resulted in the CHA’s lowering her rent.
lord, are one and the same person. In order to         Martin also forged a letter from her employer and a
further the scheme, Dykes falsified owners’ certifi-   verification of employment form sent to her em-
cation forms and Section 8 housing assistance          ployer by the CHA. Based on Martin’s actual in-
payment contracts.                                     come, she should have paid approximately $10,600
                                                       more for her rent for the time period covering the
    Defendant Farhan Ahmed Mohammed was                fraud than she actually paid.
indicted in San José, CA, in Federal Court for the
Northern District of California, on two counts of          Defendant Evita Dawson was arrested in At-
false statements and one count of operating a money    lanta, GA. A sealed criminal complaint was filed
transmitting business without a license. An investi-   in the Southern District of New York charging
gation disclosed that Mohammed received income         Dawson with one count of embezzlement and theft
and commissions from a money transmitting busi-        of public money, property, or records. Dawson
ness in which he had an ownership. This business       received $46,901 in Section 8 subsidies to which
affected interstate and foreign commerce in that it

Chapter 3 - HUD’s Public and Indian Housing Programs                                                        49
she was not entitled by defrauding the New York         statements. The defendants falsified their annual
City Housing Authority while residing in Georgia.       recertification forms by not declaring their salaries
                                                        or the income of tenants living in their apartments,
    Defendant Denise Gardner, a former Section 8        and not reporting property listed in their names.
tenant at the Philadelphia, PA Housing Authority,       They were released on their own recognizance.
was arrested and charged in the Eastern District of
                                                            Defendant Evet Cedrez, also a NYCHA tenant,
Pennsylvania, under Pennsylvania Criminal Code,
                                                        was arrested in the Eastern District of New York on
with theft by deception, theft in general, false
                                                        federal false statement charges. Cedrez, who lived
swearing, and unsworn falsification to authorities as
                                                        in the Grant Houses, falsified her annual recertifica-
a result of her lying on Section 8 eligibility docu-
                                                        tion forms by not declaring the income of her
mentation. An investigation disclosed that Gardner
                                                        husband, who resided with her, and the fact that he
lied about her true income and suppressed the fact
                                                        owned property. Cedrez’s husband purchased
that she held a job with the State of Pennsylvania.
                                                        property in Florida a few years ago, and was
She made these false statements over a period of
                                                        employed from 1995 through 2001. Deferred
more than five years, and caused a loss to HUD of
                                                        prosecution agreements are currently being pre-
$34,463 before she was terminated from the Sec-
                                                        pared by the U.S. Attorney’s Office, Southern
tion 8 Program. In order to perpetrate the scheme,
                                                        District of New York, for all three defendants.
Gardner produced false income verifications from
one of her sisters, who is co-owner of a New Jersey
based contracting firm.                                 Others
                                                             In Detroit, MI, in Federal Court for the East-
    An information was filed in Richmond, CA, in        ern District of Michigan, defendant Regina
Federal Court for the Northern District of Califor-     Solomon, a former field office director and senior
nia, charging Candy Renee Anderson with one             community builder for HUD and a local attorney,
count of theft of government monies. Anderson, a        was sentenced to two years probation and 200 hours
former Section 8 tenant at the Richmond Housing         of community service, fined $1,000, and ordered to
Authority, allegedly failed to report her part-time     pay $300 in restitution after pleading guilty to
employment from 1996 to 2001. As a result of her        misusing a government owned vehicle for personal
nondisclosure, HUD overpaid $27,912 in Section 8        use. In an earlier sentencing hearing, Solomon
housing assistance on Anderson’s behalf.                provided the Court with a cashier’s check for
                                                        $2,863 as final restitution to a complainant in this
    In Harrisburg, PA, in Federal Court for the         case who lent Solomon $5,000. Solomon used the
Middle District of Pennsylvania, a one-count            money to pay an outstanding debt on a credit card
information was filed against defendant Trina           issued for government travel only; she originally
Hobart, a resident of Perry Manor Town Homes, a         used the credit card for personal purchases. As part
HUD assisted development. Hobart was charged            of a plea bargaining arrangement, Solomon agreed
with making false statements to receive Section 8       to leave her position at HUD.
rental assistance payments to which she was not
entitled. An investigation disclosed that, beginning        Defendants Alfredo Schoemann, Irene Murillo,
when she applied for assistance in May 1998 and         Maria Rodriguez, Norma Hernandez, Josefina
continuing over a two-year period, Hobart failed to     Aguilar, Concepcion Padilla, Sabina Salazar, and
report her annual income of at least $55,000 from a     Amalia Varela each pled guilty in Texas State Court
cheerleading school that she owned. She received        in El Paso, TX, to unauthorized possession/
$14,616 in excess rental assistance benefits.           redemption of food stamps. Schoemann was sen-
                                                        tenced to five years probation and ordered to pay
    Defendants Icelean Lockwood and Sharon              $7,190 in restitution. Murillo, Rodriguez, and
Barnes, two New York City Housing Authority             Aguilar were each sentenced to two years commu-
(NYCHA) tenants, were arrested in the Southern          nity supervision and ordered to pay restitution in
District of New York on charges of making false         the amounts of $838, $1,258, and $210, respec-

Chapter 3 - HUD’s Public and Indian Housing Programs                                                        50
tively. Hernandez and Padilla were each sentenced           Defendant Edward Zamborsky was sentenced in
to nine months community supervision and ordered        White Plains, NY, in Federal Court for the South-
to pay restitution in the amounts of $223 and $997,     ern District of New York, to one year and one day
respectively. Schoemann preyed on primarily             in prison and ordered to pay $3,830 in restitution
female tenants receiving public housing in the El       for soliciting and accepting bribes in exchange for
Paso area. He would allow tenants to cash in food       inflating contracts at the Yonkers Municipal Hous-
stamps in exchange for cash and charge them a           ing Authority. Defendant Norman Scotland was also
percentage on the total amount, which he kept for       sentenced to one year probation and ordered to pay
himself.                                                $3,830 in restitution for accepting bribes and
                                                        performing the contracting work at the Authority.
     Salazar and Varela, both public housing tenants,
were sentenced to nine months community supervi-
                                                             In St. Louis, MO, in Federal Court for the
sion and ordered to pay $361 in restitution; and two
                                                        Eastern District of Missouri, defendant Dennie
years community supervision and ordered to pay
                                                        Washington pled guilty to one count of bank fraud
$1,954 in restitution, respectively. They redeemed
                                                        for manufacturing counterfeit checks drawn on the
their food stamps with certain store owners and
                                                        St. Louis County Housing Authority. Washington
received cash instead of food, up to 50 percent of
                                                        admitted engaging in a scheme, beginning in
the total amount they redeemed. They ultimately
                                                        October 2002 and continuing until April 2003, to
failed to report their illegal proceeds to the local
                                                        obtain money by means of material false and
housing authority to determine their eligibility to
                                                        fraudulent pretenses. During that time period, he
receive housing.
                                                        created and transacted over $80,000 in fraudulent
                                                        Housing Authority checks in the St. Louis metro-
    In Tampa, FL, in State Court, Middle District
                                                        politan area. Along with losses incurred by finan-
of Florida, defendant Terrence Alonzo, doing
                                                        cial institutions, the St. Louis County Housing
business as ACT Environmental and Construction
                                                        Authority lost over $28,000 from its Section 8
Services, was ordered to pay a $6,000 fine for
                                                        account. Washington also made counterfeit checks
providing inadequate exhaust ventilation, lack of
                                                        drawn on the St. Louis City Housing Authority and
leak proof containers, and regulated material not
                                                        Bluecross Blueshield Insurance Company.
adequately wet. Alonzo contracted with the Punta
Gorda Housing Authority to perform asbestos
                                                            In Cleveland, OH, in Federal Court for the
removal from specific complexes.
                                                        Northern District of Ohio, defendants Donte Wade,
                                                        Keona McDonald, Tina McDonald, Sylvia Kind,
    Defendant José Rafael Padilla-Suncar, owner
                                                        and Lekita Hall, who were previously charged
and president of All Quality Roofing Corporation,
                                                        along with nine other defendants, pled guilty. The
was sentenced in San Juan, PR, in Federal Court
                                                        original indictment charged the defendants with
for the District of Puerto Rico, on charges of
                                                        conspiracy to defraud local banks, merchants, and
conspiracy, aiding and abetting, and violations of
                                                        businesses, including the Cuyahoga Metropolitan
the Anti-Kickback Act. He received four months
                                                        Housing Authority (CMHA), as part of a loosely
home detention and one year probation, and was
                                                        connected ring formed to counterfeit payroll and
fined $5,000. Padilla-Suncar provided $15,000 in
                                                        business checks. This investigation disclosed that
kickback payments to Edwin Rafael Cornier-Ortiz,
                                                        defendant Vaden Anderson, who had recently been
a management agent and president of Erco Enter-
                                                        released from State prison for attempting to cash a
prises, Inc., in exchange for the awarding of a
                                                        counterfeit check using a false identity, sought
contract for the sealing and repair of roofs at a HUD
                                                        others whom he used as “recruiters” who, in turn,
subsidized public housing project at the Puerto Rico
                                                        would seek out individuals who were willing to
Public Housing Administration (PHPHA). Padilla-
                                                        provide their identification and in some cases their
Suncar also conspired with Federico Mathew-
                                                        own bank accounts to deposit counterfeit checks
Sepulveda, a PHPHA contract employee, to em-
                                                        which Anderson created on a home computer.
bezzle, steal, and obtain $15,741 from the Federal
                                                        Anderson, the recruiters, and the check “passers”
Government.
Chapter 3 - HUD’s Public and Indian Housing Programs                                                      51
would then split the proceeds; Anderson received        may have been the landlord for Robertson’s daugh-
the largest share of these proceeds. Counterfeit        ter, who was also receiving Section 8 rental assis-
check amounts ranged from as little as $300 to in       tance. The loss has been estimated at more than
excess of $16,000. Loss estimates exceed $49,500.       $40,000.
Other individuals indicted in the conspiracy include
Gregory Carr, Tina Cannon, Preston Sales, Sharon             Defendant William Hudgens, a police officer
Smith, Leona McDonald, and Sharita Clayton.             assigned to the Cave Spring, GA Housing Author-
                                                        ity, was arrested based on a sworn complaint
    Additionally, defendant Margaret Picard was
                                                        charging him in State Court with embezzling
indicted in the same court on one count of bank
                                                        $23,910 from the Authority. Hudgens was charged
fraud regarding two counterfeit checks deposited in
                                                        with 14 counts of theft by deception. He was given
her Huntington National Bank account. Allegedly,
                                                        blank checks by the Authority’s director to make
Picard used the monies for more than $27,000 in
                                                        purchases, but instead made the checks payable to
personal expenses. Defendants Raysheen Sharp and
                                                        himself and deposited them in his personal bank
Anthony Norman, who were included in the origi-
                                                        account. The theft took place between July and
nal indictment, pled guilty to their roles in the
                                                        December 2002.
scheme.
    In a related case, defendants James Ensley,             Defendant Hud T. Thompson was charged in
Quintina Smith, Christine Nichols, Jennifer             Maryland State Court, Rockville, MD, with six
Johnson, Danine Harvell, and James McKinney             counts of felony theft for his role in a stolen prop-
were indicted in the same court for passing bad         erty ring that was run out of a public housing
checks that displayed either the payroll or Section 8   apartment. In late 2002, Thompson ordered about
bank account numbers of CMHA. The indictment            $65,000 in computer equipment using the company
alleges that legitimate CMHA checks are being used      name “HUD Enterprises.” The checks he used to
as templates for counterfeiters to manufacture          pay for the computer equipment were bad. The
bogus checks by using computerized business             equipment was delivered via FedEx to the public
checking programs purchased at local office supply      housing apartment and ultimately sold. Thompson
stores. One individual was surprised when a local       is currently incarcerated.
tavern owner snapped his picture after recognizing
him as having cashed a counterfeit check just one           In Fergus Falls, MN, defendants Roger West
week prior to his attempting to cash a second bogus     and Sharon Kaiser-West, Section 8 landlords, were
check. A second individual, who had been photo-         indicted in State Court, Ottertail County, MN.
graphed by a store security camera, admitted to         Roger West was charged with one count of theft and
cashing at least 10 checks in excess of $5,000. The     four counts of perjury and Sharon Kaiser-West was
total value of the counterfeit checks under this        charged with two counts of theft and four counts of
indictment exceeds $15,000.                             perjury. Allegedly, the Wests, who were State of
                                                        Minnesota public aid recipients, claimed that no
    In Cleveland, OH, defendant Donna Robertson         one in their household was gainfully employed or
was indicted on 32 State of Ohio felony charges for     had any assets, when in reality they had over
her part in a conspiracy to defraud the Section 8       $300,000 in assets, including the Section 8 rental
Rental Assistance Program. Charges included             unit in question and a family owned business. The
forgery, uttering, tampering with records, and          Wests failed to report any of these assets when
obstructing justice. According to the indictment,       applying for public assistance. As a result, they
Robertson used a false identity and knowingly           received over $20,835 in assistance for which they
signed documents posing as a landlord when in fact      were ineligible.
she knew that the “tenant” for whom the subsidy
was being paid actually owned the property. The
investigation also disclosed that this same “tenant”
may have some ownership in a local business and

Chapter 3 - HUD’s Public and Indian Housing Programs                                                       52
Criminal Violation Initiatives                            Arguello, Juan Lopez, Zenaida Garcia, Juan Jesus
                                                          Alvarez, Armando Aranda, Moses Johnson, and
    A Southwest Region Criminal Violation Initia-         Miguel Gonzales. These individuals were unlaw-
tive was created in the State of Arkansas to identify     fully living at various public housing developments
and remove tenants in public housing who commit           while committing the following violations: posses-
fraud and other criminal violations in order that         sion and/or delivery of a controlled substance,
qualified individuals on the housing subsistence          possession with intent to distribute a controlled
waiting list can be placed in housing. Pursuant to        substance, felon in possession of a weapon, crimi-
this initiative, 36 tenants were charged with crimi-      nal trespass, aggravated robbery, possession of a
nal violations. These tenants have been evicted or        prohibited weapon, possession of marijuana, and
are in the process of being evicted. The defendants       alias warrant violation. Also included were federal
are Vegie Anderson, Sunny Nguyen, Shirley                 charges of conspiracy to possess with intent to
Rideout, Shemika Thurman, Shilese Leia Scruggs,           distribute marijuana (537 pounds) and possession of
Phillis Bragg, Natasha McRay, Monica Bell,                marijuana (537 pounds) with intent to distribute.
Michelle Smith, Michael Wayne Alston, Leroy               The investigation is continuing in order to remove
Stevenson, Latoya Collins, Jessica Clark, Darreon         tenants who assisted the violators in fraudulently
Greer, Daniella King, Da’Anna Kennedy, Christine          residing in or utilizing public or assisted housing
Ann Lester, Calvin Milo Alvarez, Belinda Jones,           developments to continue their criminal activities.
William Histrohaker, Teresa Porter, Sondra
Robinson, Michelle Harrison, Larry D. Baker,                   A Greater Houston Housing Violation Initiative
Jaimie Lee Williams, Julia Jenkins, Jerry Dean            was created in Houston, TX, to identify and
Decht, Jeremy Walker, Ina D. McCullar, Diana              remove tenants and non-tenants who commit fraud
Jones, DeQune Kennedy, Dana M. Johnston,                  and other criminal violations in Section 8 and Low-
Charlene Soard, Amanda Becker, Craig Eugene               Income Housing Programs in order that qualified
Wilson, and Craig Clinton. These individuals              individuals on the housing subsistence waiting list
committed the following criminal violations, among        can be placed in housing. Pursuant to this initiative,
others: theft of property, battery in the third degree,   17 defendants were charged with criminal viola-
domestic violence, possession of a controlled             tions. The defendants are: Crystal Shantel Will-
substance, delivery of a controlled substance,            iams, Jessica Taplin, Corina Bibbs, Demeatrice
possession with intent to distribute a controlled         Poole, Camilla Clark, Belinda Sanders, Gwendolyn
substance, misdemeanor possession, breaking and           Fontenot, Edward Penn, Erik Wayne Colbert,
entering, and domestic battery on a spouse. The           Kendrick York, Lakisha Wise, Marguisha Johnson,
investigation is continuing in order to remove the        Pinkie Roberson, Renita Hawthorne, Theresa
remaining tenants from the housing subsistence            Garza, Angelique Johnson, and Bertha Morin.
program and to pursue other tenants committing            These individuals were unlawfully living at various
criminal violations on public housing property.           public housing developments while committing the
                                                          following violations: aggravated assault, possession
    A Southwest Region Criminal Violation Initia-         of a controlled substance, assault, harassment,
tive was created in San Antonio, TX, to identify          hindering the apprehension of a felon, aggravated
and remove tenants and non-tenants who commit             assault of a family member, possession of mari-
fraud and other criminal violations involving the         juana, delivery of a controlled substance, posses-
San Antonio Housing Authority’s Section 8 and             sion with intent to distribute a controlled substance,
Low-Income Housing Programs in order that                 and probation violation. The tenants were evicted
qualified individuals on the housing subsistence          or are in the process of being evicted. The investi-
waiting list can be placed in housing. Pursuant to        gation is continuing in order to remove tenants who
this initiative, 13 defendants were charged with          assisted violators in fraudulently residing in or
criminal violations. The defendants are Michael           utilizing public or assisted housing developments to
Franks, Cynthia Maciel, John Navejar, Rafael              continue their criminal activities.
Lopez, Richard Rodriguez, John Gamez, Oscar

Chapter 3 - HUD’s Public and Indian Housing Programs                                                          53
OIG Offices of Audit and                                 Indian Housing Block Grant Program. During
                                                         Ahdunko’s employment, she traveled to a weekend
Investigation – Joint Efforts                            vacation rendezvous, went on shopping sprees,
                                                         purchased a plane ticket for a relative, and paid her
     Defendant Juanita Norris English was sentenced      personal telephone/utility bills with PNHA funds.
in Greenville, NC, in U.S. District Court for the        The total loss attributable to Ahdunko was $4,582.
Eastern District of North Carolina, for falsifying a     Ahdunko was also involved in another $22,500 of
rental application for a former Benson Housing           unallowable expenses.
Authority board member. She was sentenced to six
months home confinement and ordered to pay                   Defendant Robert Marion Carter, former
$30,000 in restitution. English abetted and coun-        modernization/rehabilitation inspector employed by
seled former Benson Housing Authority chairper-          the Seminole Nation Housing Authority, pled guilty
son Maxine Holley in making a materially false,          in Muskogee, OK, in District Court for the East-
fictitious and fraudulent statement in an application    ern District of Oklahoma, to one count of em-
for continued occupancy in public housing. Holley        bezzlement from an Indian Tribal Organization.
pled guilty in February 2002 to a one-count crimi-       Carter embezzled funds by falsifying inspection
nal information and was sentenced to two years           reports and invoices for work his company and
probation, six months home confinement, and 100          three other companies submitted to the Tribal
hours of community service, and was ordered to           Organization. Carter’s fraudulent activities caused
pay $48,762 in restitution to the Benson Housing         $161,119 in losses.
Authority.
                                                             Defendant Troy Goforth, owner of Goforth
    English served as Housing Authority director         Construction, pled guilty in U.S. District Court for
from 1992 until January 2000, when she resigned.         the Eastern District of Oklahoma to one count of
An OIG audit revealed that English misspent $1.6         embezzlement from an Indian Tribal Organization.
million in federal money, including nearly $1            Goforth submitted fraudulent invoices for work that
million she paid to Turnage Construction Company         his company billed to the Seminole Nation Housing
for general construction work without bids or a          Authority. His fraudulent activities caused $42,895
written contract. In violation of conflict of interest   in losses to the Housing Authority.
restrictions, English hired the owner of Turnage
Construction as Housing Authority maintenance                Robert Sellers, former executive director of the
supervisor and paid him $79,000. English’s hus-          Seminole Nation Housing Authority, was indicted in
band, Wayne English, was hired as a subcontractor        the same court on one count of embezzlement from
and paid $37,600. The audit also found that English      an Indian Tribal Organization. Sellers concealed his
and Holley were responsible for the loss of $37,000      identity by using a “doing business as” company
in rental income.                                        name on a “Request for Payment” form he submit-
                                                         ted to the Authority. As a result, Sellers was paid
    Defendant Roberta Jean Salmon Ahdunko was            $4,000 for work that was never performed.
sentenced in Tulsa, OK, in U.S District Court for            In a related case, defendant Wayburn Ray
the Northern District of Oklahoma, to five years         Earhart, former modernization/rehabilitation
probation and ordered to pay $3,445 in restitution       coordinator at the Seminole Nation Housing Au-
and a $600 special assessment fee. Ahdunko               thority, was indicted on one count of theft from an
previously repaid $1,137 to the Pawnee Nation            Indian Tribal Organization. Earhart resigned from
Housing Authority (PNHA). She was convicted early        the Authority and immediately was contracted to
this summer on one count of embezzlement from an         perform modernization/rehabilitation work for the
Indian Tribal Organization and five counts of mail       Authority. Doing business as A&R Maintenance,
fraud. Ahdunko was employed as the finance               Earhart billed and was paid for work that he did not
manager for the PNHA, which receives all of its          perform, did not complete, or was substandard. As
funding from HUD through the Native American             a result of Earhart’s activities, the Authority’s
Housing Assistance and Self-Determination Act            losses are $23,550.
Chapter 3 - HUD’s Public and Indian Housing Programs                                                        54
    Defendant Tamica Waters was indicted in             evaluated several agencies’ efforts to implement
Birmingham, AL, in Federal Court for the North-         various PRWORA provisions that related to fugitives
ern District of Alabama, on four counts of making       receiving benefits from federal assistance pro-
false statements to the Fairfield Housing Authority     grams, and critically noted that HUD had not con-
to obtain Section 8 benefits. Waters received           ducted a data match to identify fugitives receiving
$10,404 in rent subsidies to which she was not          rental assistance. GAO further determined that HUD
entitled.                                               had effectively delegated its responsibilities to
                                                        PHAs, and that HUD had not monitored or evaluated
    In the same case, defendant Carolyn Canada
                                                        the efforts of PHAs in this regard.
was indicted on two counts of making false state-
ments to the Fairfield Housing Authority to obtain           In furtherance of Section 903 of the PRWORA,
$7,434 in Section 8 rent subsidies to which she was     and in partial response to the GAO’s findings, OIG
not entitled.                                           initiated a joint effort with the U.S. Marshals
                                                        Service to identify and apprehend fugitives and
    Additionally, defendants Georgia and Kevin
                                                        probation/parole violators who may be living in
Smith and Sheryl and Luquita Wallace each pled
                                                        HUD assisted housing. OIG’s Fugitive Felon Initia-
guilty to two counts of making false statements to
                                                        tive commenced in FY 2003, and as of August 31,
HUD. These defendants were previously indicted for
                                                        2003, OIG the U.S. Marshals Service had identified
making false statements to the Fairfield Housing
                                                        and arrested 98 fugitives residing in HUD assisted
Authority to obtain Section 8 benefits.
                                                        housing.
     Defendant Leslie Skaggs, a public housing
tenant under the jurisdiction of the Housing Author-
ity for the City of Topeka, KS, was referred for
eviction. An investigation disclosed that Skaggs
failed to report on her initial application for occu-
pancy/tenancy that she had a prior conviction for a
controlled substance violation.



Fugitive Felon Initiative
    OIG recently launched a fugitive felon initiative
to identify HUD housing assistance recipients who
are criminal fugitives from justice. Section 903 of
the Personal Responsibility and Work Opportunity
Reconciliation Act of 1996 (PRWORA), Pub. Law
No. 104-193 (Aug. 22, 1996), amended 42 U.S.C.
§§ 1437d(1)(9) and 1437f(d)(1)(B)(v), to make
fugitive status a ground for the termination of
tenancy. The law applies to any tenant who is
fleeing to avoid prosecution for a felony, fleeing to
avoid confinement for conviction of a felony, or is
violating a condition of probation or parole imposed
for the commission of a felony.
    On September 25, 2002, the General Account-
ing Office (GAO) issued GAO Report No. 02-716,
Welfare Reform: Implementation of Fugitive Felon
Provisions Should Be Strengthened. The GAO report

Chapter 3 - HUD’s Public and Indian Housing Programs                                                      55
                                               This page intentionally left blank.




Chapter 3 - HUD’s Public and Indian Housing Programs                                 56
         Chapter 4 — HUD’s Multifamily Housing Programs
    In addition to multifamily housing developments with HUD held or HUD insured mortgages, the
Department owns multifamily projects acquired through defaulted mortgages, subsidizes rents for low-
income households, finances the construction or rehabilitation of rental housing, and provides support
services for the elderly and handicapped.

Audits
    During this reporting period, the OIG issued eight reports in the Multifamily Housing Program area:
one internal memorandum, three external audits, and four external memoranda. These reports disclosed
almost $700,000 in questioned costs and nearly $2.5 million in recommendations that funds be put to
better use.


                Multifamily Housing Reports Issued                            Multifamily Housing Dollars


                                                                $2,500,000
                                           1
                                                                $2,000,000

                                                                $1,500,000

        4                                                       $1,000,000
                                                        3
                                                                 $500,000

                                                                       $0
                                                                             External Audits      External Memoranda
       Internal Audit   External Reports   External Memoranda                Questioned Costs   Funds Put to Better Use




    We audited owner and management agent operations at several multifamily projects and a multifamily
accelerated processing lender. The results of our more significant audits are described below.

Owner and Management Agent Operations
    At the request of the U.S. Attorney’s Office for the Southern District of Indiana, the OIG reviewed
Federal Property Management Corporation (FPMC), Indianapolis, IN, to determine whether FPMC used
project funds in compliance with the Regulatory Agreements and HUD’s requirements and maintained the
units according to HUD’s housing quality standards. We found that FPMC inappropriately claimed Section 8
housing assistance payments from HUD for units at all six projects it managed that did not meet HUD’s
housing quality standards and/or its tenant income recertification requirements. In addition, FPMC violated
the Regulatory Agreement by improperly disbursing Savoy-Hoosier Apartments project funds for ineligible
costs. As a result of FPMC’s mismanagement, the projects defaulted on their HUD insured mortgages.




Chapter 4 - HUD’s Multifamily Housing Programs                                                                            57
                                                 The Indianapolis Star, October 1, 2003


    We referred our draft audit findings to the U.S. Attorney’s Office for the Southern District of Indiana for
civil matters. HUD and the U.S. Attorney’s Office executed a settlement agreement with FPMC effective Septem-
ber 18, 2003. Under the terms of the settlement, FPMC, without any admission of wrongdoing, agreed to pay
the Federal Government $400,000 on or before December 17, 2003. Also as part of the settlement, FPMC
agreed to a two-year voluntary exclusion from seeking new contracts with HUD and any other agency of the
Executive Branch of the Federal Government.
     We recommended that HUD ensure that FPMC pays the Federal Government $400,000 as required by the
settlement agreement. (Report No. 2003-CH-1802)

    At the request of the Director of the Houston Multifamily Housing Program Center, and to fulfill an escrow
and payment agreement requirement, we attempted to conduct an audit of the multifamily housing projects
Haverstock I, Haverstock II, Haverstock III, and Coolwood Oaks in Houston, TX. The objective was to deter-
mine if the owner, Herbert J. Zieben, complied with HUD regulations, the Regulatory Agreement, and the
Compliance Agreement when he made: (1) transfers of funds between the projects; and (2) payments from the
projects to identity-of-interest companies. We did not conduct a full audit because the projects and identity-of-
interest companies did not provide complete financial books and records.
     We concluded that Zieben improperly transferred $230,000 from Haverstock I, $190,000 from Haverstock
II, and $25,000 from Coolwood. In addition, Zieben improperly withdrew funds from the projects by having
his identity-of-interest companies bill the projects inflated amounts for materials and labor. Due to the lack of
records, we could not determine the exact amount Zieben overcharged the projects. However, the projects
overpaid at least $304,000 for materials and up to $983,000 for labor. Zieben used the unauthorized distribu-
tions and improper billings to inappropriately enrich himself and his other business ventures.
   Since our audit work identified equity skimming, the OIG will be seeking recovery action. However, HUD
should continue to hold the $1.95 million in escrow until recovery actions are complete. (Report No. 2003-FW-
0803)

    As a result of a referral from the Honolulu HUD Office of Multifamily Housing, we completed an audit of
the Jack Hall Waipahu, Westlake, and Kulana Nani projects managed by Chaney, Brooks and Company (CBC) in
Honolulu, HI. The audit disclosed serious problems in the use of project funds, including a lack of manage-
ment controls by both the owners and management agent. Specifically, we noted repeated instances where
excessive and duplicate charges were approved for payment, fictitious and/or altered bids and invoices were
used to substantiate the selection of a particular company and inflate costs, and contracted renovation work was

Chapter 4 - HUD’s Multifamily Housing Programs                                                                      58
performed by in-house project maintenance personnel. Subsequent to the completion of our review, the owner
of Jack Hall Waipahu prepaid the HUD insured mortgage and is no longer bound by the terms of the Regulatory
Agreement; therefore, repayment of over $200,000 in excessive and duplicate charges was not required. How-
ever, the owner of the other two projects, the City and County of Honolulu, is still required to abide by the
terms of the Regulatory Agreement.
     We recommended that HUD require the City and County of Honolulu to repay Westlake approximately
$145,000 and Kulana Nani nearly $50,000 for excessive and duplicate costs approved by the CBC property
manager. We also recommended that HUD impose administrative sanctions against CBC until it demonstrates that
it has developed and implemented adequate written procedures and controls over its accounting, procurement,
on-site manager training, and monitoring responsibilities. (Report No. 2003-LA-1001)

    Based on a recommendation from Houston Multifamily staff, we conducted a review of Colonial Oaks
Apartments in Houston, TX, to determine whether the owners operated the project in accordance with HUD
requirements. We found that the owners were not adequately managing the project. Although the owners kept
the mortgage current, they did not establish or maintain controls, procedures, or financial records that met
HUD’s requirements because they were either not familiar with the requirements or believed HUD required too
much paperwork for such a small property. As a result, the owners: (1) did not maintain the project’s physical
condition; (2) did not properly collect, record, and deposit rental receipts; (3) lacked leases for 43 percent of
their tenants; (4) lacked support for payments totaling over $9,000; (5) improperly paid at least $4,000 in
management costs from project operating funds; (6) did not submit audited financial statements to HUD timely;
and (7) did not prepare an affirmative marketing plan.
    Since these problems date back to the owners’ assumption of the project, we recommended that HUD termi-
nate the owners’ self-management and require them to obtain the services of an independent property manage-
ment agent. In addition, we recommended that HUD require the owners to reimburse the project for any im-
proper or unsupported disbursements. Further, HUD should either require the owners to submit audited financial
statements or seek appropriate sanctions against the owners. (Report No. 2003-FW-1806)




     Missing gutter and rotted fascia boards at Colonial Oaks project.



                                                                           Missing breaker box cover and exposed
                                                                              wiring at Colonial Oaks project.
Chapter 4 - HUD’s Multifamily Housing Programs                                                                      59
    In response to a complaint, we reviewed             Investigations
Shawnee Hills, Inc., in Charleston, WV, a former
management agent of HUD assisted multifamily                During this reporting period, the OIG opened 63
properties. Shawnee Hills filed for bankruptcy          investigation cases and closed 16 cases in the
protection in May 2002. Subsequently, questions         Multifamily Housing Program area. Final judicial
were raised about whether Shawnee Hills properly        action taken on these cases during the period
used federal funds. We found that, for the most         included $629,074 in recoveries/receivables,
part, Shawnee Hills’ financial records were not         $5,197,410 in restitution, $1,588,000 in fines, 16
auditable, and therefore a detailed review or ac-       convictions, pleas, and pre-trial diversions, 59
counting of the funds could not be performed. We        indictments/informations, 20 administrative sanc-
did find, however, that Shawnee Hills improperly        tions, 62 arrests, and 119 months in prison. The
used $9,000 in reserve for replacement funds just       results of our more significant investigations are
prior to filing for bankruptcy protection.              described below.
    We recommended that HUD initiate appropriate
action to prohibit Shawnee Hills and its officers       Equity Skimming/Conspiracy
from being awarded future contracts with the
                                                             In Baltimore, MD, in Federal Court for Dis-
Federal Government. (Report No. 2003-PH-1802)
                                                        trict of Maryland, the Department of Justice and
                                                        HUD signed a settlement agreement with HAI Man-
Multifamily Accelerated Processing                      agement, Inc., a developer and management agent,
Lender                                                  to resolve allegations of fee splitting and civil
                                                        equity skimming on FHA insured multifamily
    As part of a targeted effort to review the new      projects. HAI agreed to pay $500,000 and accept
Multifamily Accelerated Processing (MAP) Pro-           two years voluntary exclusion from doing new
gram, we completed an audit of CWCapital LLC in         business with the government. From 1998 through
Needham, MA. This is the first of several audits        2001, HAI was the management agent for five
we will conduct to evaluate lender performance in       Maryland multifamily projects owned by Morton
producing insured multifamily mortgages that            Sarubin or members of the Sarubin family. In 1998,
represent a reasonable risk for the FHA insurance       HAI and Morton Sarubin reached an agreement
fund. The audit found that CWCapital’s MAP              whereby HAI would manage the properties only if
application and procedures during the construction      50 percent of the management agent’s fee was split
phase met HUD requirements, and its loan under-         with Sarubin. To further the scheme, HAI and the
writing estimates were reasonable. Although             Sarubin family created a pair of shell corporations
CWCapital complied with its Quality Control Plan,       through which to funnel and conceal fee splitting
changes can be made to enhance its MAP loan             payments of $750,000. Furthermore, HAI collected
process.                                                for itself unauthorized and excess fees from the
     We recommended that CWCapital LLC be               projects totaling $151,000. As part of the settle-
required to make changes to its current Quality         ment, HAI will continue to cooperate in the investi-
Control Plan to ensure that HUD identified deficien-    gation.
cies are reviewed at the corporate level by the chief
underwriter, and if appropriate, advise senior               In Indianapolis, IN, in Federal Court for the
management of recommended changes to improve            Southern District of Indiana, an investigation into
the MAP loan process. CWCapital revised its Quality     violations of the False Claims Act and HUD’s equity
Control Plan, which we reviewed and confirmed           skimming statute on the part of Federal Property
that the revisions fully comply with the intent and     Management Corporation (FPM) resulted in a
purpose of the recommendation. No further action        negotiated settlement agreement. Analysis of tenant
is required. (Report No. 2003-SE-1004)                  files and other records disclosed that FPM, a multi-
                                                        family housing project management company, billed
                                                        for vacant units, falsely certified housing quality

Chapter 4 - HUD’s Multifamily Housing Programs                                                            60
standards requirements, claimed rent subsidies for       gation into conspiracy to commit equity skimming,
tenants whom it did not certify, and misused fire        mail fraud, wire fraud, and money laundering in
insurance proceeds in violation of the Regulatory        conjunction with a scheme to defraud the Low-
Agreement. As part of the settlement agreement,          Income Housing Tax Credit Program.
FPM agreed to pay the government $400,000 and to
                                                             Defendant Maurice Riemer Calhoun, Jr., a
voluntary exclusion from future transactions with
                                                         developer, owner, and manager of multifamily
HUD and the Executive Branch of the Federal
                                                         properties in Louisiana and Texas, and the former
Government for two years.
                                                         owner of Calhoun Property Management, a multi-
                                                         family development and management company in
     The U.S. Attorney filed a civil complaint in
                                                         Mansfield, LA, was sentenced to 60 months incar-
Buffalo, NY, in Federal Court for the Western
                                                         ceration and three years supervised release on each
District of New York, against defendant Charles R.
                                                         count, to be served concurrently, was fined
Livecchi and CRL Management, Inc., for multifam-
                                                         $500,000, and was ordered to pay $3,208,521 in
ily equity skimming. In March 1997, Livecchi, the
                                                         restitution. Calhoun also agreed to sign a
owner of Cambridge Court Apartments and presi-
                                                         $1,155,162 promissory note to the Federal Home
dent of CRL Management, Inc., the management
                                                         Loan Bank of Dallas, TX. Calhoun pled guilty in
agent for Cambridge Court, defaulted on the
                                                         March 2003 to a two-count bill of information
project’s FHA insured mortgage. While the mort-
                                                         which charged him with one count of wire fraud
gage was in default, Livecchi and CRL Management
                                                         and one count of conspiracy.
received and retained $368,305 in project assets
and income. Livecchi also authorized $145,939 of             T.F. Management, Inc., a company owned and
expenditures contrary to the project’s Regulatory        operated by Maurice Riemer Calhoun, Jr., was
Agreement. These expenditures included payments          sentenced to 60 months probation and fined
for the owner’s mortgage, credit card, home equity       $500,000. T.F. Management pled guilty in March
loan, and an unsecured line of credit. The civil         2003, through its owner, to a one-count bill of
complaint seeks damages in the amount of                 information which charged the company with one
$1,028,489, which is double the value of the assets      count of wire fraud.
and income used in violation of the Regulatory
                                                             Defendant James C. Howell, Jr., a former
Agreement, plus $514,244 for breach of contract
                                                         employee of Calhoun Property Management, was
and unjust enrichment.
                                                         sentenced to six months incarceration and one year
                                                         supervised release, and was fined $5,000. Howell
     Defendant Robert Vaughan, a former attorney
                                                         pled guilty in December 2002 to a one-count bill of
and manager of an FHA insured elderly housing
                                                         information charging him with misprision of a
development in Flint, MI, was sentenced in De-
                                                         felony involving a multifamily equity skimming
troit, MI, in Federal Court for the Eastern District
                                                         scheme.
of Michigan, following his earlier guilty plea to
multifamily equity skimming. Vaughan skimmed                 Defendant Joseph W. Ham, a former general
money for his personal law practice and personal         contractor for Calhoun Property Management who
debts from Flint Heights, a 196-unit apartment           was responsible for the rehabilitation of 37 multi-
building, between 1998 and 2000. Vaughan re-             family properties in Texas and Louisiana with a
signed from his management position in 2000 and          government insured loan amount of approximately
lost his license to practice law in 2002 after failing   $14 million, was sentenced to four months incar-
to turn over funds from a guardianship. He was           ceration and two years supervised release, and was
sentenced to 21 months in prison and ordered to          fined $60,000. Ham was previously issued a
pay $369,405 in restitution.                             suspension by HUD from participation in procure-
                                                         ment and non-procurement transactions as a partici-
    The following judicial actions, which took place     pant or principal effective June 6, 2003. Ham’s
in Shreveport, LA, in Federal Court for the West-        sentence was a downward departure from the
ern District of Louisiana, resulted from am investi-     sentencing guidelines due to his cooperation in the

Chapter 4 - HUD’s Multifamily Housing Programs                                                             61
prosecution of Maurice Riemer Calhoun, Jr. Ham              Defendants Eric Dubbs, former building man-
pled guilty in November 2002 to a two-count bill of    ager for the Amsterdam Building in Manhattan,
information charging him with one count of con-        NY, Angelo Scudiero, former building manager for
spiracy to commit mail and wire fraud and forfei-      Taino Towers in Manhattan and Dayton Towers in
ture.                                                  Far Rockaway, NY, and Arnold Zabinsky, president
                                                       of Elm Management, a real estate management
    Defendant Thomas L. Frye, an officer of            company in Elmhurst, NY, pled guilty in Central
Calhoun Property Management, was sentenced to          Islip, NY, in Federal Court for the Eastern District
two months incarceration and one year supervised       of New York, to conspiracy to defraud HUD and the
release, and was fined $60,000. Frye’s sentence        IRS. All the buildings involved in this case received
was a downward departure from the sentencing           HUD subsidies and loan guarantees. Dubbs,
guidelines due to his cooperation in the prosecution   Scudiero, and Zabinsky received $4,000, $20,000,
of Maurice Riemer Calhoun, Jr. In coordination         and $11,000 in kickbacks, respectively, from
with others, Frye created and caused to be created     vendors for work performed at the buildings their
numerous false invoices and certificates of actual     companies managed. The kickbacks were disguised
cost related to the rehabilitation of multifamily      in the vendor invoices as costs of services provided.
properties. He pled guilty in December 2002 to a
two-count bill of information charging him with one        In Los Angeles, CA, in Federal Court for the
count of conspiracy to commit mail and wire fraud      Central District of California, defendant Michael
and forfeiture.                                        Clarence Jones pled guilty to conspiracy and mail
                                                       fraud. Jones admitted to being paid a salary by
    Defendant Murray E. Howell, an employee of         American Development Company (ADC), a com-
Joseph W. Ham, was sentenced to five months            pany that managed Section 8 properties, when in
incarceration and three years supervised release,      reality he was a ghost employee who rarely did any
and was fined $60,000. Howell’s sentence was a         work for ADC. Jones also used ADC employees to
downward departure from the sentencing guidelines      perform construction work at a private residence for
due to his cooperation in the prosecution of           a construction company he controlled while the
Maurice Riemer Calhoun, Jr. Howell pled guilty in      employees were being paid by ADC. The dollar loss
November 2002 to a one-count bill of information       to HUD was $206,000.
charging him with one count of conspiracy to
commit mail and wire fraud.                            Embezzlement/Theft
     Defendants Marvin Gold and Jeffrey Gold pled          Defendant Theresa Sheppard pled guilty in
guilty in Brooklyn, NY, in Federal Court for the       State Court, Howard County, Big Spring, TX, to
Eastern District of New York, to one count each of     theft of more than $20,000 but less than $100,000.
conspiracy to defraud HUD and the IRS. Marvin          She was sentenced to seven years in prison, ordered
Gold was the owner of Marvin Gold Management,          to pay $50,000 in restitution, and fined $233 for
a real estate management company. Jeffrey Gold         court costs. Sheppard admitted embezzling more
was the vice president. The company managed            than $57,000 in rents from two Saint Mary Episco-
numerous properties in New York which received         pal Retirement Homes, both of which are HUD
HUD subsidies and loan guarantees. Between Janu-       projects. At the time she committed this crime,
ary 1992 and April 1999, Marvin and Jeffrey Gold       Sheppard was on probation for a prior embezzle-
received over $80,000 and $17,000 in kickbacks,        ment charge.
respectively, from vendors for work performed at
buildings managed by Marvin Gold Management.                In Charlottesville, VA, in U.S. District Court
Marvin Gold approved payments to other individu-       for the Western District of Virginia, defendant
als for an additional $210,000 in kickbacks. These     Rodney Crump, former assistant property manager,
kickbacks were included in vendor contracts as         was sentenced to 15 months incarceration and 36
costs for services provided.                           months supervised release, and was ordered to pay

Chapter 4 - HUD’s Multifamily Housing Programs                                                            62
$23,219 in restitution for his part in a conspiracy to     dozens of Section 8 public housing complexes
embezzle funds from Blue Ridge Commons Apart-              across the Southeast. Younts was indicted earlier
ments (BRC). Crump and the former property                 this month for embezzling money from seven
manager, Nancy Besemer, conspired to embezzle              entities managed by Housing Management, Inc.
$23,219 in cash payments and blank money orders
from residents of BRC. Instead of depositing these              Defendant Diane L. Galloway, manager of
funds in a bank account belonging to BRC, Crump            Branson Manor Apartments, was charged by the
and Besemer kept the funds for their own benefit.          State of Missouri in Branson, MO, with one count
Two arrest warrants have been issued for Besemer,          of financial exploitation of an elderly person and
who has fled the jurisdiction. One warrant is related      one count of theft by deceit when she failed to
to this matter and one is for probation violation.         disclose financial assets owned by a tenant receiving
                                                           subsidized housing. Branson accepted at least
     Defendant Sandra Pullett, a multifamily special-      $167,443 from an elderly Branson Manor resident.
ist, was sentenced in Philadelphia, PA District            To retain access to the resident, Galloway falsified
Court for the Commonwealth of Pennsylvania to 12           certifications by underreporting the resident’s
months supervised release and was ordered to pay           income and assets. The total loss to HUD is $6,012.
$16,000 in restitution and fines. Pullett previously
pled guilty to one count of conspiracy and one                  In St. Louis, MO, in Federal Court for the
count of theft by deception. An investigation dis-         Eastern District of Missouri, defendant Nueil
closed a $40,000 embezzlement scheme that took             Edwards was indicted on charges of theft or bribery
place at the Overmont House multifamily develop-           concerning programs receiving federal funds.
ment. The investigation found that in the past year        Edwards was the former operations manager for the
and a half, Pullett and an accomplice embezzled            Roosevelt Towne Apartments, a multifamily Section
rental payments from HUD assisted multifamily and          8 property. He allegedly stole monies from the
Section 8 tenants living at Overmont. Pullett and          property’s reserve fund checking account by remit-
her accomplice deposited cash payments, cashed             ting checks payable to a bank account he had set up
money orders, and split the illegal proceeds. Pursu-       in the name of the complex. He used this money,
ant to her guilty plea, Pullett stipulated that she will   alleged to total more than $135,000, for his per-
pay Overmont House $16,000 in restitution.                 sonal benefit.

    Defendant Anita Young was sentenced in                     Defendant Ronald McCoy, owner of ABC
Topeka, KS, in Federal Court for the District of           Construction, Inc., was arrested and charged in
Kansas, to three years probation and was ordered to        State Court, Philadelphia, PA, on seven felony
pay $13,226 in restitution to HUD. Young, who pled         Pennsylvania State Crime Code violations. These
guilty to a one-count superseding information              violations include bribery, criminal conspiracy, bid
charging her with false statements and embezzle-           rigging, theft by unlawful taking, theft by decep-
ment, received Section 8 project-based rental              tion, attempted theft by deception, and deceptive or
assistance at the Highland Park Apartments multi-          fraudulent business practices. McCoy allegedly paid
family development. She fraudulently received              bribes in the form of home improvements to Allan
$13,266 in rental assistance after she falsified her       Brown, former deputy director of the Philadelphia
annual recertifications by failing to disclose her true    Housing Development Corporation (PHDC). In
income.                                                    return for these bribes, McCoy, doing business as
                                                           ABC Construction, received repair and service
    Defendant Roger Younts was arrested and                contracts for multifamily housing units managed by
charged in Lexington, NC, in State Court for the           PHDC. Brown was convicted on related charges in
Middle District of North Carolina, with 11 counts          July 2001.
of felony embezzlement of approximately
$600,000. Younts allegedly embezzled the money                Defendants Phillip Colley, Vernon Strauch, and
from Housing Management, Inc., which manages               Sherrie Bussleman were arrested and named in a

Chapter 4 - HUD’s Multifamily Housing Programs                                                                 63
22-count indictment in Lincoln, NE, in Federal            Davis-Bacon Act Violations
Court for the District of Nebraska, for charges
involving Section 8, mortgage, Social Security, and           Defendant Avner Leibovitch, also known as
Medicare fraud, as well as firearms violations.           Avner Electric, pled guilty in Columbus, OH, in
Serenity Place, the subject of the investigation, is an   Federal Court for the Northern District of Ohio, to
organization that provides food, shelter, and enter-      concealing and falsifying material facts relating to
tainment for disabled people in the Lincoln area.         prevailing wage violations at Terraces at Northridge,
This entity is owned and operated by Colley and           a HUD insured multifamily development. Leibovitch
Strauch, who operate numerous other businesses            was the sole proprietor of Avner Electric, which
from this same location. Serenity Place receives          was an electrical subcontractor at Terraces at
money from HUD, the Social Security Administra-           Northridge. Because the mortgage was insured by
tion (SSA), the Department of Health and Human            HUD, the construction of the project was subject to
Services (HHS), and various state agencies for            the provisions of the Davis-Bacon Act and labor
subsistence, transportation, lodging, and medica-         laws, which required the general contractor and
tion. Colley and Strauch have allegedly deprived the      subcontractors to pay construction workers at least
occupants of money to which they are entitled, and        the “prevailing wage” for their work classification,
provided false statements to HUD, SSA, and HHS to         as determined by the Department of Labor.
receive funding for which they fail to qualify.           Leibovitch paid certain workers less than the
                                                          required prevailing wages and prepared false payroll
Forgery                                                   forms which concealed that fact and contained false
                                                          statements and certifications relating to the wages
    In the 20th Judicial Circuit Court, Grand             actually paid to the workers. Four other subcontrac-
Haven, MI, defendant Karen Englert, a manager at          tors (Robert Adkins, doing business as Adkins
Spring Lake Presbyterian Housing Corporation              Drywall, Andrew Sandor, doing business as Sunrise
(SLPHC), was sentenced to 180 days incarceration          Decorating, Chris Gorges, doing business as Austin
and 60 months probation, and ordered to pay               Electric, and Robert Gregoric, doing business as
$77,385 in restitution. Englert, without board            Precision Cuts), all of whom worked at Terraces at
approval, paid $4,249 for her daughter’s health           Northridge, have already been charged federally
insurance and made purchases at local merchants           and convicted.
using SLPHC issued credit cards and checks. In
                                                              In the same case, defendants Dennis Breiding,
addition, she admitted to writing over $33,000 in
                                                          Douglas Lund, Joginder Singh, and Rajinder Singh
SLPHC checks to herself and forging the check stubs
                                                          were indicted on the same charges relating to three
to avoid detection. In total, Englert embezzled
                                                          HUD insured multifamily residential housing
$45,000 during fiscal years 2001 and 2002.
                                                          projects. According to the indictment, Gatehouse
                                                          Building Company was the general contractor on
    In Cook County State Court, Chicago, IL,
                                                          three HUD insured multifamily housing projects
defendant Odessie Allen, a schoolteacher, pled
                                                          owned by separate limited partnerships — the
guilty to one count of felony forgery and was
                                                          Enclave at Rosemont Ridge, the Terraces at
sentenced to pay a minimum of $12,500 in restitu-
                                                          Northridge, and the Terraces on the Green. Defen-
tion. Allen failed to report her income while receiv-
                                                          dants Breiding, Lund, and Joginder Singh were
ing Section 8 benefits at a multifamily HUD subsi-
                                                          employees of Gatehouse, with responsibility for the
dized development. Allen tendered $6,500 in a
                                                          projects; Rajinder Singh had a financial interest and
money order made payable to HUD, and will make
                                                          was involved in controlling the business of Austin
the remaining payments over the next 30 months.
                                                          Electric, Inc., a company which performed work as
The Attorney General’s Office has the option of
                                                          an electrical subcontractor on the three housing
requesting an increase in restitution if Allen’s
                                                          projects. The indictment alleges that the four
financial situation changes.
                                                          defendants entered into a conspiracy, an objective of
                                                          which was to reduce the general contractor’s costs
                                                          on the projects by paying workers less than the

Chapter 4 - HUD’s Multifamily Housing Programs                                                               64
required prevailing wages and to conceal the failure    federal housing assistance, for a period of seven
to pay prevailing wages from those personnel at the     years. Uzzle’s sentence followed her June 2003
Departments of Labor and HUD. The subcontractors        guilty plea to six felony counts, including three
allegedly caused the forms to be submitted to the       counts of grand larceny from HUD, related to her
general contractor, who in turn submitted them to       submitting false statements concerning her house-
HUD.                                                    hold income while obtaining various social services
                                                        and housing assistance.
    Four other subcontractors who worked on one
or more of the projects – Edward C. Gorges (a
                                                             Defendants Robert and Sabrina Guthrie, former
principal of Austin Electric), Robert A. Gregorek (a
                                                        Section 8 tenants, pled guilty in DuPage County,
framing contractor), Andrew E. Sandor (a painting
                                                        IL Court to state benefits fraud. The Guthries
contractor), and Robert Adkins (a drywall contrac-
                                                        submitted false statements about their family
tor) – pled guilty in 2002 to separate but similar
                                                        income in order to receive rental assistance at
conspiracy charges.
                                                        Chateau Village Apartments, a HUD insured, Sec-
                                                        tion 8 subsidized development. On the same day,
Obstruction of Justice                                  they were sentenced to 240 hours of community
                                                        service, two years probation, and $10,502 in joint
     Defendant Jocelyne Martinez, an investigator
                                                        restitution.
for the State Attorney General’s Office, was ar-
rested and charged in Central Islip, NY, in Federal
                                                            Defendant Vicky Bogard signed a pretrial
Court for the Eastern District of New York, on
                                                        diversion agreement in Little Rock, AR, in Federal
charges of loan origination fraud and obstruction of
                                                        Court for the Eastern District of Arkansas, admit-
justice. Martinez allegedly defrauded HUD by
                                                        ting to making false statements to HUD. Bogard
illegally obtaining $1.7 million in federally insured
                                                        agreed to perform 75 hours of community service
mortgages to purchase four multifamily buildings in
                                                        and pay restitution of $9,436 in return for 18
the Bronx, and then coached a witness to lie to
                                                        months of deferred adjudication. From August 1999
investigators about the transactions.
                                                        to October 2002, Bogard failed to report to West
                                                        Scenic Apartments the income she earned working
False Statements                                        as a teacher. She signed annual Section 8 recertifi-
     Knudson Management Company, Inc., owner of         cation forms knowing this income was omitted. As
two Section 8 multifamily apartment complexes in        a result of her fraud and false statements, she
Humble, TX, agreed to a civil settlement, through       received $7,412 in multifamily project-based
the U.S. Attorney’s Office in Houston, TX,              Section 8 benefits to which she was not entitled.
Southern District of Texas, to pay HUD $133,500 to
settle allegations of fraudulent vouchering practices        Defendant Maxine Gordon, a former multifam-
at the apartment complexes. Knudson Management          ily Section 8 recipient, pled guilty in Pittsburgh,
Company billed HUD for Section 8 tenants who            PA, in U.S. District Court for the Western District
were actually deceased or who were no longer            of Pennsylvania, to using false identities to obtain
residents of the properties.                            Section 8 and Social Security benefits. Gordon was
                                                        previously indicted on eight counts, and subse-
    Defendant Michelle Uzzle, a former Section 8        quently fled the area to avoid prosecution. She was
tenant, was sentenced in Circuit Court for Isle of      apprehended in April 2003 after spending 17
Wight County, VA, to 30 years imprisonment              months on the run. HUD paid Gordon, under a
(suspended) and an indefinite period of probation;      fictitious identity, nearly $38,000 in Section 8
was ordered to perform 500 hours of community           subsidies between 1994 and 2001. The Social
service; was ordered to pay $24,283 in restitution      Security Administration paid her more than
to various social service agencies, including           $87,000 under two fictitious identities during this
$10,825 to HUD; and was ordered not to apply for        same period. Gordon will be sentenced on Decem-
or receive any social service benefits, including       ber 5, 2003.

Chapter 4 - HUD’s Multifamily Housing Programs                                                             65
     A one-count information was filed in Topeka,       he knew the certificates of deposits were not mis-
KS, in Federal Court for the District of Kansas,        placed. On or about January 1, 2000, to June 30,
against defendant Cynthia Edwards. Edwards, a           2001, Haycraft stole property valued at more than
former multifamily project manager, allegedly made      $5,000 owned by and under the custody of Blanton
a false statement or representation when she signed     House.
schedules of tenant assistance payments for Ripley
Park (Timberlee) Apartments. The schedules in                Defendant Shau Ling Yam, a HUD Section 236
question represented that several tenants were          Program participant, was arrested in New York,
entitled to receive rental subsidy payments when in     NY, on nine state counts of grand larceny and
truth they no longer lived at the complex. The          fraud. Yam posed as a HUD management agent for a
scheme resulted $90,918 in fraudulent payments to       multifamily housing complex. She made false
Timberlee Apartments. Edwards turned herself in         promises to immigrants in Chinatown by claiming
prior to appearing in Court.                            she would assist them in obtaining public housing.
                                                        Yam charged between $1,000 and $17,500 for
    Prior to the filing of charges, Timberlee Apart-
                                                        initial fees to obtain an apartment, and used HUD
ments, through its attorney, submitted a $40,000
                                                        recertification forms to make her scheme appear
payment to HUD and agreed to make $5,000 pay-
                                                        more legitimate. Yam never provided the victims
ments beginning on September 15, 2003, until the
                                                        with apartments. She has defrauded over 33 victims
total $90,918 claim has been paid.
                                                        out of $150,000.
     Defendant Blondy R. Haycraft, president and
agent of U.H.M. Management Services, Inc., a
Kentucky corporation which managed operations
for the J.O. Blanton House, was indicted in Louis-
ville, KY, in Federal Court for the Western District
of Kentucky. Blanton House is a high-rise rental
property with 206 of its 256 units designated for
Section 8 housing for elderly or disabled individu-
als. As managing agent for Blanton House, Haycraft
was required to pay the HUD insured mortgage, loan
payments, employee salaries, and vendor invoices
for goods and services provided to the property and
to use the funds for reasonable expenses only. From
February 7, 2000, to January 12, 2001, Haycraft
knowingly and willfully made false statements and
entries to pay invoices from vendors he certified
had provided goods and services to Blanton House,
when he knew that the forms contained false en-
tries.
    On or about March 22, 2001, and April 23,
2001, Haycraft knowingly executed a scheme to
obtain monies, funds, credits, and assets owned by
and under the custody and control of River City
Bank, the deposits of which were insured by the
Federal Deposit Insurance Corporation under false
pretenses. Haycraft used his position as president of
U.H.M. and falsely represented to River City Bank
that he was the sole owner of misplaced certificates
of deposits issued to Blanton House, when in fact

Chapter 4 - HUD’s Multifamily Housing Programs                                                           66
                   Chapter 5 — HUD’s Community Planning and
                              Development Programs
   The Office of Community Planning and Development (CPD) seeks to develop viable communities by
promoting integrated approaches that provide decent housing, a suitable living environment, and expanded
economic opportunities for low- and moderate-income persons. The primary means toward this end is the
development of partnerships among all levels of government and the private sector.

Audits
    During this reporting period, the OIG issued 16 reports in the Community Planning and Development
Program area: one internal audit, 11 external audits, and four memoranda. These reports disclosed about $21
million in questioned costs and over $1.1 million in recommendations that funds be put to better use.

        Community Planning & Development Reports                              Community Planning & Development Dollars
                         Issued
                                                                $20,000,000


                                       1
               4                                                $15,000,000



                                                                $10,000,000



                                                                 $5,000,000

                                                11
                                                                        $0
                                                                                    External Audits                 External Memoranda
       Internal Audit   External Reports   External Memoranda
                                                                                       Questioned Costs   Funds Put to Better Use




    We audited Community Development Block Grant Disaster Assistance Funds in the State of New York;
the Empowerment Zone, HOME, HOME Investment Partnership, Community Development Block Grant (CDBG),
and Housing Rehabilitation Programs; a Section 108 loan and an Economic Development Initiative grant; and
the Housing Opportunities for Persons with AIDS and Supportive Housing Programs. The results of our more
significant audits are described below.

Disaster Assistance Funds – State of New York
    We are performing ongoing audits of the administration of the CDBG Disaster Assistance Funds provided to
the State of New York as a result of the terrorist attacks on the World Trade Center in New York City. These
funds are being administered by two entities, the Empire State Development Corporation (ESDC) and the
Lower Manhattan Development Corporation (LMDC). We plan to issue an audit report on each entity every six
months and include the results in the Inspector General’s Semiannual Report to Congress in order to comply
with Congress’ request that the OIG periodically audit and semiannually report on the expenditure of these
CDBG Disaster Assistance Funds. We previously reported on the operations of the ESDC on March 25, 2003,
and recently completed our first review of the operations of the LMDC.
    The objectives of both the ESDC and LMDC reviews were to determine whether the entities: (1) disbursed
CDBG  funds to eligible applicants in accordance with the HUD Approved Action Plan; (2) disbursed CDBG funds
to applicants in a timely manner; and (3) had financial management systems that adequately safeguard the


Chapter 5 - HUD’s Community Planning and Development Programs                                                                            67
funds. Both reviews covered the period between October 1, 2002, and March 31, 2003. The reviews disclosed
that both ESDC (Report No. 2003-NY-1005) and LMDC (Report No. 2003-NY-1006) generally met these
requirements. However, we found processing deficiencies at both ESDC and LMDC for which we recommended
corrective actions to ensure that proper payments are made and to enhance the efficiency of the administration
of the CDBG funds.
     The recent reviews represent our second review of ESDC’s operations. Generally, we found that ESDC
continued to make substantial progress developing and implementing programs to address the immediate
economic needs of numerous businesses that suffered economic losses and property damage in the terrorist
attacks on September 11, 2001. At March 31, 2003, the ESDC had disbursed over $641 million of the $1.05
billion in CDBG Disaster Assistance Funds it is administering, as shown below:

                                                       Budget as of         Disbursements      Balance as of
                           Program
                                                          3/31/03            as of 3/31/03       3/31/03
             Bridge Loan Program                     $6,760,000            $0                $6,760,000
             Business Recovery Loan Fund             $41,140,000           $5,772,798        $35,367,202
             Business Recovery Grant Program         $489,860,000          $478,084,202      $11,775,798
             Small Firm Attraction & Retention
                                                     $155,000,000          $26,513,750       $128,486,250
             Grants
             Grants to Technical Assistance
                                                     $5,000,000            $1,490,456        $3,509,544
             Providers
             Large Firm Job Creation & Retention     $320,000,000          $110,244,000      $209,756,000
             Compensation for Economic Losses
                                                     $13,240,000           $12,732,591       $507,409
             to Other Businesses
             Business Information                    $5,000,000            $2,241,078        $2,758,922
             Administration                          $14,000,000           $4,807,285        $9,192,715
                           TOTALS                    $1,050,000,000        $641,886,160      $408,113,840
                                             ESDC Action Plan as approved by HUD.


    However, we noted processing deficiencies in ESDC’s grant programs that need to be resolved to enhance
the efficiency of its administration of the funds. Our review of statistically selected samples from the Small
Firm Attraction and Retention Grant Program disclosed that overpayments were made to certain grant
recipients. Specifically, we found that three of 110 sampled applicants received overpayments totaling nearly
$28,000.
    We reviewed grants provided under the Business Recovery Grant (BRG) Program by statistically selecting a
sample of 308 BRGs, which represent BRG disbursements of over $30 million. We identified some of the same
issues as reported in our previous audit. Specifically, we found overpayments of nearly $209,000 and one
duplicate payment of $34,000.
    Also, we noted accounting procedures that need to be strengthened to prevent misclassification of costs and
incorrect calculations of indirect costs. Although some weaknesses may have resulted from the fast pace
required of the ESDC to implement the Disaster Assistance Programs, other deficiencies appear to exist because
of weak accounting procedures. Specifically, we found that business information expenses of over $184,000
were misclassified as administrative costs, indirect overhead charges were calculated incorrectly, and a portion
of a Technical Assistance Service Grant payment of nearly $81,000 lacked adequate supporting
documentation.
    We recommended, among other things, that HUD: (1) ensure that the ESDC has properly recorded and
accounted for reimbursement of any overpayments; (2) instruct the ESDC on whether the funds we determined
to be ineligible should be reimbursed to the BRG Program from non-federal funds; (3) instruct the ESDC to re-
imburse the program for the duplicate payment; and (4) instruct the ESDC to establish accounting procedures to


Chapter 5 - HUD’s Community Planning and Development Programs                                                    68
ensure that costs are correctly classified, that indirect costs are based on actual cost data, and that all grant
disbursements are adequately supported with documentation. (Report No. 2003-NY-1005)

   This review represents our first review of LMDC’s operations, which disclosed that                  LMDC   had drawn down
over $219 million of the almost $656 million approved by HUD, as shown below:


                                     LMDC Partial               LMDC Partial                              Drawn Down as
             Program                                                                        TOTAL
                                   Action Plan No. 1          Action Plan No. 2                              of 3/31/03
   Residential Grant Program      $280,500,000               $0                         $280,500,000     $68,180,816
   Employment Training
                                  $10,000,000                $0                         $10,000,000      $8,259
   Assistance Program
   Design & Installation of
                                  $350,000                   $0                         $350,000         $0
   Interim Memorial
   WTC Business Recovery
                                                             $150,000,000               $150,000,000     $143,529,756
   Grant Program
   Small Firm Attraction &
                                                             $50,000,000                $50,000,000      $0
   Retention Grants
   Large Firm Job Creation &
                                                             $150,000,000               $150,000,000     $0
   Retention
   Administration                 $15,042,500                $0                         $15,042,500      $7,506,362
             TOTALS               $305,892,500               $350,000,000               $655,892,500     $219,225,193
                                 LMDC’s first and second Partial Action Plans as approved by HUD.


    While we found that LMDC generally disbursed CDBG Disaster Assistance Funds to eligible applicants in
accordance with the HUD Approved Action Plan, we noted processing deficiencies in LMDC’s Residential Grant
Program that need to be resolved to enhance the efficiency of LMDC’s administration of funds, and to prevent
duplicate payments and other related administrative deficiencies from recurring. We found that LMDC’s
program administrator was unable to provide adequate documentation to fully support the eligibility of 37
grant recipients that received nearly $78,000, and made either an over or under payment to ten additional
recipients. We also found that, contrary to program requirements, checks of nearly $101,000 were prepared
for 31 individuals who were either approved to receive a grant check under two different identification
numbers or reside in the same household with a grant recipient.
    We recommended that LMDC and/or its program administrator be instructed to obtain and maintain all
missing documentation to support all grant recipients’ eligibility, seek reimbursement from recipients who
either are ineligible or received overpayments, and make the required payments to those recipients who were
underpaid. We also recommended that LMDC and/or its program administrator take immediate steps to prevent
the preparation of duplicate grant checks, recover the amount of all duplicate payments disbursed, and return
the recovered funds to the CDBG Disaster Assistance Funds. In addition, we made recommendations that will
encourage compliance with HUD requirements and the HUD Approved Action Plans. (Report No. 2003-NY-
1006)

Empowerment Zone Program
   The OIG completed a multi-location audit of the Office of CPD’s oversight of the Empowerment Zone
Program to determine whether HUD had an effective system for oversight and control of the program. The
audit was conducted in response to two requests from Congress. The audit was conducted at HUD
Headquarters, six Zones, and HUD’s Field Offices of CPD having jurisdiction for the six Zones we reviewed.
The six Zones were as follows:



Chapter 5 - HUD’s Community Planning and Development Programs                                                              69
                          Empowerment Zone                      Report Number      Issue Date
                 Cincinnati, Ohio                               2003-CH-1009  January 28, 2003
                 Cleveland, Ohio                                2003-CH-1016  April 25, 2003
                 Huntington, West Virginia/Ironton,             2003-CH-1006  December 31, 2002
                 Ohio
                 Minneapolis, Minnesota                         2003-CH-1007   January 3, 2003
                 Norfolk/Portsmouth, Virginia                   2003-PH-1001   December 20, 2002
                 St. Louis, Missouri/East St. Louis,            2003-KC-1003   December 26, 2002
                 Illinois

    We concluded that HUD’s Office of CPD lacked an adequate system of oversight and control over its
Empowerment Zone Program. Specifically, CPD needs to improve its oversight of the Cities’ use of HUD funds
(Empowerment Zone, Section 108 Loan Guarantee, and Economic Development Initiative Grant) for the
program. HUD did not adequately confirm that the Cities’ projects complied with the respective federal
requirements and their contracts with the projects’ administering entities regarding the use of HUD funds. Five
of the six Zones we reviewed inappropriately used some of their HUD funds for the program.
    We also found that CPD did not effectively assess the status and progress of the Cities’ programs by
adequately verifying the accuracy of the June 2001 and/or June 2002 Annual Reports submitted by the Cities.
The six Cities we reviewed provided inaccurate information to HUD for 38 of the 50 activities (76 percent) we
evaluated from the 2001 and/or 2002 Annual Reports. These Reports contained inaccuracies regarding the
outputs of 32 projects, milestones of 26 projects, and sources and/or uses of funds of 20 projects.
    As a result: (1) HUD lacks assurance that the Cities were efficiently and effectively using their HUD funds;
(2) HUD lacks accurate information to assess the Zones’ progress on meeting the goals of their Strategic Plans;
and (3) the impression exists that the benefits of the program were greater than what was actually achieved.
    We recommended that the Office of CPD implement procedures and controls to ensure HUD funds for the
Empowerment Zone Program are used efficiently and effectively, issue additional guidance regarding the use
of HUD funds to ensure the funds benefit Zone residents, and implement procedures and controls to ensure that
verifications of Annual Reports are conducted as required. (Report No. 2003-CH-0001)

    Of the six Empowerment Zones we reviewed during our multi-location audit, one Zone audit report,
Cleveland, OH, was issued during this reporting period. In Cleveland, we found that: (1) controls over HUD
funds were not adequate; (2) accomplishments were inaccurately reported; (3) Zone residents were not
benefiting from projects; and (4) program income was not properly managed. All 10 of the projects we
reviewed incurred inappropriate or unsupported expenditures. The City inappropriately used nearly $6.9
million of HUD funds that did not benefit the City’s Zone Program or were not matched with in-kind
contributions. The City also lacked documentation to support that another $4.7 million in HUD funds paid
benefited the program. As of November 2002, the City spent $22 million of HUD funds for its Zone Program
on the 10 projects.
    The audit also found that the City inaccurately reported the actual status and/or progress for eight of the 10
(80 percent) projects in its June 30, 2001 Annual Report. The report contained inaccuracies related to the eight
projects’ progress on projected outputs, milestones, and sources and/or uses of program funds. In addition, the
City used $13.2 million of the $13.7 million in HUD monies committed for its program to fund three projects
that have not provided benefits to Zone residents or benefited only 25 percent of Zone residents as of
November 2002. The three projects are scheduled for completion in December 2004. Since the three projects
spent 96 percent of their HUD funds committed, benefits to Zone residents would be expected. However, this
has not occurred.



Chapter 5 - HUD’s Community Planning and Development Programs                                                   70
                              © 2003 The Plain Dealer. All rights reserved. Reprinted with permission.

     The City did not follow its Economic Development Initiative Grant Agreement with HUD and its contract with
Fairfax Renaissance Development Corporation (FRDC) to ensure that program income was remitted to the City and
deposited into its loan repayment account. The account was established by the City as security for the repayment of
its loan guarantee. FRDC is fully funded with initiative grant funds from the City’s Empowerment Zone Program
and Community Development Block Grant funds, and receives fees for development services it performs. FRDC
received over $1.1 million in development fees between 1996 and 2002.
    We recommended that the Office of CPD assure that the City reimburses its Empowerment Zone Program for
the nearly $6.9 million of inappropriately used HUD funds, provides documentation to support over $4.7 million of
unsupported payments, and implements controls to correct the weaknesses cited in this report. (Report No. 2003-
CH-1016)

HOME, HOME Investment Partnership, Community Development Block Grant,
and Housing Rehabilitation Programs
    In response to a request from HUD’s Caribbean Office of CPD, we performed an audit of the Puerto Rico
Department of Housing’s (Department) State HOME Investment Partnership Program in San Juan, PR. We
found that the Department’s HOME grants were unauditable and its financial management system was inad-
equate. Although these deficiencies were identified in prior independent public accountant reports and HUD
monitoring reviews, they continued to exist because the Department did not provide sufficient staff and training
to correct the problems and disregarded program requirements. We identified nearly $1.7 million of ineligible
program funds.
    The Department did not accomplish its intent for two of three new housing development/rehabilitation
projects tested. For the Paseo Horizonte II project, we found that HOME funds were spent for work not per-
formed or that was incomplete, and for excessive costs. Over $29,000 of the $656,000 in HOME funds disbursed to
the developer were ineligible and the remaining $627,000 were unsupported. Our visit to the project found the site
abandoned and unkempt. We found an eroded landfill, overgrown grass and bushes, and a missing manhole grill
cover, exposing a hazardous hole four feet deep.

Chapter 5 - HUD’s Community Planning and Development Programs                                                         71
      View of Paseo Horizonte II showing the abandoned site.            Partial view of houses under construction at
                                                                                 Vilar Development project.

    HOME funds expended for the Vilar Development project were inadequately supported, and the files lacked
construction permits and other required documents showing building compliance for a housing project located
in a flood zone. Our visit to the project showed that the site appeared to have been abandoned for some time.
    We recommended that HUD suspend disbursements of any further HOME awards until the Department can
demonstrate accountability and compliance for all HOME grants. We also recommended that the Department be
required to reimburse HUD ineligible costs of nearly $1.7 million, determine the eligibility of $627,000 in
unsupported costs, and determine the status of the projects and possibly save over $1 million. (Report No.
2003-AT-1006)

     We audited the City of Bridgeport, CT’s HOME Investment Partnership Program and identified nearly $1
million in unsupported costs. The City: (1) could not demonstrate that rehabilitation costs for 13 projects,
funded with $1 million in HOME funds, were justified and reasonable; (2) allowed developers to contract with
identity of interest contractors contrary to its written agreement; (3) failed to ensure that HOME Program funds
were used efficiently, resulting in potentially excessive rehabilitation costs and developer profits upon sale of the
properties to homebuyers; (4) failed to properly apply recapture/resale provisions/amounts in the event of resale
for projects; (5) imposed incorrect periods of affordability for projects; (6) did not maintain adequate documen-
tation demonstrating that the projects were sold to and/or occupied by low-income families; and (7) did not
adequately monitor the tenants’ eligibility and condition of the HOME assisted properties.
    The City concurred that mistakes were made in the administration of the HOME Program; nonetheless, units
were produced, met local codes and housing quality standards, and have been maintained. The City contends
that the costs were reasonable for the units. Therefore, the City only concurred that $50,000 should be repaid
due to income ineligibility of one recipient.
    We recommended, among other things, that the City be required to provide documentation to justify the
necessity and reasonableness of project costs or reimburse the HOME Program nearly $1 million from non-
federal funds. (Report No. 2003-BO-1003)

    In response to a citizen’s complaint, we conducted an audit of the Upfront Grant and the HOME loan pro-
vided to the Spanish Village Community Development Corporation (SVCDC) in Houston, TX. The complainant
alleged wrongful expenditures of government funds, violations of grant and loan agreements, failure by HUD and the
City of Houston to follow Upfront Grant and HOME loan guidelines, and political influence that prevented HUD from
declaring the SVCDC in default of its agreements. We concluded that several of the citizen’s allegations were valid.

Chapter 5 - HUD’s Community Planning and Development Programs                                                          72
We found more than $90,000 of ineligible and unsup-                 We recommended that HUD require the City to:
ported expenses charged to a federal loan. We also              (1) connect residents to existing sewer facilities in the
found that, possibly because it lacked the administra-          Madison Park community; and (2) establish an
tive capacity to complete renovations, the SVCDC                adequate recordkeeping system and other basic
violated grant and loan agreements and could not even           controls to ensure its activities are in accordance
start HUD funded renovations on the Spanish Village             with applicable HUD requirements. (Report No.
Apartments until long after the renovations were                2003-AT-1005)
supposed to be completed. Neither HUD nor the City
of Houston Housing and Community Development                         In response to a Hotline complaint, the OIG
Department had a plan for ensuring completion of the            audited the CDBG Program of Oakwood Neighbor-
renovation project even after the project was more              hood Association in Kalamazoo, MI. The com-
than four years overdue. SVCDC finally completed the            plainant alleged that the Association’s former board
first phase of the renovations in January 2001; how-            treasurer misused program funds. The Association
ever, the renovations did not meet HUD standards and            is a subrecipient of the City of Kalamazoo’s Block
work ceased again with no restart date planned. As a            Grant Program.
result, the residents of Spanish Village continue to
                                                                     We found that the Association did not ad-
live in substandard units. Our audit did not substanti-
                                                                equately account for the source and use of CDBG
ate any undue political influence.
                                                                funds. Specifically, the Association: (1) did not
     HUD issued SVCDC a default letter on March 12,             maintain complete and accurate accounting books
2003, with options for SVCDC to return the property             and records; and (2) submitted inaccurate monthly
back to HUD or sell it to a buyer with the capacity to          expense claims to the City for reimbursement. We
complete the renovations and operate the property as            attributed these deficiencies to the fact that the
low-income housing. Therefore, we recommended                   Association’s former board treasurer lacked an
that HUD continue with its remedial action by estab-            adequate segregation of his assigned duties, a
lishing a plan and timeframes for action if SVCDC               knowledge of accounting principles, and established
does not comply with the terms of the default letter.           accounting policies and procedures.
Further, in order that the funds can be put to better
                                                                    We recommended that HUD require the Associa-
use, we recommended that HUD deobligate the
                                                                tion to implement procedures and controls to
remaining Upfront Grant of about $1.4 million to
                                                                segregate accounting duties over the program to the
SVCDC, and require the City of Houston to reimburse
                                                                extent practical; maintain bank and accounting
its HOME investment trust fund the amount expended
                                                                records on-site; and provide periodic financial
on the incomplete project and to deobligate a
                                                                reports to its board. In addition, HUD should
$498,000 HOME loan to SVCDC. (Report No. 2003-
                                                                require the City of Kalamazoo to discontinue
FW-1004)
                                                                providing CDBG Program funds to the Association
                                                                until it develops and maintains written accounting
    In response to a Congressional request, we
                                                                procedures, source documents, a chart of accounts,
performed an audit of the City of Montgomery,
                                                                a cash receipts and disbursements journal, and a
AL’s CDBG Program activities related to the Madi-
                                                                general ledger, and segregates duties over the
son Park sewer project. The Congressional request
                                                                program. (Report No. 2003-CH-1015)
was based on a citizen’s complaint alleging misap-
propriated funds, suspected improprieties, and
                                                                    Following a citizen complaint to Congress, we
inadequate controls over the project. We found that
                                                                audited Housing Continuum, Inc.’s Homebuyers
the City did not: (1) use its CDBG funds prudently for
                                                                Assistance Program. The complainant alleged that
the Madison Park community to connect 25 resi-
                                                                Housing Continuum, located in Geneva, IL, failed
dences to sewer facilities after it spent over $700,000
                                                                to ensure that rehabilitated homes met HUD require-
to do so; and (2) maintain adequate records on CDBG
                                                                ments. HUD’s HOME Investment Partnership Pro-
activities for Madison Park.
                                                                gram funded Housing Continuum’s Homebuyers
                                                                Assistance Program.

Chapter 5 - HUD’s Community Planning and Development Programs                                                           73
     We found that Housing Continuum did not ensure that
rehabilitated homes met HUD’s housing quality standards and/
or requirements of the State of Illinois. Specifically, Housing
Continuum failed to sufficiently document the required cost
analysis and did not assess the reasonableness of the rehabili-
tation contractors’ proposed contract prices. Housing reha-
bilitation work was not authorized, not provided, or was
improperly performed. Also, contractors did not obtain
construction permits in a timely manner, as required.
    We recommended that HUD assure that the Housing
Continuum reimburses its Homebuyers Assistance Program
nearly $68,000 for the inappropriate use of HUD funds,
implements controls and procedures to ensure that the
procurement of housing rehabilitation services meets all           Example of housing rehabilitation work that was improperly
applicable requirements, and requires contractors to obtain       performed at one of Housing Continuum’s projects. Electrical
the necessary permits. (Report No. 2003-CH-1017)                                 wiring not installed in conduit.




Section 108 and Economic Development Initiative
    In response to a request from HUD’s Georgia State Office, Office of CPD, we audited the City of Atlanta,
GA’s administration of a Section 108 loan and an Economic Development Initiative grant totaling $7.2 mil-
lion. The project is known as Historic Westside Village. The City and its subrecipient, the Atlanta Develop-
ment Authority (ADA), did not adequately manage and control the project. The City allowed significant
violations of HUD requirements to occur without early detection or prompt corrective action, and failed to
adequately monitor the performance of subrecipients to ensure compliance with HUD program requirements.
    The City and ADA improperly allowed an ADA affiliate, Inner City Development Corporation (ICDC), to
perform as a grant subrecipient without executing a subrecipient agreement. ICDC improperly paid $1.35
million of Section 108 funds for non-competitively selected service vendors and over $163,000 for other
ineligible and unsupported costs. The City and ADA did not competitively procure 22 service contractors and
did not execute a contract with a “for-profit” company, Historic Westside Partners (HWP), to perform as the
project’s exclusive development and management agent. The City and ADA also allowed “for-profit” affiliates
of HWP and ICDC to become exclusive developers with ownership interests in project land and leases without
competition, and without compensation to the City or the Section 108 Program. The opportunity to collect at
least $1.7 million of program income from the sale of one land parcel was not pursued, and project related
revenue totaling more than $403,000 was not properly recorded as project revenue. In addition, the City and
ADA did not comply with HUD requirements pertaining to project budget approvals and accounting.

    We recommended that HUD initiate sanctions against City, ADA, and ICDC officials responsible for pro-
gram violations. We also recommended that HUD require the City to: (1) provide evidence that its manage-
ment control and accounting systems comply with HUD requirements before awarding any further funding; (2)
recover land or appropriate program income from those parcels; and (3) repay $1.65 million of non-competi-
tively procured services and ineligible and unsupported costs. (Report No. 2003-AT-1004)




Chapter 5 - HUD’s Community Planning and Development Programs                                                                74
           ©The Atlanta Journal-Constitution, July 28, 2003. Reprinted with permission from The Atlanta Journal-Constitution.

HOPWA and Supportive Housing Programs
    Safe Space, Inc., a nonprofit in New York, NY, could not provide adequate assurances that $2.2 million
(over $537,000 for the Housing Opportunities for Persons with Aids (HOPWA) Program and $1.67 million for
the Supportive Housing Program (SHP)) in costs either paid with grant funds or allocated to activities were
actually applicable to the grant programs. An OIG review of the grantee’s books and records pertaining to its
HOPWA and SHP Programs disclosed that the grantee did not maintain adequate books and records to account for
expenditures charged to the programs, or adequate documentation to support that grant funds were only ex-
pended for eligible program activities. Specifically, the grantee failed to properly maintain accounting records
to document the basis for allocating costs charged to individual grant programs. This occurred because grantee
officials failed to comply with federal requirements and regulations pertaining to charging of costs to grant
programs, which provide that actual conditions must be taken into account when selecting a base to be used in
allocating costs to each grouping of benefiting functions.
    We recommended that HUD instruct the grantee to obtain an independent public accounting (IPA) firm to
evaluate the manner in which costs were allocated to the various HUD grant programs and other funding
sources. The IPA should certify whether the method used to allocate costs produced allocated amounts that were
commensurate with the benefits derived. HUD should also instruct the grantee to reimburse to HUD any amount
of the $2.2 million that the IPA does not certify to as being an eligible cost that is allocable to the HUD funded
grant programs. In addition, we made recommendations to improve the grantee’s controls and enhance compli-
ance with HUD requirements and regulations. (Report No. 2003-NY-1802)

    In Denver, CO, the OIG reviewed the Colorado Coalition for the Homeless’ administration of its SHP grants.
The audit was initiated based on a complaint regarding the Coalition’s administration of HUD grant funds. We
found that the Coalition’s management controls were not adequate to ensure that HUD grant monies were being
used for eligible and supported program costs.
   Contrary to HUD requirements, the Coalition did not adequately support the source and application of HUD
funded activities. The Coalition used various budgets and/or estimates for charging direct and indirect salaries
and other operating and supportive services to its SHP grants. Subgrantees carrying out various segments of
supportive housing for the HUD funded programs were not allocating costs on a properly supported basis and

Chapter 5 - HUD’s Community Planning and Development Programs                                                                   75
for the actual costs of providing housing to program            ments. Specifically, FCC did not: (1) adequately
grant recipients. In addition, the Coalition charged            account for grant funds; (2) sufficiently establish
various miscellaneous ineligible costs to its HUD               procedures to ensure only eligible and applicable
grants. As such, the Coalition cannot fully support             expenditures were charged to SHP grants; and (3)
that the charges to the HUD grants represent the                promptly establish a cost allocation plan to properly
actual amount expended for each individual grant                allocate indirect cost pools. During the review, with
and program activity.                                           the exception of the implementation of a cost
                                                                allocation plan, we noted that FCC had already
    HUD requires that part of the SHP costs be
                                                                established and implemented accounting systems
funded by the grantee and used for eligible grant
                                                                and procedures to correct these control weaknesses.
program activities. In the most current Annual
Performance Reports for nine of the Coalition’s SHP                 We recommended that HUD determine the
grant projects, the Coalition reported that over                eligibility of about $91,000 in direct operating
$283,000 in cash match funds were provided and                  costs, and follow up on FCC’s implementation of its
used for eligible program activities. However, the              indirect cost allocation plan to ensure it is being
cash match funds reported were not supported as                 implemented as planned. (Report No. 2003-LA-
expenditures of the particular SHP project, nor were            1802)
the funds recorded on the individual grant project’s
books of account.
     The Coalition charged the maximum five                     Investigations
percent administrative allowance for its administra-
                                                                    During this reporting period, the OIG opened 48
tive fee under the two SHP projects we reviewed,
                                                                investigation cases and closed 13 cases in the
rather than an amount based on actual supported
                                                                Community Planning and Development Program
costs. The Coalition based the five percent adminis-
                                                                area. Final judicial action taken on these cases
trative total on the yearly budgets and estimates of
                                                                during the period included $303,396 in recoveries/
its total general administrative costs, and as such,
                                                                receivables, $123,065 in restitution, $26,400 in
considers the maximum five percent amount as
                                                                fines, 13 convictions, pleas, and pre-trial diver-
justified. However, the $148,000 charged to the two
                                                                sions, 15 indictments/informations, 19 administra-
SHP projects during the audit period is not sup-
                                                                tive sanctions, 16 arrests, and 108 months in
ported by actual supported costs.
                                                                prison. The results of our more significant investi-
     We recommended that the Coalition: (1) imple-              gations are described below.
ment an adequate direct cost allocation system that
properly allocates its salary and other related costs           Disaster Assistance Funds – State of
to the various HUD SHP grants and activities in
conformity with HUD and OMB requirements; (2)                   New York
revise its provisionally HUD approved indirect cost                  In our last Semiannual Report to Congress, we
proposal to equitably allocate its administrative and           reported on both our audit and investigative work
indirect costs in conformity with HUD requirements;             into the misuse of HUD funds provided in the
(3) submit its cash match during the implementation             aftermath of the September 11, 2001 terrorist
of the grant activities and use such monies for                 attacks in New York City. During this reporting
eligible program activities; and (4) repay the                  period, we continued to find instances of fraud and
ineligible amounts charged to the HUD funded                    abuse involving these funds. Our results are as
grants. (Report No. 2003-DE-1006)                               follows:
    The OIG completed a limited review of the 1736                  Defendant Bryan Fuhr was sentenced in New
Family Crisis Center’s (FCC) SHP operations and                 York, NY, in Federal Court for the Southern District
found that FCC, located in Los Angeles, CA, did                 of New York, to one year probation and 200 hours of
not have adequate controls in place to ensure it                community service, and was fined $2,000. Fuhr
would meet federal and grant agreement require-
Chapter 5 - HUD’s Community Planning and Development Programs                                                      76
previously pled guilty to theft of federal government           HUD and the LMDC of federal grant funds. The
money. He participated in a scheme to defraud HUD               defendants allegedly devised a scheme to fraudulently
and the Lower Manhattan Development Corporation                 obtain money from this program designed to retain
(LMDC). LMDC was created by the State and City of               and attract residents to Lower Manhattan.
New York after the September 11, 2001 terrorist
attacks to coordinate the rebuilding and revitalization
of Lower Manhattan. LMDC received over $2.7 billion
from HUD to fund the grant program.

    Defendant Allan Klein pled guilty in New York,
NY, in Federal Court for the Southern District of
New York, to one count of theft of govenment money
and one count of mail fraud in connection with a
scheme to defraud HUD and the LMDC. Klein devised
a scheme to fraudulently obtain money from a grant
program.

    In New York, NY, an attorney representing
defendant David Zimmer submitted a check for
$280,000 to the U.S. Attorney’s Office for the                               The Daily News, June 27, 2003
Southern District of New York. The check was
made payable to the Empire State Development
Corporation (ESDC). Zimmer, a resident of Mary-
                                                                Investigations Involving Public
land, was previously arrested and charged with theft            Officials
of government money and wire fraud. On the same
                                                                    Defendant Martin Barnes, the former mayor of
day, a seizure warrant was issued out of the U.S.
                                                                Paterson, was sentenced Newark, NJ, in Federal
Attorney’s Office, Southern District of New York,
                                                                Court for the District of New Jersey, to 37 months
and $169,991 was seized from a bank account
                                                                in prison, three years supervised release, and 200
maintained by Zimmer. The $280,000 constitutes a
                                                                hours of community service for accepting between
return of the grant money on two applications
                                                                $200,000 and $300,000 in bribes and gratuities
submitted to ESDC by Zimmer.
                                                                during his tenure as mayor. Barnes accepted free
                                                                travel to places that included Rio De Janeiro and
    In New York, NY, in Federal Court for the
                                                                Aruba; took tax deductions for trip expenses paid
Southern District of New York, an attorney for the
                                                                by his corrupt association with United Gunite
mother of deceased David Corea reimbursed
                                                                Construction, Inc., of Irvington, NJ; accepted
$23,396 to ESDC upon realizing that Corea’s estate
                                                                female companionship paid for by United Gunite;
was not entitled to the World Trade Center Business
                                                                and accepted home improvements, including a
Recovery Grant (WTCBRG). After the terrorist
                                                                custom swimming pool and waterfall in his back
attacks, the WTCBRG Program was established by
                                                                yard, along with clothing and cash. Barnes’ corrupt
ESDC to provide assistance to certain businesses in
                                                                behavior started on almost his first day in office and
lower Manhattan that were adversely impacted by
                                                                continued as a systematic and routine way of busi-
the attacks. The WTCBRG Program is funded
                                                                ness during his terms as mayor. He pled guilty in
through a $375 million appropriation from HUD.
                                                                July 2002 to one count of mail fraud and one count
                                                                of subscribing to a false tax return.
    Defendants Jobim Rose, Azmay Shahzada, and
Allan Klein were indicted in New York, NY, in
                                                                   Defendants David W. Moore, former mayor of
Federal Court for the Southern District of New
                                                                Beaumont, TX, and John K. Davis, former Beau-
York, on charges of theft of government funds and
                                                                mont city councilman, were sentenced in Federal
mail fraud in connection with a scheme to defraud
                                                                Court for the Eastern District of Texas. Moore
Chapter 5 - HUD’s Community Planning and Development Programs                                                       77
received 20 months in prison and two years super-               between the daughters on behalf of WH and the
vised release, while Davis received 33 months in                mother, in her positions as member of the City’s
prison and three years supervised release. Both were            Community Development Committee and member of
ordered to pay $30,000 jointly in restitution to the City       the Common Council, on behalf of the City. The other
of Beaumont. The defendants were convicted in                   three counts of the indictment were additional charges
November 2002 of accepting bribes from San Anto-                against Rosa Cameron. Rosa Cameron has already
nio, TX businessman Terry Samuel in return for their            been sentenced pursuant to this indictment and is
support of Samuel’s application on a small business             currently serving her prison sentence. Trial for
loan from the City. This City money consisted of HUD            LaRosa Roberta Cameron and her sister, LaZanda
Community Development Block Grant Program                       Moore, was scheduled to begin on August 11, 2003;
funds. Moore was convicted on 13 counts and Davis               however, due to the sudden development of serious
on 11 counts of conspiracy, bribery, money laundering,          medical problems in the family of a defense attorney,
and fraud.                                                      Moore’s trial is now expected to be substantially
                                                                delayed. LaRosa Roberta Cameron is scheduled to be
     Defendant Sara Bost, former mayor of                       sentenced on October 29, 2003.
Irvington, NJ, was sentenced in Federal Court,
District of New Jersey, to 12 months incarceration,             Theft/Embezzlement
two years probation, and 150 hours of community
service, was fined $2,000, and ordered to pay $100                   A four-count complaint was unsealed in Man-
in special assessment fees. In April 2003, Bost pled            hattan, NY, in Federal Court for the Southern
guilty to one count of attempted corruption of a                District of New York, charging Rabbi Milton
witness. She admitted that in April 1999, she                   Balkany, also known as Yahoshua Balkany, with
attempted to persuade a government witness to                   misappropriating $700,000 in federal grant money.
provide false or misleading information to federal              Balkany, president and director of Bais Yaakov, a
authorities conducting an investigation into the use            Jewish day school in Brooklyn, applied for and
of Community Planning and Development funds to                  later received a $700,000 Economic Development
rehabilitate a recreation center. Bost admitted that            Initiative (EDI) grant from HUD. He allegedly
she attempted to persuade this witness into giving              represented to HUD that the entire grant amount
false testimony about her acceptance of a kickback              would be used to pay off a mortgage on a building
from a paving contractor involved with the rehabili-            located on the Bais Yaakov property for an entity
tation project.                                                 called the “Children’s Center of Brooklyn” to
                                                                house educational and therapeutic programs for
     In Milwaukee, WI, in Federal Court for the                 disabled preschool children.
Eastern District of Wisconsin, defendant LaRosa
                                                                    In November 2001, OIG began a preliminary
Roberta Cameron, also known as Roberta Allen,
                                                                investigation of several EDI grants that had been
former executive director of the Williamsburg
                                                                awarded in the New York metropolitan area, includ-
Heights Community Block Club Association (WH),
                                                                ing the “Children’s Center” grant, and learned that
and the daughter of former City of Milwaukee
                                                                the “Children’s Center” had failed to file any of the
alderman Rosa Cameron, pled guilty to participat-
                                                                regular progress reports required by HUD. Balkany
ing in a scheme to conceal a material fact in relation
                                                                refused to provide OIG with access to the school’s
to the award of Community Development Block
                                                                books and records. Records subsequently obtained
Grant funds by the City of Milwaukee to WH.
                                                                from Chase Manhattan Bank showed that all the
LaRosa Roberta Cameron was charged in a four-
                                                                money received from HUD in December 1999 had
count indictment in October 2002 to which she
                                                                been withdrawn in early February 2000, a two-
ultimately pled guilty. The fourth count of that
                                                                month period in which Balkany wrote more than
indictment charged both LaRosa Roberta Cameron
                                                                250 checks against the account. One check was
and her sister, LaZanda Moore, with participating in
                                                                used to pay down a mortgage against the Bais Yaakov
a scheme with their mother, Rosa Cameron, to hide
                                                                property, which at the time of the grant totaled more
the immediate family conflict of interest relationship
                                                                than $1 million. The complaint states further that

Chapter 5 - HUD’s Community Planning and Development Programs                                                       78
Balkany diverted funds to several individuals and               and August 2002, Long cashed checks for her per-
entities who were not entitled to the funds. For                sonal use from the account of the nonprofit totaling
example, $300,000 was diverted to a corporation in              between $60,000 and $85,000. During that period, the
which Balkany’s son-in-law was an officer, and                  nonprofit received $29,427 in Housing Opportunities
$80,000 was diverted to a variety of other Rabbis and           for Persons With AIDS funds from HUD via the City of
Jewish schools and organizations in Brooklyn. An-               Las Vegas.
other $78,000 in checks were made payable to Rabbi
Balkany. Balkany surrendered to the authorities on                  In Kansas City, MO, defendant Sylvester
August 26, 2003.                                                Holmes, former president of the Black Economic
                                                                Union, pled guilty in Federal Court for the Western
    In addition to the $700,000 grant, Bais Yaakov
                                                                District of Missouri to two counts of theft concern-
received over $2.7 million in other EDI grants from
                                                                ing programs receiving federal funds. The Black
HUD for FYs 1999, 2001, and 2002. Another grant
                                                                Economic Union is a not-for-profit community
application in the amount of $1.5 million for FY
                                                                development corporation dedicated to the redevelop-
2003 has been withheld by HUD pending the out-
                                                                ment and revitalization of distressed or blighted
come of the investigation.
                                                                communities within Kansas City. As president,
                                                                Holmes solicited bribes and diverted payments from
    Defendant Betty Jane Anderson, former prop-
                                                                the Union to personal bank accounts.
erty manager of the Becker County Economic
Development Authority (EDA), was sentenced in
                                                                     Defendant Terry Lee Rhodes was arrested in
Becker County Criminal Court, Detroit Lakes,
                                                                Las Vegas, NV, and was transported to Los Ange-
MN, to 23 months incarceration and $73,599 in
                                                                les, CA. Rhodes, who was indicted in 2002, was an
restitution following her earlier guilty plea to theft
                                                                employee of Toney Chisum, Jr., president of Ameri-
by swindle for her role in embezzling EDA funds.
                                                                can Philanthropy Association (APA). Defendant
Anderson stole EDA checks made out to tenants,
                                                                Chisum was previously found guilty in Los Ange-
landlords, and vendors. She then set up fictitious
                                                                les, CA, in Federal Court for the Central District of
bank accounts and subsequently deposited the
                                                                California, of one count of conspiracy, five counts
stolen funds in those accounts.
                                                                of making false claims to HUD, five counts of theft
                                                                of federal government funds, and one count of
     Defendant Edward Scarborough was arrested
                                                                making false statements to HUD. APA owned and
and pled guilty in New York, NY, in Federal Court
                                                                operated three homeless shelters in Los Angeles.
for the Southern District of New York, to one count
                                                                Chisum and Rhodes submitted homeless shelter
of theft of government property. Scarborough
                                                                attendance logs that included fraudulent and ficti-
received approximately $320,545 in Supportive
                                                                tious names in order to receive federal funds from
Housing Program funds from HUD’s Office of
                                                                the Los Angeles Homeless Services Authority’s
Community Planning and Development. He also
                                                                Winter Shelter Program. The City and County of
received approximately $84,000 in grant monies
                                                                Los Angeles funded the Winter Shelter Program
from the New York State Department of Labor
                                                                using Emergency Shelter Grant dollars provided by
provided by the Department of Health and Human
                                                                HUD. APA received more than $500,000 under the
Services. Scarborough created an organization
                                                                Winter Shelter Program between 1994 and 1998.
called the Institute for Development of Disabled
                                                                Rhodes was a fugitive prior to his recent arrest.
Americans which was to provide training for
                                                                Chisum is scheduled for sentencing November 17,
disabled veterans in the culinary arts. These monies
                                                                2003.
were converted for his own use.
                                                                    In Salt Lake City, UT, defendant Christy
    In Reno, NV, defendant Mary Long, the former
                                                                Marie Martinez was indicted in Federal Court for
managing director of Pahrump Family Resource
                                                                the District of Utah on four counts of theft of govern-
Center, a nonprofit, pled guilty in the Fifth Judicial
                                                                ment funds. Martinez, a former caseworker for the
District Court of the State of Nevada to two counts of
                                                                Salt Lake Community Action Program’s Housing
forgery and embezzlement. Between October 2000
Chapter 5 - HUD’s Community Planning and Development Programs                                                         79
Opportunities for Persons with AIDS (HOPWA) Pro-                Estevez, president of EMA and Estevez Monroe, Inc.
gram, allegedly embezzled over $50,000 in program               (EMI); Ricardo M. Estevez, secretary of EMI; and the
funds. She created false supporting documentation to            corporations EMA and EMI). Jackson prepared these
justify HOPWA payments to “vendors” on behalf of                fraudulent tax returns for Pedro Estevez and the
HOPWA clients, and diverted payments prepared for               corporations EMA and EMI (to include the other two
HOPWA “clients” to her personal benefit. As an                  brothers) to secure $285,909 in Rental Rehabilitation
example, Martinez used HOPWA funds for her vaca-                funds (HUD Community Development Block Grant
tion, a car loan, payments to a family member, credit           funds) from the City of San Antonio. These funds
card payments, car repairs, and utility bills.                  were provided to the City to develop the Elmhurst
                                                                Apartments in San Antonio and provide affordable
False Statements                                                housing for low- and moderate-income families.
                                                                Estevez, the principal defendant, did not meet the
     Defendant Thomas E. Keehn, Jr., the president              terms of the loan and misused HUD funds. The
of Certified, Inc., a home improvement company                  development was unlawfully sold on April 7, 2000,
incorporated in the State of Maryland, was sen-                 prior to completion of the project. Jackson produced a
tenced in Baltimore, MD, in Federal Court for the               falsified income tax return statement to misrepresent
District of Maryland, to six months with an elec-               the other defendants’ financial positions to the City
tronic monitor, five years probation, fined $20,000,            and to HUD by making false statements that they had
and ordered to pay $31,000 in restitution to the                the collateral to pay for the loan and to rehabilitate
District of Columbia’s Department of Housing and                Elmhurst Apartments. Defendants Juan Carlos
Community Development. Keehn was also ordered                   Estevez and Ricardo Estevez pled guilty to mail
to notify all jurisdictions in which he holds home              fraud on May 13, 2002; their sentencings are
improvement licenses of his conviction and to                   pending.
provide proof to the court of those notifications.
Keehn previously pled guilty to participating in a              Illegal Disposition of Asbestos
fraud scheme in which he submitted false proposals
on behalf of other contractors to the Department of                  A Coos County, NH Grand Jury returned an
Housing and Community Development in order to                   eight-count indictment against developer Kevin
win 15 home repair contracts worth over $220,000.               Craffey and foreman Jose Fonseca for illegally
Keehn used the Postal System to courier some of                 disposing of asbestos. Charges include endanger-
the false bids to the government agency for evalua-             ment and reckless conduct for exposing workers to
tion.                                                           asbestos hazards; conspiring to remove asbestos
                                                                materials in violation of regulations; conspiring to
     In Albany, GA, in Federal Court for the Middle
                                                                illegally dispose of asbestos waste; and illegal
District of Georgia, defendant Everett Cordy was
                                                                disposal, removal, and abatement of asbestos. A $1
sentenced to two years probation, fined $1,000, and
                                                                million Community Development Block Grant was
ordered to pay a $100 special assessment fee.
                                                                provided to the Town of Whitefield, NH, to enable
Cordy submitted false statements to HUD on two
                                                                Craffey to purchase and rehabilitate an historic
grant applications on behalf of Albany State Univer-
                                                                hotel in the community. Craffey was to refurbish
sity, which requested matching funds for the benefit
                                                                water and sewer lines.
of the Consumer Credit Counseling Service of
Southwest Georgia.

    Defendant William McQuinn Jackson pled                      OIG Offices of Audit and
guilty in San Antonio, TX, in Federal Court for
the Western District of Texas, to one count of mail
                                                                Investigation — Joint Efforts
fraud. Jackson, a co-defendant in the case, pro-                    Defendant Bradley D. Jones was sentenced in
duced false income tax return statements for other              Utica, NY, in Federal Court for the Northern
defendants (Pedro Octavio Estevez, vice president of            District of New York, to six months home deten-
Estevez Monroe and Associates (EMA); Juan Carlos                tion, five years probation, and 100 hours of com-
Chapter 5 - HUD’s Community Planning and Development Programs                                                       80
munity service, and was ordered to pay $63,065 in
restitution. In February 2003, Jones pled guilty to a
one-count felony information for theft of property
from an organization receiving federal assistance.
Jones was the controller for Utica Community
Action, Inc., a federally funded, nonprofit agency
providing anti-poverty programs to the Utica area.
This investigation into Utica Community Action’s
financial activities was conducted in response to a
Congressional inquiry. The audit/investigation
found 25 suspicious checks payable to Jones. Jones
admitted that, while employed as controller, he
issued agency checks payable to himself, cashed
those checks, and used the proceeds for his per-
sonal benefit.

    Defendants Nuru and Zem Zem Abdulkadir
entered into a civil settlement with the Houston,
TX U.S. Attorney’s Office, Southern District of
Texas, in connection with a false claims fraud
investigation. The Abdulkadirs misrepresented their
household income in order to receive mortgage
down payment assistance through the City of
Houston under the HUD HOME Program. The
Abdulkadirs agreed to repay a lump sum of $4,250.




Chapter 5 - HUD’s Community Planning and Development Programs   81
                                            This page intentionally left blank.




Chapter 5 - HUD’s Community Planning and Development Programs                     82
        Chapter 6 — Other Significant Audits and Investigations

Audits
                                                          contract to Marasco noncompetitively. In addition,
    During this reporting period, the OIG issued          HTA inappropriately acquired government specific
four internal audits and one internal memorandum          training. Furthermore, HTA had no documents
involving areas of HUD operations that do not fall        supporting its decision to noncompetitively select
under major HUD programs reported in previous             WWW. These deficiencies occurred because the HTA
Chapters.                                                 administrator and staff circumvented the federal
                                                          acquisition regulation and HUD procurement policy
                        Other Reports Issued              when awarding services to WWW. As a result,
                                                          Marasco was awarded a $500,000 contract
                                                          noncompetitively, and WWW received nearly
                  1                                       $150,000 without competing for the services.
                                                              We recommended that the Deputy Assistant
                                                          Secretary for Administration, Office of Human
                                                          Resource Management: (1) cancel the Marasco
                                                          Newton Group contract for the HTA Core
                                                  4       Competencies Project under HUD’s Interagency
                                                          Agreement with OPM; (2) recompete the HTA Core
                                                          Competencies Project contract but exclude Marasco
                Internal Reports   Internal Memorandum    Newton Group and WWW from the competition; (3)
                                                          take appropriate action against the HTA
    We audited HUD’s Training Academy, Staffing           administrator and remove her authority to execute
Efforts, Information Security Program,                    service contracts; (4) take appropriate action
administration of Section 3 of the HUD Act of 1968,       against the HTA director for allowing the contractor
and the administrative operations of the Office of        to receive an award for a SOW it had prepared; (5)
Federal Housing Enterprise Oversight. The results         train the HTA administrator, directors, and
of these audits are described below.                      government technical monitors regarding contract
                                                          solicitation requirements and the appropriate
                                                          methods for acquiring contract services; and (6)
HUD Training Academy                                      ensure that all staff responsible for acquiring
    In response to an anonymous hotline complaint,        training services and products adhere to appropriate
we audited the HUD Training Academy’s (HTA)               procedures.
acquisition practices. The complaint included                 During our review, the Assistant Secretary for
numerous allegations. However, based on the               Administration approved several changes that
results of our survey work, we determined that            should prevent the recurrence of the deficiencies
only the allegations related to HTA’s acquisition         described in this report. Among those changes
practices had merit.                                      were the reassignment of the HTA administrator and
    HTA did not comply with applicable acquisition        deputy administrator to positions outside the HTA,
regulations when obtaining services from outside          and the requirement that all purchases exceeding
sources. Specifically, with assistance from HTA,          $2,500 must be approved by the Assistant
Watson Wyatt Worldwide (WWW), a subcontractor             Secretary or Deputy Assistant Secretary. (Report
of Marasco Newton Group (Marasco), prepared the           No. 2003-AO-0002)
statement of work (SOW) and an unsolicited
proposal to perform the work outlined in the SOW.         Staffing 9/30
Based on the unsolicited proposal, the Office of
Personnel Management (OPM) awarded a $500,000             Between July and September 2002, HUD undertook
                                                          Staffing 9/30, a large-scale recruiting and hiring
Chapter 6 – Other Significant Audits and Investigations                                                     83
effort. The goal of Staffing 9/30 was to maximize the      Administration of Section 3 of the
staffing levels of the Department before the end of FY
2002 by filling mission critical positions. An OIG audit   HUD Act of 1968
found that because Staffing 9/30 was inadequately               We completed a survey of HUD’s administration of
planned and directed, information used to track hiring     Section 3 of the Housing and Urban Development Act
levels was unreliable, and HUD hired too many people.      of 1968 to determine if HUD is administering Section
In particular, HUD exceeded its staffing level set forth   3 in accordance with the Act. The purpose of Section
in the FY 2003 budget by about 300. As a result, a         3 is to provide, to the greatest extent feasible, jobs and
significant number of the positions filled were not        economic opportunities to low-income and very low-
mission critical positions as intended, and HUD had to     income persons, particularly public housing residents.
reprogram over $20 million to cover additional             Section 3 also provides contracting opportunities for
personnel costs. In other words, the results of Staffing   businesses that are owned by low-income people or
9/30 were inconsistent with program requirements           that provide employment to low-income people. We
and staffing needs. Moreover, the hiring actions were      found that HUD does not have adequate controls in
not based on the Resource Estimation and Allocation        place to ensure it is meeting the intended purpose of
Process, which was to be the means to estimate,            Section 3 of the Act. However, at the time of our
justify, and allocate staffing resources.                  review, HUD was in the process of taking action to
     We recommended that HUD implement the                 address the control weaknesses.
corrective action plan submitted to Congress to                 The Office of Fair Housing and Equal Opportu-
ensure compliance with full-time equivalent ceilings       nity needs to develop and implement necessary
in the future. (Report No. 2003-AO-0004)                   controls to ensure the Section 3 program is function-
                                                           ing as intended, as well as a timeframe to ensure
HUD’s Information Security Program                         controls are implemented expeditiously. At a mini-
                                                           mum, these controls should include: (1) developing a
    The Federal Information Security Management
                                                           system to track recipients; (2) developing a method to
Act of 2002 (FISMA) requires the OIG to perform an
                                                           evaluate the recipient reporting system; and (3)
annual independent evaluation of HUD’s information
                                                           developing a system to monitor recipients that ensures
security program and practices. Our review found
                                                           that contracts contained in the Section 3 clause,
HUD in general compliance with the requirements of
                                                           recipient reporting system, are effective and that
FISMA except for Section 3544(b)(7)(C)(i). This
                                                           Section 3 residents are informed of and given avail-
section requires notification of the OIG on security
                                                           able job and training opportunities.
incidents. HUD has no procedure for notifying the OIG
of such incidents. Furthermore, HUD lacks adequate             The Office of Fair Housing and Equal Opportu-
policies and procedures for documenting incident           nity agreed with the two recommendations we made
response activities. In the previous fiscal year (FY       and developed various corrective actions and
2002), HUD reported 51 denial of service attacks, 24       timeframes to correct the program weaknesses.
probes, and 330 Internet service provider attacks. In      (Report No. 2003-KC-0001)
FY 2003, only one incident has been reported. Given
the number of incidents reported in FY 2002, HUD’s         Administrative Operations, Office of
network vulnerabilities recently identified by a HUD
subcontractor, and the numerous public warnings            Federal Housing Enterprise Oversight
about worms affecting systems using Microsoft                  OIG audited certain administrative operations of
products, there may have been incidents during this        the Office of Federal Housing Enterprise Oversight
fiscal year that have gone unreported. No recommen-        (OFHEO), the safety and soundness regulator for the
dations were made in this audit. (Report No. 2003-         Federal National Mortgage Association and the
DP-0803)                                                   Federal Home Loan Mortgage Corporation. We found
                                                           that OFHEO did not ensure that it used its funds at
                                                           optimum efficiency, as the Office paid for lodging


Chapter 6 - Other Significant Audits and Investigations                                                            84
costs above the maximum per diem rate and leased          2002 to conspiring to commit mail and wire fraud and
office space in excess of the government recommen-        submitting false statements to HUD/Ginnie Mae, was
dations and averages. In some cases, OFHEO did not        sentenced to 27 months imprisonment and two years
detect travel card misuse or travel voucher errors by     supervised release, and was ordered to pay
its employees. We concluded that OFHEO’s compensa-        $4,467,517 in restitution to HUD/Ginnie Mae.
tion levels are comparable to other regulatory organi-
zations.                                                       Defendant Andrew Johnson, a HUD construction
                                                          analyst, was indicted in Houston, TX, in Harris
     We recommended that the Director of OFHEO
                                                          County District Court, on two counts of felony forgery
improve its policies and procedures in order to ensure
                                                          of a commercial instrument. Johnson allegedly
that its funds are used efficiently, and ensure proce-
                                                          passed two counterfeit cashiers’ checks, each for
dural changes that have been initiated for the review
                                                          $10,000, as the down payment for a conventional
of travel related expenditures are fully implemented
                                                          home loan. Johnson has indicated that the counterfeit
and effective. (Report No. 2003-KC-0002)
                                                          checks were given to him as payment for architec-
                                                          tural work he allegedly performed during non-duty
                                                          hours for an outside party.
Investigations
                                                               Defendants Frank DeMarc and Christopher
     During this reporting period, the OIG opened 27      Jones were indicted in East Brunswick, NJ, in the
investigation cases and closed 24 cases involving         County of Middlesex Court, on 10 counts of fraudulent
areas of HUD operations that do not fall under specific   use of a credit card and burglary in connection with
program categories. Final judicial action taken on        the theft of a HUD OIG credit card. In February 2003,
these cases during the period included $4.4 million in    DeMarc and Jones broke into an OIG vehicle and
restitution, one conviction, nine indictments/informa-    stole a satchel containing an OIG credit card. They
tions, one administrative sanction, and 37 months in      used the credit card to make numerous purchases.
prison. The results of some of these investigations are   One of the merchants had a videotape of an individual
described below.                                          using the stolen card; the tape was used to identify
    Defendant Enos Ying, controller of Financial          Jones and he, in turn, identified DeMarc as his
Research Services (FRS), was sentenced in Miami,          accomplice. Jones failed to appear at his May 30
FL, in Federal Court for the Southern District of         arraignment; he was subsequently arrested.
Florida, to 37 months imprisonment and three years
supervised release, and was ordered to pay                    In Oklahoma City, OK, Vernita Smith, an
$4,414,813 in restitution to HUD/Ginnie Mae. Ying         investigator with the HUD Office of Fair Housing and
was previously convicted of two counts of conspiracy      Equal Opportunity, was given a letter proposing 14
to make false statements to HUD/Ginnie Mae, one           days off without pay for misleading HUD’s National
count of mail fraud, and 27 counts of submitting false    Relocation Center (NRC) into believing that her family
statements to HUD/Ginnie Mae. Ying engaged in a           moved with her to and from Mississippi. In June
conspiracy with Robert Barrera, the owner of FRS, to      1998, Smith completed the standard NRC moving
defraud Ginnie Mae and investors who purchased            questionnaire and reported that her spouse and four
mortgage-backed securities. Barrera and Ying were         children were moving with her to Jackson, MS. She
able to place 15 fictitious mortgages, totaling           subsequently filed vouchers and received funds for
$1,294,270, in several Ginnie Mae pools, resulting in     her and her family to move to Mississippi the same
a loss to Ginnie Mae. In addition, they kept the loan     year. In reality, Smith was the only person who moved
pay-off proceeds on 39 mortgages amounting to             to Mississippi. In February 2000, Smith again filled
$3,173,247 and continued to make the monthly              out a questionnaire claiming that she and her family
mortgage payments so that Ginnie Mae would not            were moving back to Oklahoma from Mississippi;
discover the fraudulent scheme. Ginnie Mae was            she received funds for her family to move back. Smith
required to reimburse investors over $4.4 million as a    has admitted that her family did not make both moves.
result of the scheme. Barrera pled guilty in October      The NRC calculated the loss to be approximately
                                                          $10,000.
Chapter 6 - Other Significant Audits and Investigations                                                       85
                                                   This page intentionally left blank.




Chapter 6 - Other Significant Audits and Investigations                                  86
                               Chapter 7 — Outreach Efforts

    In order to foster cooperative, informative, and       In addition, at the NAHRO meeting, ASACs
mutually beneficial relationships with agencies and        Maureen Nelting and Diane DeChellis, along
organizations whose intent is to assist in the accom-      with Assistant Regional Inspectors General for
plishment of HUD’s mission, the OIG participates in a      Audit (ARIGAs) Cristine O’Rourke and Michael
number of special outreach efforts. These efforts, as      Motulski, made a presentation at one of the
described below, are in addition to our regular            break-out sessions, providing an overview of the
coordination with federal, state, and local law en-        OIG and discussing examples of fraud in public
forcement agencies, other OIGs, and various Congres-       housing. After Mr. Donohue’s address at the HUD
sional Committees and Subcommittees. During these          conference, ASAC Maureen Nelting and ARIGA
outreach efforts, we not only present the results of our   Cristine O’Rourke made a presentation about the
audit and investigative work and discuss our goals and     OIG and fraud schemes in various HUD programs.
objectives, but we also provide information about the
OIG’s role and function.                                   Inspector General Donohue addressed the Public
                                                           Housing Authorities Directors Association at
    Inspector General Kenneth Donohue, Deputy              their conference in Las Vegas, NV. The IG asked
    Assistant Inspector General for Investigation          the executive directors for their support for OIG’s
    Daniel Salas, Deputy Assistant Inspector General       initiative to reduce income underreporting by
    for Audit Michael Phelps, Regional Inspector           public housing residents. He also announced the
    General for Audit (RIGA) Heath Wolfe, and              OIG’s Fugitive Felon Initiative. From Las Vegas,
    Assistant Special Agent in Charge (ASAC) Ray           Inspector General Donohue traveled to Salt Lake
    Espinosa met with HUD management staff and             City, UT, to address the Bankruptcy Fraud
    representatives from the U.S. Marshals Service,        Working Group organized by the Department of
    the FBI, the Secret Service, and the IRS Criminal      Justice. The OIG has considerable involvement
    Investigation Division in Columbus, OH, to             with bankruptcy fraud as part of our white collar
    discuss the OIG’s role in the Southern District of     crime investigations into both Single Family and
    Ohio relative to our audit, fraud, and fugitive        Multifamily Housing Program activities.
    felon missions.
                                                           In Washington, DC, Inspector General Donohue
    Inspector General Donohue addressed the annual         was host to Mark Graham, Assistant Director for
    meeting of the Connecticut Chapter of the Na-          Modernizing Services of the Northern Ireland
    tional Association of Housing and Redevelopment        Housing Executive. Their discussion touched on
    Officials (NAHRO) in Uncasville, CT, and the           fraud by residents and developers and crime in
    HUD Supervisory Monitoring Training Group in           multifamily housing. The Housing Executive is a
    Cambridge, MA. The theme of Mr. Donohue’s              quasi-public corporation responsible for 100,000
    remarks was the need for cooperative efforts           units of housing in Northern Ireland and has 3,000
    between NAHRO/HUD program staff and the OIG.           employees and a $600 million budget.
    He discussed instances where HUD, public
    housing agencies, and the OIG have been success-       Inspector General Donohue, Assistant Inspector
    ful in working together, and noted recent collabo-     General for Investigation (AIGI) Joe Haban, and
    rative efforts between HUD and the OIG, such as        Special Agent in Charge (SAC) of the Criminal
    the memorandum of understanding between the            Investigation Division John Dupuy visited the
    Office of General Counsel and the OIG on en-           Financial Crimes Enforcement Center (FinCEN)
    forcement issues.                                      in Vienna, VA, as the guests of FinCEN Director
                                                           James Sloan. FinCEN briefed the group on its


Chapter 7 - Outreach Efforts                                                                                 87
    mission and made presentations on the Analytical     potential areas of fraud, waste, and abuse in this
    System for Investigative Support (AS IS) and the     area of FHA’s property disposition process.
    Visual Links Systems software. Inspector General
    Donohue and AIGI Haban presented plaques to          In Washington, DC, OIG conducted an orienta-
    analysts from the AS IS and Proactive Targeting      tion session for interns from Virginia Polytechnic
    Section of the FinCEN Office of Investigative        Institute and State University. In addition to a
    Support. The plaques recognized FinCEN’s             discussion on the OIG mission given by Inspector
    support for OIG efforts at FinCEN.                   General Kenneth Donohue, Mike Stephens,
                                                         Deputy Inspector General, discussed the imple-
    Inspector General Donohue, SAC Barry                 mentation of the President’s Management
    McLaughlin, AIGI Joe Haban, Deputy AIGA Mike         Agenda, Jim Heist, AIGA, and Joe Haban, AIGI,
    Phelps, and RIGA Health Wolfe visited the HUD        provided overviews of the Offices of Audit and
    Detroit, MI Field Office and met with the FBI,       Investigation, Saundra Elion, Director, Head-
    Marshals Service, U.S. Attorney’s Office, and        quarters Audits Division, explained exactly what
    HUD program and OIG staff. Among those items         the OIG is about, Patrick Bannon, Senior Auditor,
    discussed were ongoing OIG cases, law enforce-       discussed HUD’s Continuum of Care Program,
    ment partnerships, the Fugitive Felon Initiative,    and Doris Denmon, Program Analyst, described
    and OIG’s commitment to working with HUD staff       the OIG Hotline and its functions.
    on program related issues.

    Following opening remarks by HUD Secretary
    Martinez and Deputy Secretary Jackson, approxi-
    mately 65 OIG and HUD program staff met in
    Philadelphia, PA, for a Forum on Fraud, Waste
    and Abuse. In their remarks, the Secretary and
    Deputy Secretary reaffirmed the Department’s
    commitment to ethics and accountability in HUD
    programs and operations. Inspector General
    Donohue addressed the attendees on the challenge
    of finding innovative solutions to long-standing
    Departmental problems. Forum participants were       Participants in Virginia Tech (VT) orientation session.
                                                         From l to r: Alvin Manalo, VT Summer Intern; Marianne
    divided into five panels on Single Family Housing,   Nazzaro, Presidential Management Intern, University of
    Multifamily Housing, Community Planning and          Pittsburgh; Kenneth M.Donohue, HUD Inspector General;
    Development, Public and Indian Housing, and          Amber Rhodes, VT Summer Intern; and Russell Mills, VT
    HUD Administration and Operations. Panelists         Summer Intern.
    discussed the extent of fraud, waste and abuse in
    their respective areas along with root causes and
    proposed solutions. OIG will provide a leadership
    role in working with HUD program staff on these
    issues.

    AIGA Jim Heist made a presentation at the Mid-
    Atlantic Intergovernmental Audit Forum in Ocean
    City, MD. He discussed the Mid-Atlantic
    Region’s June 2002 audit of FHA single family
    property sales to owner/occupants. The presenta-
    tion illustrated how the OIG used data mining
    techniques to analyze various databases to target


Chapter 7 - Outreach Efforts                                                                                       88
     Participants in Virginia Tech (VT) orientation session.   Norfolk State University President Dr. Marie V.
     From l to r around table: Saundra Elion, Director, OIG    McDemmond presents Cluster Member Organization of
     Headquarters Audits Division; Alvin Manalo, VT            the Year Award to OIG. From l to r: Dr. McDemmond;
     Summer Intern; Amber Rhodes, VT Summer Intern;            Saundra Elion, Director, OIG Headquarters Audits
     Russell Mills, VT Summer Intern; Marianne Nazzaro,        Division; and Donna Hawkins, Assistant Director, OIG
     Presidential Management Intern, University of             Headquarters Audits Divison.
     Pittsburgh; Sarah Abramson, VT Summer Intern;
     Myphoung Nguyen, Computer Specialist, OIG Technical
     Oversight and Planning Division; and Kieu-Hanh Vu,
                                                               During the last semiannual reporting period,
     Computer Specialist, OIG Information Systems Audits       Director Elion hosted two NSU accounting stu-
     Division.                                                 dents on a three-day job shadowing experience at
                                                               HUD Headquarters. In addition, Elion exposed the
    Under the leadership and efforts of Saundra                students to activities outside of OIG, including a
    Elion, Director, OIG Headquarters Audits Divi-             hearing on Capitol Hill, to expand their knowl-
    sion, the OIG has emerged as an active partner in          edge of accounting principles and auditor indepen-
    the Norfolk, VA State University’s (NSU’s)                 dence, a meeting with the president of a nonprofit
    Cluster Program. The Cluster Program is an                 organization who discussed how the results of a
    association of academics and businesses                    recent audit positively impacted the organization’s
    partnering to offer and preserve high quality              operations, and an address by HUD Secretary
    educational and professional experiences for               Martinez to members of the National Community
    students and faculty at NSU. The NSU president             Reinvestment Coalition.
    presented the HUD OIG with the Cluster Member
    Organization of the Year Award. This award                 OIG completed the last of five outreach sessions
    represents NSU’s highest honor to a partnering             that were performed with HUD’s Office of
    organization. The criteria for being selected for          Multifamily Housing over a two-week period in
    this award are long-term commitment to creating            Scranton, Hershey, and Philadelphia, PA, and
    opportunities for NSU students in the areas of             Wilmington, DE. OIG representatives, including
    employment, internships, mentoring, and continu-           SAC Robert Brickley, ASAC Rene Febles, and
    ing education; contributions to the academic life          Senior Special Agent Daniel Ellis, spoke to over
    of NSU through curriculum advising and opportu-            300 managers and owners of HUD assisted
    nities for research and professional development           developments about our mission and priorities,
    of faculty and students; and contributions to the          including our new Section 8 investigative initia-
    Cluster Program in areas of leadership and                 tive, and the importance of working effectively
    broad-based participation.                                 with both OIG and HUD program staff to reduce
                                                               fraud, waste, and abuse in the Rental Assistance
                                                               Program. OIG’s message dovetailed with the HUD
                                                               Office of Multifamily Housing’s presentation on
                                                               the new occupancy guidelines that impose stricter


Chapter 7 - Outreach Efforts                                                                                          89
    requirements regarding tenant leaseholds and           ciency Program and TANF welfare reform, its
    income recertifications.                               impact on WTW, and challenges and opportunities
                                                           to clarify program accomplishments and measure
    RIGA Nancy Cooper addressed members of the             achievements. In response to workshop partici-
    Florida Association of Housing and Redevelop-          pants’ requests, ARIGA Woodard and Senior
    ment Officials (FAHRO) at their Annual Confer-         Auditor Capalungan also discussed the ongoing
    ence in St. Augustine, FL. At FAHRO’s request,         Moving to Work and upcoming Welfare to Work
    RIGA Cooper discussed how the OIG selects              internal audits.
    organizations to audit, what constitutes typical
    findings at public housing authorities, what           ASAC Brad Geary and RIGA Heath Wolfe made a
    housing authorities can do to minimize deficien-       presentation to a group of 20 Community Planning
    cies, and the process to resolve audit report          and Development representatives from various
    findings. She also provided tips to prevent fraud in   cities and municipalities in the Chicago, IL area.
    housing authority operations. Senior Auditors          Specifically, they discussed the OIG’s role in
    Tony Bailey and Barry Shulman also participated        audits and investigations of HOME funds, which
    in the conference.                                     are disbursed from HUD for the revitalization and
                                                           rehabilitation of single family homes.
    In Dallas, TX, ASAC Robert Tighe and ARIGA
    Windell Durant represented OIG in a meeting            Senior Special Agent Daniel Ellis spoke before
    with the Northern District of Texas Bankruptcy         the Commonwealth of Pennsylvania’s Real Estate
    Fraud Working Group. U.S. Attorney Jane J.             Commission in Harrisburg, PA, and the South
    Boyle, Northern District of Texas, chaired the         Central Pennsylvania Predatory Lending Task
    meeting. Other attendees included representa-          Force in Middletown, PA. The State Real Estate
    tives from the U.S. Trustee’s Office, IRS Crimi-       Commission grants and renews real estate
    nal Investigation Division, FBI, Social Security       licenses and administers and enforces the laws of
    Administration, and the U.S. Attorney’s Office.        the Commonwealth relating to real estate transac-
    The participants discussed methods to facilitate       tions. The Predatory Lending Task Force is
    the investigation and prosecution of bankruptcy        responsible for developing and implementing a
    fraud cases in the Northern District of Texas.         regional program to identify and prevent preda-
    Also discussed was an upcoming training session        tory lending, and assisting victims of predatory
    for trustees and special agents on working these       lending. Agent Ellis spoke about the mission of
    cases. All attendees agreed to have a representa-      the OIG Office of Investigation and our success in
    tive available for monthly meetings to discuss         identifying and reporting fraudulent real estate
    referrals from the U.S. Trustee’s Office.              activity. In addition, he discussed the OIG’s
                                                           commitment to identifying and investigating those
    ARIGA Robert Woodard and Senior Auditor Rose           who engage in fraud.
    Capalungan attended the Pacific Northwest
    Regional Workshop for the Welfare to Work              ASAC Max Eamiguel and ARIGA Windell Durant
    Voucher Program (WTW) in Portland, OR. ABT             were invited by representatives from the Offices
    Associates sponsored the workshop. Participants        of Freddie Mac and the City of Dallas, TX, to
    included HUD program staff in Portland, HUD            give a presentation on predatory lending prac-
    Headquarters officials, numerous public and            tices. The audience was made up of public and
    Indian housing authority representatives, state        private housing providers and fair housing en-
    representatives of the Temporary Assistance for        forcement agency representatives in the Dallas
    Needy Families (TANF) Program from Alaska,             area. The purpose of the presentation was to
    Oregon, and Washington, and ABT staff. The             inform attendees about OIG investigative efforts in
    workshop included plenary and breakout sessions        addressing loan origination fraud and illegal
    to discuss strategies and incentives for linking       property flipping. Also present were John Loza,
    WTW participants to HUD’s Family Self-Suffi-           Deputy Mayor, City of Dallas, Vaughn Irons,

Chapter 7 - Outreach Efforts                                                                                 90
    National Director of Community Development,                  will fight back against crime. Agent Ellis was
    Freddie Mac, Congressional and HUD represen-                 invited as a result of his outreach to the Housing
    tatives, and case workers.                                   Authority and police department and his proactive
                                                                 enforcement against fraud in York public housing.
                                                                 His efforts have resulted in tenants being pros-
                                                                 ecuted for fraud and/or terminated from the
                                                                 Public Housing Program for engaging in fraud,
                                                                 criminal, or drug activities.

                                                                 ASAC Brad Geary participated in a cable televi-
                                                                 sion program with an FBI Agent and two repre-
                                                                 sentatives from Attorney’s Title Guaranty, a local
                                                                 title company in Chicago, IL. The program,
                                                                 called “Real Estate Roundtable,” discussed
                                                                 various fraud schemes, how HUD is affected by
    ASAC Max Eamiguel and ARIGA Windell Durant make
    presentation on predatory lending practices in Dallas, TX.   unscrupulous real estate transactions such as
                                                                 flipping and predatory lending, and what law
    Senior Special Agent Daniel Ellis spoke to staff             enforcement is doing to crack down on real estate
    members of the Housing Authority of the City of              fraud.
    York, PA. Agent Ellis discussed the OIG’s
    aggressive and proactive stance in identifying and           SAC Peter Emerzian, ASAC Maureen Nelting, and
    prosecuting Public Housing and Housing Choice                Special Agent Brian Gosselin attended a meeting
    Voucher Program tenants who fraudulently                     of the Vermont Public Housing Authority Execu-
    receive housing assistance subsidies by failing to           tive Directors held at the Barre, VT Housing
    report their true income, and allowing unautho-              Authority. SAC Emerzian discussed the OIG’s
    rized person(s) to reside with them in their                 mission, told the group about types of fraud in
    subsidized residences. Agent Ellis provided                  public housing, and solicited attendees to contact
    instructions to the attendees in identifying and             the OIG if they need assistance with respect to
    documenting fraud, how to contact the OIG and                fraud matters.
    report suspected fraud, and how the OIG will
    work with them as a team to investigate and                  ASAC Herschell Harvell, Jr., was the guest
    prosecute violators, as well as terminate any                speaker for the Inland Empire Chapter of the
    violators’ subsidies. As a result of Agent Ellis’            California Association of Mortgage Brokers in
    proactive enforcement activities in York public              Los Angeles, CA. ASAC Harvell provided an
    housing, the Housing Authority of the City of York           historical perspective of the OIG, our mission,
    has developed a fraud committee which identifies             current organizational structure, and the investi-
    and gathers information on suspected tenant fraud            gative resources of the Los Angeles OIG Office,
    and notifies the OIG.                                        and gave an overview of current mortgage fraud
                                                                 crime trends. ASAC Harvell has been asked to be
    On the same day, Agent Ellis was invited by the              a guest speaker at the California Association of
    Housing Authority of the City of York, police                Mortgage Brokers State Conference in San Diego
    officials, and community leaders to participate in           in October 2003.
    National Night Out. National Night Out is an
    annual event designed to heighten crime and drug             In Washington, DC, Senior Special Agent Daniel
    prevention awareness; generate support and                   Ellis was selected by the Federal Trade Commis-
    participation in anti-crime efforts; strengthen              sion (FTC), through the American Association of
    neighborhood spirit and police/community                     Residential Mortgage Regulators (AARMR), to
    relations; and send a message to criminals letting           participate as a panelist at the FTC’s Unfair and
    them know that neighborhoods are organized and               Deceptive Subprime Lending Summit. Agent

Chapter 7 - Outreach Efforts                                                                                      91
    Ellis was recognized as an expert by the AARMR         work with PHAs to investigate, prosecute, and
    in identifying and investigating mortgage fraud.       terminate tenants’ subsidies.
    The AARMR also nominated Ellis to serve on their
    National Mortgage Fraud Task Force Sympo-              ARIGA Ron Huritz made a presentation before
    sium. He participated on a panel that discussed        existing and new grantee applicants for HUD’s
    the broadening law enforcement efforts to target       Office of Community Planning and
    unfair and deceptive practices of home mortgage        Development’s annual Supportive Housing Pro-
    brokers and appraisers. Agent Ellis spoke about        gram Conference in Chicago, IL. ARIGA Huritz
    the OIG’s proactive efforts to identify and pros-      gave the approximately 25 attendees an overview
    ecute appraisers who engage in fraudulent              of the OIG’s functions and how the audit process
    activities, how to identify fraudulent appraisals,     works. This overview gave potential grant recipi-
    and what areas to focus on in pursuing prosecu-        ents an understanding of the Office of Audit’s role
    tion against these perpetrators.                       and objectives when it performs an audit of a HUD
                                                           grantee.
    ASAC Marc Montague and FBI Special Agent
    Verna Kessler made a presentation to 150 mem-          In Bellaire, MI, ASAC Brad Geary made a
    bers of the American Escrow Association (AEA)          presentation on real estate fraud to the Michigan
    at their National Conference in Anchorage, AK.         Land Title Association. Approximately 100 people
    The presentation was an overall view of mortgage       were in attendance. Topics included basic fraud
    fraud, including indicators and types of schemes,      found in FHA loan files, red flags, and schemes
    and how members of the AEA can help prevent            affecting the title industry.
    and report fraudulent activities within the real
    estate industry. The presentation also focused on a    The Chicago, IL Region OIG Office of Investiga-
    recently completed OIG loan origination fraud          tion hosted a meeting of the Association of
    investigation in Boise, ID.                            Financial Crimes Investigators (AFCI). The AFCI
                                                           is a group of federal, state, and municipal investi-
    In Marquette, MI, ASAC Brad Geary and ARIGA            gators as well as bank and retail investigators. On
    Tom Towers participated in a public housing fraud      a monthly basis, the AFCI shares information of
    panel attended by 100 representatives from public      interest for the purposes of combating and detect-
    housing authorities around the State of Michigan.      ing fraud mutually beneficial throughout the AFCI
    They discussed the OIG’s role in both audits and       community.
    investigations of housing authorities in relation to
    embezzlements and Section 8 fraud.                     In Burlington, VT, ASAC Maureen Nelting and
                                                           Special Agent Brian Gosselin met with Peter
    Senior Special Agent Daniel Ellis was invited by       Hall, U.S. Attorney, District of Vermont. ASAC
    the Pennsylvania Association of Housing and            Nelting explained the OIG’s mission and the focus
    Redevelopment Associations to speak at their           of our current workload, and advised about the
    Spring Conference and Exhibition in Seven              positive impact of a recent federal indictment,
    Springs, PA. The attendees included representa-        which was reported in the local press, of a
    tives from public housing agencies (PHAs)              subsidized tenant for not reporting true occupancy
    throughout the Commonwealth of Pennsylvania.           and income. ASAC Nelting and Agent Gosselin
    Agent Ellis discussed the OIG’s role in identifying    also discussed cases currently assigned to the
    and prosecuting Public Housing and Housing             U.S. Attorney’s Office.
    Choice Voucher Program tenants who fraudu-
    lently receive housing assistance subsidies. He        As Chapter president, RIGA Heath Wolfe presided
    also provided instructions on how to identify and      over a meeting of the Association of Government
    document fraud, how to contact the OIG and             Accountants in Chicago, IL. As part of the
    report suspected fraud, and how the OIG will           meeting, SAC Barry McLaughlin, ASAC Ray
                                                           Espinosa, and ASAC Brad Geary gave the 30

Chapter 7 - Outreach Efforts                                                                                 92
    attendees an informative presentation on mort-       whom were HUD program directors. The group
    gage fraud and identity theft.                       was gathered to discuss their Business Operating
                                                         Plan for 2004. ARIGA Farrell’s presentation
    In Bangor, ME, SAC Peter Emerzian, ASAC              provided an overview of the role of the OIG and
    Maureen Nelting, and Special Agent Stephen           how that role impacts HUD programs.
    Tufts met with Paula Silsby, U.S. Attorney,
    District of Maine. In addition to describing the     RIGA Heath Wolfe and SAC Barry McLaughlin
    organization and role of the OIG New England         joined HUD’s Chicago, IL Regional Director
    Regional Office, SAC Emerzian discussed the          Joseph Galvan, Deputy Regional Director Beverly
    OIG’s mission and the focus of our current           Bishop, and eight of their Field Office Directors
    workload, as well as cases currently assigned to     at HUD’s Region V Field Office Directors
    the U.S. Attorney’s Office in Maine.                 Meeting. RIGA Wolfe and SAC McLaughlin made
                                                         a presentation on OIG operations. In addition,
    In East St. Louis, IL, Chicago ARIGA Ron Huritz      RIGA Wolfe discussed the current focus of the
    addressed 95 members of the Illinois Association     OIG’s Chicago Office of Audit on mortgagees,
    of Housing Authorities at their annual meeting.      nursing homes, and equity skimming, and the
    ARIGA Huritz’s presentation introduced the group     upcoming audit resolution training.
    to the OIG’s mission and objectives as they relate
    to public housing authority audits. He also          RIGA Heath Wolfe and Administrative Officer
    stressed the importance of housing quality stan-     Jennifer Houghton provided training relating to
    dards unit inspections, and responded to questions   the HUD handbook on the Audits Management
    about what triggers OIG audits and how long the      System. In particular, they discussed the imple-
    audit process generally takes.                       mentation of audit recommendations. Their
                                                         presentation provided HUD program staff in
    As part of a HUD Headquarters sponsored train-       Detroit, MI, Minneapolis, MN, Indianapolis,
    ing program, OIG Special Agent Steve McCool          IN, and Milwaukee, WI, with specific informa-
    made a presentation on interviewing techniques to    tion regarding their role, as well as the OIG’s
    25 field staff from HUD’s Quality Assurance          role, in reaching resolution on audit recommen-
    Division in Alexandria, VA. The presentation         dations. HUD staff response has been positive and
    included legal aspects of interviewing, sugges-      attendance has averaged about 20 individuals per
    tions for recognizing and overcoming possible        session.
    deception by persons being interviewed, obtaining
    written statements, and testifying in court. Over    In Grand Rapids, MI, Chicago RIGA Heath
    the past year, OIG has provided several such         Wolfe spoke to over 100 individuals from real
    presentations as a part of Quality Assurance         estate related areas on the mission and functions
    Division training classes.                           of the OIG. This presentation was made in con-
                                                         junction with HUD sponsored training on “Buying
    RIGA Heath Wolfe, SAC Barry McLaughlin,              and Selling HUD Homes.”
    ARIGA Tom Towers, and Special Agents Mike
    Wixted and Mike Catinella met with the new HUD       RIGA Mike Beard chaired the Investigative Audit
    Detroit, MI Field Office Director, Toni              Committee meeting at the Southwest Intergovern-
    Schmiegelow, and made a presentation on the          mental Audit Forum in South Padre Island, TX.
    mission, goals, and purpose of the OIG. The          RIGA Beard gave a presentation on using the mail
    meeting and presentation gave OIG staff an           fraud statute to make good criminal cases from
    opportunity to establish a bridge of communica-      good civil cases.
    tion and partnership between the OIG and HUD.

    ARIGA Ron Farrell conducted an outreach session
    with HUD staff in Loudonville, OH, several of

Chapter 7 - Outreach Efforts                                                                             93
                               This page intentionally left blank.




Chapter 7 - Outreach Efforts                                         94
                   Chapter 8 — Regulations and Other Directives
    Making recommendations on legislation, regula-         Notices
tions, and policy issues is a critical part of the OIG’s
responsibilities under the Inspector General Act. This     FY 2003 HOPE VI Notice of Funding
responsibility has taken on added dimension at HUD
because of the dynamics of its rapidly changing            Availability (NOFA)
program and management environment. During this                 HUD issued a NOFA to competitively distribute
six-month reporting period, the OIG reviewed 123           HOPE VI funds. The draft notice stated that any public
regulations, funding notices, and other HUD directives     housing agency awarded a HOPE VI grant must use a
and proposals. This Chapter highlights some of the         portion of the funds to establish a neighborhood
resultant OIG recommendations.                             network. We questioned the authority to combine the
                                                           HOPE VI funding with neighborhood network funding.
Regulations                                                HUD’s Appropriation Act allocated a separate $5
                                                           million for neighborhood networks. The Appropriation
Empowerment Zones: Resident Benefit                        Act mandated that HUD issue a separate NOFA to
and Economic Development Standards                         distribute the $5 million of neighborhood network
for Grants                                                 funding. This funding assists families in obtaining job
                                                           skills by supporting local service providers and
    This rule proposes to establish review standards       assisting resident in becoming self-sufficient.
for determining whether grant funds provided to
                                                               HUD’s Office of Public Housing agreed with our
Empowerment Zones will provide a sufficient level of
                                                           assessment and plans to issue a separate NOFA for
benefit to residents and also be used in conjunction
                                                           neighborhood networks. The Department plans to
with economic development activities consistent with
                                                           award about $180,000 to each successful grantee.
the strategic plan for each Empowerment Zone.
                                                           HUD will fund 10 to 15 more neighborhood networks
    We noted the need for a definition of an “empow-       than originally planned.
erment zone resident” in the proposed rule change. In
                                                                The NOFA had not been issued as of the close of
some of our recent audits, i.e., audits of the Hunting-
                                                           the semiannual reporting period.
ton, WV and Ironton, OH Empowerment Zones, we
questioned the interpretation of who was counted as
an “empowerment zone resident.” The earlier rule           HUD Notice: Authorization for
defined an empowerment zone resident as anyone             Approval of Compromises and Write-
within the zone either prior to or after receiving
assistance with zone funds. Our audit questioned the
                                                           Offs of Secretary Held Mortgages
appropriateness of creating housing within the zone            HUD prepared a Notice authorizing the National
and then bringing in residents from outside the zone.      Servicing Center (NSC) to approve compromising
We requested adding a more specific definition of          offers and write-offs of Secretary held mortgages.
“empowerment zone resident” to ensure that empow-          The Notice also outlined certain conditions required
erment zone funds serve their intended beneficiaries.      before NSC can write off a mortgage. For example,
    This proposed rule had not been finalized as of        NSC can write off costs, not to exceed $5,000, without
the close of the semiannual reporting period.              government technical representative approval, if HUD
                                                           or the contractor caused an error. Authorization had
                                                           been granted to field offices through previous Notices,
                                                           but this Notice was prepared to grant the authority to
                                                           NSC and therefore superseded the previous Notices.
                                                           This Notice specifically identified the Notices it was
                                                           to supersede, but Notice numbers were incorrect.

Chapter 8 — Regulations and Other Directives                                                                      95
    HUD’s Office of Housing had not responded to                We also nonconcurred with the form in regard to
OIG regarding this Notice and therefore the Notice         where the Mortgagee’s Certificate (Form HUD-
had not been finalized as of the close of the semian-      92434) discusses Reserve for Replacement deposits.
nual reporting period.                                     Section 232 mortgages are underwritten with a two-
                                                           part Reserve for Replacement deposit due each
HUD Standard Forms                                         month. A stated portion of this deposit is to be used
                                                           for major moveable equipment and the balance is for
Revised FHA Multifamily and Health                         building repairs. Owners are using the entire Reserve
                                                           for Replacement balance on major moveable equip-
Care Closing Documents                                     ment without regard to reserving funds for future
     As reported in our last Semiannual Report to          major repairs. The Offices of Housing and General
Congress, the closing documents for multifamily            Counsel will specifically spell out these requirements
rental projects and health care facilities have not been   in the Regulatory Agreement and Mortgagee’s
updated since the 1960s. Therefore, the Department         Certificate so that a bifurcated account exists limiting
prepared a thorough review and comparison to               the use of each of these balances.
modern day instruments to offer the requisite protec-          We also requested that the mortgagor be respon-
tion to all parties to the transaction, consistent with    sible for submitting to HUD any transaction funds
modern real estate and mortgage lending laws and           received after a foreclosure is finalized. This would
procedures. The Department now has one rental              reach beyond the Regulatory Agreement period to cut
Regulatory Agreement for rental housing projects           HUD’s losses and would cover excess bond funds.
(Sections 202 and 811 will have a separate agreement
revised at a later date) and another Regulatory                HUD made acceptable changes and we lifted our
Agreement for health care facilities. Major changes        nonconcurrence. The closing documents had not been
have been made to the Regulatory Agreements,               finalized as of the close of this semiannual reporting
including adding current policies and administrative       period.
procedures and incorporating the Mortgagor’s
Certificate. Most notably, the Regulatory Agreement
for health care facilities makes lessees responsible       Testimony
for the same level of financial reporting, securing of
all personal property, and agreeing that the certificate   Federal Debt Collection: Mid-Year
of need and license cannot be transferred from the
project. This change is made in part based on man-
                                                           Update on Debt Collection Progress
agement decisions made in response to a prior OIG              In order to comply with the Debt Collection
audit.                                                     Improvement Act of 1996, the Department of Trea-
     We nonconcurred with the health care facilities       sury has implemented a remarkably successful
Regulatory Agreement because it falls short where          government-wide debt collection program. The
program areas cross over between rental and health         Financial Management Service serves as the
care. For example, board and care facilities have          government’s central administrative debt collection
rental issues as well as health care issues and some       agency. We are aware that HUD is one agency cur-
are not required by their state or local government to     rently using the debt collection tool and has been
be licensed. The health care facilities’ Regulatory        successful in directing its efforts in the Administrative
Agreement does not cover rental issues and vice            Wage Garnishment debt area. The Department of
versa. HUD’s Offices of Housing and General Coun-          Treasury requested comments on its testimony before
sel stated that they would correct this by having each     the House Government Reform Committee.
Region amend its nursing home Regulatory Agree-                To improve the process, we commented that the
ment based on the requirement for each state at the        new debt collection tool should be tied into and
time of endorsement. We accepted this based on             interfaced with the Department’s new Audit Resolu-
guidance for preparing the amendment to ensure             tion and Corrective Action Tracking System
consistency and completeness.
Chapter 8 — Regulations and Other Directives                                                                      96
(ARCATS). ARCATS, along with the soon to be replaced
Departmental Automated Audits Management
System, are the systems for tracking management
decisions and should be linked to the new debt collec-
tion system. This link would allow an electronic
interface for entering these debt collection transac-
tions from the recommendation and management
decision system into the debt collection system.
    OIG comments were submitted to the Department
of Treasury during this reporting period.




Chapter 8 — Regulations and Other Directives             97
                                               This page intentionally left blank.




Chapter 8 — Regulations and Other Directives                                         98
                                Chapter 9 — Audit Resolution

    In the audit resolution process, the OIG and HUD       Audits of FHA’s FY 1991 through 2002
management come to an agreement as to the needed
actions and timeframes for resolving audit recom-          Financial Statements
mendations. Through this process, we hope to achieve            First issued March 27, 1992. FHA has been
measurable improvements in HUD programs and                preparing financial statements for 12 fiscal years
operations. The overall responsibility for assuring that   under the Chief Financial Officers Act, beginning
the agreed upon changes are implemented rests with         with FY 1991. The audit of FHA’s FY 2002 financial
HUD managers. This Chapter describes some of the           statements discussed problems similar to those that
more significant pending issues where resolution           have been reported since the audit of FHA’s FY 1991
action has been delayed and where management               financial statements. The audit continues to recognize
decisions were revised. It also contains a status          that FHA needs to: (1) improve its information tech-
report on HUD’s implementation of the Federal              nology (primarily accounting and financial manage-
Financial Management Improvement Act of 1996. In           ment systems) to more effectively support FHA’s
addition to this Chapter on audit resolution, see          business processes; (2) sufficiently monitor its single
Appendix 2, Table A, “Audit Reports Issued Prior to        family property inventory; and (3) continue to improve
Start of Period With No Management Decision at             early warning and loss prevention for single family
9/30/03,” and Table B, “Significant Audit Reports          insured mortgages. This third reported condition was
Described in Previous Semiannual Reports Where             expanded in FY 2002 to include the need to place
Final Action Had Not Been Completed as of                  more emphasis on monitoring lender underwriting. A
9/30/03.”                                                  weakness reported since the FY 1992 financial
                                                           statement audit relates to the need for FHA to enhance
Delayed Actions                                            the design and operation of information systems’
                                                           general and application level security controls. A
Audits of HUD’s FY 1991 through                            weakness first reported in the FY 1998 financial
                                                           statement audit relates to the need to improve controls
2002 Financial Statements                                  over budget execution and funds control. A number of
     First issued June 30, 1992. HUD has been prepar-      previously reported problems have been satisfactorily
ing consolidated financial statements under the            resolved over the years. FHA’s latest action plan
requirements of the Chief Financial Officers Act for       continues to report progress toward resolving these
12 fiscal years, beginning with Fiscal Year (FY) 1991.     remaining long-standing issues, with final actions
Various internal control weaknesses have been              targeted over the next one to three years. The FY 2003
reported in these audits. In our most recent audit         financial statement audit will assess FHA’s accom-
effort for FY 2002, we were able to express an             plishments in correcting these conditions.
unqualified opinion on HUD’s principal financial
statements. The results of our FY 2002 report on           Empowerment Zone Program, Cities
internal controls were consistent with results reported
in Semiannual Reports from prior years. While there
                                                           of Chicago and Atlanta
has been progress, material weaknesses continue                Issued September 28, 1998 and October 15, 1998.
with respect to the need to: (1) complete improve-         Audits of the Cities of Chicago, IL, and Atlanta, GA,
ments to financial systems; (2) improve oversight and      found that the Cities used empowerment zone funds
monitoring of subsidy calculations and intermediar-        inappropriately. The questioned amounts totaled about
ies’ program performance; and (3) improve FHA’s            $2 million for the two Cities. The unique nature of the
controls over budget execution and funds control.          Empowerment Zone Program, authorized by the
Corrective action plans to resolve these issues have       Omnibus Budget Reconciliation Act of 1993, provided
continued to change over the last decade.

Chapter 9 - Audit Resolution                                                                                    99
HUD the authority to oversee the program, but pro-       for activities administered by subgrantees. The
vided funding through tax credits and Social Services    subgrantees operated a community-based program
Block Grant funds from the Department of Health          which provided business training and incubator space
and Human Services (HHS). HHS has responsibility         for the benefit of low- and moderate-income resi-
for resolving questions concerning the permissible       dents. The training component included businesses
use of zone funds. In 1999, HUD management agreed        outside of the grantee’s City limits. However, the City
with our findings and promised to have the Cities        could not provide documentation to support the
repay, by June 2000, program funds spent inappropri-     number of jobs for low- and moderate-income per-
ately. HUD, however, did not take corrective actions     sons created or retained, or document future benefits
timely. In February 2000, HUD’s Community Planning       accruing to its residents. We recommended that HUD
and Development (CPD) Comptroller started taking         require the grantee to submit documentation of job
corrective actions and planned to have the outstanding   creation and retention activities or return any unsup-
recommendations closed by July 2001. In July 2001,       ported amounts to its letter of credit, from non-
the CPD Comptroller requested that HHS decide            federal funds.
whether the Cities’ use of zone funds to provide
                                                              In December 1999, the Los Angeles Office of
services to non-zone residents was an eligible use of
                                                         CPD agreed with our recommendations and agreed to
funds. If HHS decides that the Cities used zone funds
                                                         complete actions by October 31, 2000. In November
improperly, HUD plans to execute a repayment
                                                         2000, the Los Angeles Office of CPD requested
agreement with the Cities requiring repayment within
                                                         revised management decisions, because the City’s
two to three years.
                                                         program benefited low- and moderate-income
     On September 9, 2002, the Deputy Assistant          persons. Therefore, it would not be necessary for the
Secretary for Operations, CPD, sent a letter to the      City to repay the program. We disagreed with the Los
HHS Director of Community Services outlining the         Angeles Office of CPD and referred the matter to the
outstanding issues relating to the OIG Empowerment       then Acting General Deputy Assistant Secretary for
Zone audit reports. CPD requested HHS’ decision on       CPD for decision in February2001. In July 2001, the
the eligibility of the questioned costs for which the    CPD Comptroller agreed with OIG’s position and the
OIG recommended repayment. The letter also in-           Los Angeles Office of CPD advised the City to
cluded HUD’s suggestions for resolving the outstand-     reimburse about $732,000 to its line of credit. A
ing issues. HHS did not respond to HUD’s letter.         demand for repayment was sent to the City in Febru-
Therefore, on March 20, 2003, HUD’s Assistant            ary 2002. During the last year, CPD and the Office of
Secretary for CPD sent a letter to HHS’ Assistant        General Counsel requested additional information
Secretary for Children and Families requesting an        from the City. The City did not provide any new
immediate response to HUD’s September 2002 letter.       information. In February 2003, the Acting General
HHS’ June 30, 2003 response provided only informa-       Deputy Assistant Secretary for CPD referred this
tion needed to resolve outstanding issues relating to    matter to HUD’s Departmental Enforcement Center
the City of Philadelphia’s Empowerment Zone              (DEC) for appropriate enforcement action. The DEC
Program. Consequently, the issues regarding the          staff in Los Angeles completed their review in June
Cities of Atlanta and Chicago remain unresolved.         2003 and submitted their recommendations to the
While HUD has no control over HHS’ actions, we will      Headquarters DEC for a final determination. Addi-
prepare a letter to the Deputy Secretary in October      tional supporting documentation was requested and
2003 suggesting that he pursue the matter with HHS.      provided to the Headquarters DEC in September 2003.
(Report Nos. 1998-CH-1005 and 1999-CH-1002)              The DEC has been evaluating the merits of the case
                                                         for over seven months; accordingly, we plan to
City of Lynwood, CA, Community                           prepare a memorandum in October 2003 to the DEC
                                                         urging resolution of this long-standing matter. (Report
Development Block Grant Program                          No. 1999-SF-1003)
    Issued August 19, 1999. The City of Lynwood
could not demonstrate its compliance with Commu-
nity Development Block Grant (CDBG) requirements
Chapter 9 - Audit Resolution                                                                                  100
Housing Authority of the City of                           stone or target dates for the Authority to obtain a
                                                           repayment plan or specify a plan of action should the
Miami Beach, Section 8 and Public                          City refuse to repay the funds. Meanwhile, the
Housing Programs                                           Authority and City continue to meet and debate the
                                                           issues, while HUD has not pursued administrative
     Issued October 20, 2000. The Authority misman-        actions to ensure collection of the funds. (Report No.
aged its Section 8 and Public Housing Programs and         2001-AT-1001)
incurred over $1 million in questioned and ineligible
costs. Specifically, the Authority spent over $795,000
of its Section 8 reserves for questionable public          Significant Revised
service activities, including police protection, recre-    Management Decisions
ation, and code enforcement that the City should have
provided from its local tax revenues. Also, the                Section 5(a) (11) of the Inspector General Act, as
Authority spent over $2 million in a failed effort to      amended, requires that the OIG report information
construct a women’s and children’s housing resource        concerning the reasons for any significant revised
center, including nearly $210,000 in excessive fees        management decision made during the reporting
and permits paid to the City. The delayed project put      period. During the current reporting period, there
the Authority at risk of losing most of the $5.8 million   were significant revised management decisions on
in bond funds originally committed to the project, and     two audits.
deprived the low-income community of needed
housing and social services. In addition, the Authority    Colonial Oaks Apartments, Houston,
had not complied with HUD requirements concerning          TX
Section 8 rent reasonableness, lease execution, and
utility allowance payments, and had not implemented            Issued July 3, 2003. The owners of Colonial Oaks
corrective actions to comply with procurement              Apartments were not adequately managing the
requirements. We recommended that HUD require the          project. Although the owners kept the mortgage
Authority to: (1) obtain additional supporting docu-       current, they did not establish or maintain controls,
mentation or recover the $1 million paid to the City;      procedures or financial records that met HUD’s
(2) submit evidence that it has the financial capability   requirements. As a result, the owners were in
and commitment to complete construction of the             technical default of their mortgage. Since these
center within a reasonable time; and (3) establish the     problems were of an ongoing nature dating from the
necessary controls to improve its operations.              owners’ assumption of the project, we recommended
                                                           that HUD terminate the owners’ self-management and
    On February 13, 2001, the OIG agreed with              require them to obtain the services of an independent
management decisions proposed by the Florida State         property management agent. HUD agreed with our
Office for the 14 report recommendations. HUD              recommendation and directed the owners to hire an
obtained final action on seven recommendations. HUD        independent management agent by August 1, 2003.
did not meet the February 13, 2002 target completion       The owners hired a new on-site manager on August 1,
dates for the remaining seven recommendations that         2003, but did not hire the required independent
are now over 18 months past due. HUD disallowed            management agent.
over $1 million in ineligible expenditures and contin-
ues to support the management decisions. For ex-               HUD’s Office of Asset Management, with the
ample, HUD has sent several letters to the Authority to    support of the Houston Multifamily Program Center
obtain final resolution and the Authority and the City     and the Fort Worth Multifamily HUB, recommended,
have had several meetings in an attempt to resolve the     in August 2003, that HUD direct the mortgagee to
issues. However, the Authority has not obtained a          accelerate the mortgage in order to proceed to
repayment plan because the City refuses to pay or          foreclosure due to Regulatory Agreement violations.
provide additional services in lieu of repayment. HUD      Foreclosure and sale of the property is the only
instructed the Authority to continue to work with the      available tool that the Department has to secure the
City to recover the funds, but did not impose mile-        asset and protect the Secretary’s interest. Therefore,

Chapter 9 - Audit Resolution                                                                                   101
the need for hiring an independent management agent         Foster and Associates as management agent, HUD
is no longer necessary. HUD believes that it will           agreed with the board’s request to retain the company
potentially recover 50 percent of the mortgage amount       with changes to its personnel and clear definitions of
at the foreclosure sale. As a result, approximately         its duties and responsibilities and fee structure. HUD
$500,000 will be put to better use. On September 10,        proposed that we close the recommendation based on
2003, we agreed with HUD’s revised management               HUD’s approval of these changes. On September 29,
decision on this audit memorandum. The revised date         2003, we concurred with the revised management
for completion of corrective actions is October 1,          decision and closing action. (Report No. 2001-DE-
2004. (Report No. 2003-FW-1806)                             1003)

Foster and Associates, Kalispell, MT                        Federal Financial Management
     Issued September 28, 2001. Although Foster and         Improvement Act of 1996
Associates, management agent for Clark Fork Manor
and Whitefish Manor, executed the needed certifica-         (FFMIA)
tions and collected management agent fees, it had not            FFMIA requires that HUD implement a
fulfilled the terms of the management certificates or       remediation plan that will bring financial systems into
administered the projects in full compliance with           compliance with federal financial system require-
HUD requirements. The management agent had not              ments within three years or obtain Office of Manage-
ensured that the projects established and used re-          ment and Budget (OMB) concurrence if more time is
quired accounting records and obtained required             needed. FFMIA requires us to report, in our Semian-
annual financial audits. Additionally, management           nual Reports to the Congress, instances and reasons
agent officials were serving as full time project           when an agency has not met the intermediate target
employees and receiving salaries from the manage-           dates established in their mediation plan required by
ment agent. Receiving both management agent fees            FFMIA. In April 1998, HUD determined that 38 of its
and full time administrative salaries is a violation of     systems were not in substantial compliance with
HUD requirements. Further, the boards of directors          FFMIA. At the end of FY 2002, the Department
for the two projects did not take adequate actions to       continued to report that 17 systems were not in
meet their overall responsibilities for ensuring that the   substantial compliance with FFMIA. Our audit of
projects were operated in conformity with HUD               HUD’s FY 2002 financial statements cites additional
requirements. This included ensuring that the man-          financial management system weaknesses, which we
agement agent was providing the required services           reported as reasons for the Department’s FFMIA
for the projects. We recommended that the board of          noncompliance. These include noncompliance with:
directors for each project take the necessary steps to      (1) federal financial management systems require-
implement proper administrative oversight for the           ments; (2) federal accounting standards; and (3) the
projects.                                                   standard general ledger at the transaction level. HUD
     We concurred with the Denver Office of Multi-          has made progress by implementing a new FHA
family Housing’s initial management decision, which         automated general ledger in October 2002. HUD’s
was effective on January 16, 2002, with a planned           next report on the status of its financial systems will
final action target date of September 30, 2003. This        be included in its FY 2003 Performance and Account-
decision stated that current management operations          ability Report, currently scheduled to be completed in
for the projects administered by Foster and Associ-         December 2003.
ates were not satisfactory, and HUD would require the
projects’ board of directors to replace the manage-
ment agent.
    On September 25, 2003, the Denver Office of
Multifamily Housing requested that we agree to a
revised management decision. Instead of replacing

Chapter 9 - Audit Resolution                                                                                    102
Appendices
                                      APPENDIX 1 - AUDIT REPORTS ISSUED
                                                                             FOR THE PERIOD
                                                      APRIL 1, 2003          THROUGH SEPTEMBER           30, 2003

                                                                                      Internal Reports
 Single Family                                                                              Audit Reports
2003-AO-0003               Title I Loan Remittances Processed by the U. S. Department of Housing and Urban Development’s (HUD’s) Cash
2003-SE-0001                    Management Branch, 08/12/2003.
                           Federal Housing Administration (FHA) Case File Review - Underwriting Practices and Loan Characteristics Contributing
                               to FHA Loan Performance, 05/15/2003.
         PIH
2003-DP-0001                Audit Report on the Public and Indian Housing Information Center (PIC) System, 09/10/2003.

        CPD
2003-CH-0001               HUD’s Oversight of the Empowerment Zone Program, 05/07/2003.

 Miscellaneous
2003-AO-0002               HUD Training Academy, 07/15/2003.
2003-AO-0004               Review of the Department of HUD Staffing 9/30 Initiative, 08/14/2003.
2003-KC-0001               Survey of HUD’s Administration of Section 3 of the HUD Act of 1968, 06/24/2003.
2003-KC-0002               Administrative Operations of the Office of Federal Housing Enterprise Oversight, 07/29/2003.

 Single Family                                                                         Audit Memoranda*
2003-KC-0802               Inappropriate Home Ownership Center Instructions, 07/31/2003.
2003-NY-0801               Corrective Action Verification, Asset Control Area Program, Audit Report Number 2002-NY-0001, 09/30/2003.

   Multifamily
2003-FW-0803               Equity Skimming from HUD Supported Projects: Haverstock I, II, & III, & Colonial Oaks, Houston, TX, 04/22/2003.

These reports are available on the HUD OIG website at www.hud.gov/offices/oig/reports/auditreports.cfm                                            1
                                                                                                                                      APPENDIX 1

                                                                         Internal Reports - continued
        PIH                                                                            Audit Memoranda*
2003-SE-0802               Review of Complaints Regarding the Alaska Office of Native American Program’s (ONAP’s) Funding of Indian Housing
                               Block Grants and Awarding Indian Community Development Block Grant Funds, 7/08/2003.

 Miscellaneous
2003-DP-0803               Annual Evaluation of HUD’s Information Security Program, 09/22/2003.


                                                                                    External Reports
 Single Family                                                                              Audit Reports
2003-DE-1005               MortgageStream Financial Services, LLC, Non-Supervised Direct Endorsement Lender, Greenwood Village, CO,
                              09/15/2003. Questioned: $141,934; Unsupported: $73,843; Better Use: $940,764.
2003-KC-1006               Horizon Consulting, Inc., Lansdowne, VA, 06/24/2003. Better Use: $12,360,078.
2003-KC-1007               Management Solutions of America, Inc., Atlanta, GA, 07/31/2003. Better Use: $7,004,323.
2003-NY-1004               Colban Funding, Inc., Non-Supervised Mortgagee, Liverpool, NY, 07/24/2003. Questioned: $214,889;
                              Better Use: $658,880.

   Multifamily
2003-FW-1004               Citizen Complaint, Spanish Village Community Development Corporation, Upfront Grant and HOME Investment Partner-
                               ship Program Loan, Houston, TX, 04/28/2003. Questioned: $90,509; Unsupported: $4,210; Better Use: $1,975,710.
2003-LA-1001               Jack Hall Waipahu, Westlake, and Kulana Nani Projects, Managed by Chaney, Brooks and Company, Honolulu, HI,
                               07/28/2003. Questioned: $194,815.
2003-SE-1004               CWCapital, LLC, Multifamily Accelerated Processing Lender, Needham, MA, 09/25/2003.

        PIH
2003-AT-1007               Citizen’s Complaint, Mount Airy, NC Housing Authority, 07/31/2003.
2003-BO-1004               Review of the Portability Features of the Section 8 Housing Choice Voucher Program, Brockton, MA Housing Authority,
                               07/17/2003. Questioned: $416,740.
2003-CH-1018               Chicago, IL Housing Authority, Outsourced Property Management Contracts Review, 07/18/2003. Questioned:
                               $11,223,024; Unsupported: $11,223,024.
These reports are available on the HUD OIG website at www.hud.gov/offices/oig/reports/auditreports.cfm                                           2
                                                                                                                                    APPENDIX 1

                                                                        External Reports - continued
        PIH                                                                       Audit Reports - continued
2003-CH-1019               Fayette County Housing Authority, Section 8 Housing Program, Connersville, IN, 07/25/2003. Questioned: $721,549;
                               Unsupported: $44,804.
2003-CH-1021               Hamtramck, MI Housing Commission, Public Housing Program, 09/30/2003. Better Use: $60,908.
2003-FW-1005               Housing Authority of the Seminole Nation of Oklahoma, Procurement of Housing Rehabilitation Services, Land, and
                               Mobile Homes, Wewoka, OK, 09/10/2003. Questioned: $780,447; Better Use: $90,840.
2003-LA-1002               The Housing Authority of the County of San Mateo, Belmont, CA, 09/12/2003. Questioned: $323,530; Unsupported:
                               $90,000.
2003-PH-1003               Housing Authority of Baltimore City, MD, HOPE VI Program, 09/04/2003. Questioned: $2,083,574; Unsupported:
                               $15,937; Better Use: $1,712,953.
2003-PH-1004               Housing Authority of Baltimore City, MD, Review of the HOPE VI Relocation Process, 09/04/2003. Questioned: $97,697.
2003-PH-1005               Portsmouth, VA Redevelopment and Housing Authority, 09/23/2003. Questioned: $8,092,936; Unsupported: $8,092,936.
2003-PH-1006               Scranton, PA Housing Authority, Low-Income and Section 8 Programs, 09/25/2003. Questioned: $297,491.
2003-SE-1003               Seattle, WA Housing Authority’s Administration of the Welfare-to-Work Section 8 Tenant-Based Assistance Program,
                               05/29/2003. Questioned: $130,391.

       CPD
2003-AT-1004               Historic Westside Village, Section 108 Loan and Economic Development Initiative Grant, Atlanta, GA, 06/06/2003.
                               Questioned: $1,513,395; Unsupported: $148,147.
2003-AT-1005               City of Montgomery, AL, Community Development Block Grant (CDBG) Program - Madison Park, 06/11/2003.
2003-AT-1006               Puerto Rico Department of Housing, State HOME Investment Partnership Program, San Juan, PR, 07/30/2003.
                               Questioned: $2,314,499; Unsupported: $627,015; Better Use: $1,029,814.
2003-BO-1003               City of Bridgeport, CT, HOME Investment Partnership Program, 05/16/2003. Questioned: $989,929;
                               Unsupported: $989,929.
2003-CH-1015               Oakwood Neighborhood Association, CDBG Program, Kalamazoo, MI, 04/24/2003.
2003-CH-1016               City of Cleveland, OH, Empowerment Zone Program, 04/25/2003. Questioned: $12,798,332; Unsupported: $5,907,087.
2003-CH-1017               Housing Continuum, Inc., Homebuyers Assistance Program, Geneva, IL, 06/13/2003. Questioned: $67,541.
2003-CH-1020               Indiana State Department of Health, Housing Opportunities for Persons with AIDS (HOPWA) Program, 07/29/2003.
                               Questioned: $171,716; Unsupported: $84,699.




These reports are available on the HUD OIG website at www.hud.gov/offices/oig/reports/auditreports.cfm                                       3
                                                                                                                                      APPENDIX 1

                                                                        External Reports - continued
        CPD                                                                       Audit Reports - continued

2003-DE-1006               Colorado Coalition for the Homeless, Supportive Housing Program Grants, Denver CO, 08/26/2003.
                              Questioned: $440,317; Unsupported: $430,786.
2003-NY-1005               Empire State Development Corporation, CDBG Disaster Assistance Funds, New York, NY, 09/30/2003.
                              Questioned: $270,948.
2003-NY-1006               Lower Manhattan Development Corporation, CDBG Disaster Assistance Funds, New York, NY, 09/30/2003.
                              Questioned: $82,342; Unsupported: $72,483; Better Use: $93,214.

  Multifamily                                                                          Audit Memoranda*
2003-CH-1802               Federal Property Management Corporation, Civil False Claims and Multifamily Equity Skimming, Indianapolis, IN,
                              09/29/2003. Questioned: $400,000.
2003-FW-1806               Colonial Oaks Apartments, Houston, TX, 07/03/2003. Questioned: $14,627; Unsupported: $9,262; Better Use: $504,525.
                           Meadowbrook Manor of Topeka, KS, Section 232 Nursing Home Review, 06/04/2003.
2003-KC-1804               Shawnee Hills, Inc., Charleston, WV, 09/04/2003.
2003-PH-1802

        PIH
2003-BO-1801               Review of the Portability Feature of the Section 8 Housing Choice Voucher Program, Revere, MA Housing Authority,
                                05/02/2003.
2003-CH-1801               Citizens’ Complaint, Oneida, NY Indian Nation, 04/03/2003.
2003-CH-1803               J.T. Eaton & Company, Inc., Civil False Claims, Twinsburg, OH, 09/30/2003. Questioned: $79,298.
2003-FW-1804               Congressional Request, Housing Authority of the City of San Angelo, TX, 05/23/2003. Questioned: $82,554.
2003-LA-1801               The Housing Authority of the City of Las Vegas, NV, Procurement and Contract Activities, 06/09/2003.
                               Questioned: $158,705; Unsupported: $101,705.
2003-NY-1801               Union County, NJ, Division Of Community Development, Section 8 Housing Assistance and CDBG Programs,
                               05/12/2003. Questioned: $282,635; Unsupported: $73,165.
2003-PH-1803               Philadelphia, PA Housing Authority, Utilization of Tenant-Based Section 8 Funds, 09/24/2003.




These reports are available on the HUD OIG website at www.hud.gov/offices/oig/reports/auditreports.cfm                                          4
                                                                                                                                                                              APPENDIX 1

                                                                           External Reports - continued
        CPD                                                                      Audit Memoranda* - continued
2003-DE-1802                Boulder, CO Community Planning and Development Programs, 07/22/2003.
2003-FW-1805                Citizen Complaint, Albuquerque, NM Housing Rehabilitation Program, Department of Family and Community Services,
                                07/02/2003.
2003-LA-1802                1736 Family Crisis Center (FCC), 09/12/2003.
2003-NY-1802                Safe Space, Inc., Housing Opportunities for Persons with AIDS (HOPWA) and Supportive Housing Programs,
                                New York, NY, 07/24/2003. Questioned: $2,213,000; Unsupported: $2,213,000.




*   The memoranda format is used to communicate the results of reviews not performed in accordance with generally accepted government auditing standards, to close-out assign-
    ments with no findings and recommendations, to respond to requests for information, to report on the results of a survey, to report interim results, or to report the results of civil
    actions or settlements.




These reports are available on the HUD OIG website at www.hud.gov/offices/oig/reports/auditreports.cfm                                                                                       5
                                                                                     APPENDIX 2
                                          TABLE A
                        AUDIT REPORTS ISSUED PRIOR TO START OF PERIOD   WITH
                              NO MANAGEMENT DECISION AT 09/30/03


                                                                                 ISSUE DATE/
                                                                                 TARGET FOR
REPORT NUMBER & TITLE                   REASON FOR LACK OF MANAGEMENT DECISION
                                                                                 MANAGEMENT
                                                                                   DECISION




                                         Nothing to report.
                                                                                                                                    APPENDIX 2
                                                                TABLE B
                           SIGNIFICANT AUDIT REPORTS DESCRIBED IN PREVIOUS SEMIANNUAL REPORTS
                               WHERE FINAL ACTION HAD NOT BEEN COMPLETED AS OF 09/30/03
  Report                                                                                                    Issue       Decision      Final
  Number                                                   Report Title                                     Date         Date         Action

1995-CH-1009 Alliance Mortgage Corporation, Single Family Mortgage Insurance Program, Villa Park IL       08/08/1995   11/30/1995      Note 1

1997-CH-1010 Major Mortgage Corporation, Section 203(K) Rehabilitation Home Mortgage Insurance Program,   09/17/1997   01/06/1998    06/01/2005
             Livonia, MI

1998-CH-1005 City of Atlanta, GA, Empowerment Zone Program                                                09/28/1998   09/20/1999      Note 1

1999-NY-1004 Homestead Financial Services, Inc. Non-Supervised Mortgagee, Syracuse, NY                    02/17/1999   06/25/1999      Note 1

1999-FO-0003 U.S. Department of HUD Fiscal Year 1998 Financial Statements                                 03/29/1999   09/30/1999      Note 2

1999-SF-1003 City of Lynwood, CA CDBG & Home Programs                                                     08/19/1999   12/16/1999      Note 1

1999-CH-1803 Fairfield County, Community Housing Improvement Program, Lancaster, OH                       09/15/1999   01/13/2000      Note 1

1999-NY-1007 Alliance Mortgage Banking Corp., Non-Supervised Mortgagee, Rochester, NY                     09/27/1999   02/16/2000      Note 1

1999-DE-0001 Nationwide Review of HUD’s Loss Mitigation Program                                           09/30/1999   03/31/2000      Note 2

2000-DP-0002 Initial Development Efforts of the Departmental Grants Management System                     11/04/1999   09/19/2001    10/31/2004

2000-NY-1002 Target V Phase I Development Associates, Multifamily Housing Program, Bronx, NY              12/08/1999   05/08/2000      Note 1

2000-FO-0002 Federal Housing Administration, Audit of Fiscal Year 1999 Financial Statements               02/29/2000   08/09/2000    12/31/2005

2000-FO-0003 Attempt to Audit the Fiscal Year 1999 Financial Statements, U.S. Department of HUD           03/01/2000   09/29/2000      Note 2

2000-AT-1005 Benson, NC Housing Authority, Public Housing Programs                                        03/27/2000   09/13/2000    05/30/2004

2000-SF-0001 Single Family Production                                                                     03/30/2000   01/19/2001      Note 2


                                                                       1
                                                                                                                      APPENDIX 2, TABLE B
  Report                                                                                                  Issue      Decision     Final
                                                               Report Title
  Number                                                                                                  Date        Date        Action

2000-SF-1001   San Francisco, CA Housing Authority, Low-Income Housing and Section 8 Programs           03/31/2000   09/01/2000    Note 1

2000-DP-0804 Department’s September 2000 Purchase of COTS Financial Management System                   09/29/2000   03/30/2001    Note 1

2000-KC-0002 Housing Subsidy Payments                                                                   09/29/2000   02/21/2001   09/30/2005

2000-SE-0003 Final Report of Nationwide Audit, Use of and Disposition of Residual Receipts              09/29/2000   08/15/2001   12/30/2003

2001-AT-1001   Housing Authority of the City of Miami Beach, FL                                         10/20/2000   02/13/2001    Note 1

2001-SF-1802 HUD Earthquake Loan Program Funds (HELP), Woodland Hills, CA                               02/08/2001   06/14/2001    Note 1

2001-DP-0801 Review of the Department’s Internet Privacy Status                                         02/21/2001   04/23/2001    Note 1

2001-FO-0002 Federal Housing Administration, Audit of Fiscal Year 2000 Financial Statements             03/01/2001   07/24/2001   12/21/2006

2001-FO-0003 Audit of HUD Fiscal Year 2000 Financial Statements                                         03/01/2001   07/18/2001    Note 2

2001-CH-1005 London, OH Metropolitan Housing Authority, Safeguarding of Monetary Assets and Inventory   03/22/2001   07/18/2001   03/17/2004

2001-SF-1803 Supportive Housing Program Grant, Los Angeles, CA                                          03/23/2001   07/24/2001    Note 1

2001-FO-0004 Review of HUD’s Internal Controls Over Fiscal Year1999 Annual Performance Data             03/28/2001   07/24/2001   01/31/2004

2001-NY-1002 Belmax Management Corp., Management Agent, Brooklyn, NY                                    04/17/2001   07/13/2001    Note 1

2001-PH-1005 Housing Authority of the City of Pittsburgh, PA                                            05/03/2001   02/06/2002   10/31/2003

2001-SF-1804 Supportive Housing Program Grant, County of Orange, Santa Ana, CA                          05/09/2001   09/26/2001    Note 1

2001-CH-1007 Detroit, MI Housing Commission, Hope VI Program                                            05/16/2001   09/13/2001   03/31/2006

2001-PH-0803 Philadelphia, PA Home Ownership Center, Single Family Disposition Activities               06/14/2001   06/14/2001    Note 2

2001-AT-0001   Nationwide Audit Results on the Officer/Teacher Next Door Program                        06/29/2001   01/29/2002   12/31/2003

                                                                              2
                                                                                                                          APPENDIX 2, TABLE B
  Report                                                                                                      Issue      Decision     Final
                                                               Report Title
  Number                                                                                                      Date        Date        Action
2001-FW-1005 Harmony House, Inc., Harrison AR, Supportive Housing Program                                   08/27/2001   12/21/2001    Note 2

2001-AO-0003 Drug Elimination Funds Used for the Creative Wellness Program                                  08/29/2001   01/22/2002 12/31/2003

2001-DP-0003 Real Estate Management System (REMS)                                                           09/28/2001   01/30/2002    Note 2

2001-KC-1005 First Community Resources, Inc., St. Louis, MO, Section 203(b) Home Mortgage Insurance Program 09/28/2001   01/17/2002 03/16/2004

2002-SF-0001 Nonprofit Participation, HUD Single Family Program                                             11/05/2001   08/30/2002    Note 2

2002-CH-1801 Housing Authority of the City of Evansville, IN                                                01/29/2002   05/18/2002 05/15/2005

2002-FO-0002 Federal Housing Administration, Audit of Fiscal Years 2001 and 2000 Financial Statements       02/22/2002   05/30/2002 12/31/2006

2002-NY-0001 Nationwide Audit - Asset Control Area Program, Single Family Housing                           02/25/2002   06/17/2002    Note 2

2002-FO-0003 U.S. Department of HUD, Audit of Fiscal Years 2001 and 2000 Financial Statements               02/27/2002   08/16/2002 01/30/2004

2002-DE-0001 Nationwide Review HUD’s Loss Mitigation Program (Follow-up)                                    02/28/2002   06/28/2002    Note 2

2002-PH-1001 City of Williamsport, PA, CDBG and HOME Investment Partnership Programs                        03/19/2002   09/04/2002    Note 2

2002-NY-1001 City of Ithaca, NY, Community Planning and Development Programs                                03/21/2002   07/23/2002    Note 2

2002-CH-1001 Ypsilanti, MI Housing Commission, Safeguarding Monetary Assets and Inventory                   03/26/2002   07/24/2002 12/31/2003

2002-BO-1001 City of Worcester, MA, CDBG Program                                                            03/27/2002   08/29/2002 07/01/2005

2002-BO-1003 Newport, RI Resident Council, Inc.                                                             04/30/2002   09/16/2002 01/15/2008

2002-PH-0002 Single Family Sales To Owner-Occupant Purchasers                                               06/10/2002   09/30/2002    Note 2

2002-AT-1002   City of Tupelo, MS Housing Authority, Housing Programs Operations                            07/03/2002   10/31/2002 04/30/2010

2002-AO-0001 The Grants Management Center’s Operations                                                      07/12/2002   11/18/2002 10/31/2003

                                                                          3
                                                                                                                            APPENDIX 2, TABLE B
 Report                                                                                                          Issue      Decision     Final
                                                           Report Title
 Number                                                                                                          Date        Date        Action
2002-AT-1003   National Scholarship Service and Veteran’s Opportunity and Resource Center, Atlanta, GA,        07/25/2002   10/21/2002 02/28/2004
               Supportive Housing Program Grant

2002-KC-0002 Nationwide Survey of HUD’s Office of Housing Section 232 Nursing Home Program                     07/31/2002   11/22/2002 06/30/2004

2002-SF-0801   HOME Investment Partnerships Program, City of Stockton, CA, and San Joaquin County, CA          07/31/2002   12/06/2002   Note 2

2002-DE-1004   Housing Advocacy Coalition, Colorado Springs, CO, Outreach and Training Assistance Grant        08/26/2002   03/31/2003 12/31/2003

2002-SF-1002   Oakland, CA Housing Authority, Rehabilitation of the 49th Street Housing Development            09/17/2002   02/06/2003 10/15/2003

2002-FW-1002 Houma, LA Housing Authority, Low-Rent Housing Program, Cash & Procurement Controls                09/18/2002   01/16/2003 11/30/2003

2002-KC-1003   Iowa Coalition for Housing and the Homeless, Des Moines, IA, Outreach and Training Assistance   09/19/2002   03/31/2003 12/31/2003
               Grant

2002-AT-1808   Homeless and Housing Coalition of Kentucky, Inc., Frankfort, KY, Outreach and Training          09/20/2002   03/31/2003 12/31/2003
               Assistance Grant

2002-NY-1004   Ironbound Community Corporation, Newark, NJ, Outreach and Training Assistance Grant and         09/23/2002   03/31/2003 12/31/2003
               Public Entity Grant

2002-NY-1005   The Legal Aid Society, New York, NY, Outreach and Training Assistance Grant and Public Entity   09/23/2002   03/31/2003 12/31/2003
               Grant

2002-DE-1005   Crossroads Urban Center, Salt Lake City, UT, Outreach and Training Assistance Grants            09/25/2002   03/31/2003 12/31/2003

2002-SF-1003   Los Angeles, CA Community Development Bank, Economic Development Initiative Grant/ Section      09/25/2002   01/27/2003 12/01/2003
               108 Loan Guarantee Program

2002-AT-1004   Ashley Crossings Apartment Homes, Largo, FL                                                     09/26/2002   09/26/2002 10/31/2003

2002-SF-1005   Housing Rights Committee of San Francisco Tides Center, San Francisco, CA, Outreach and         09/26/2002   03/31/2003 12/31/2003
               Training Assistance Grants


                                                                            4
                                                                                                                            APPENDIX 2, TABLE B
  Report                                                                                                          Issue    Decision    Final
                                                           Report Title
  Number                                                                                                          Date      Date       Action
2002-AT-1005   North Carolina Low-Income Housing Coalition, Inc., Raleigh, NC, Outreach and Training            09/27/2002 03/31/2003 12/31/2003
               Assistance Grant and Intermediary Training Assistance Grant

2002-AT-1006   Ridgeview Manor Apartments, Hopkins, SC                                                          09/30/2002 11/19/2002 11/01/2003

2002-BO-1004   Anti-Displacement Project, Springfield, MA, Outreach and Training Assistance Grant               09/30/2002 03/31/2003 12/31/2003

2002-DE-1002   Affordable Housing and Homeless Alliance, Honolulu, HI, Outreach and Training Assistance Grant   09/30/2002 03/31/2003 12/31/2003
               and Intermediary Outreach and Training Assistance Grant

2002-FW-1003   New Mexico Public Interest Education Fund, Albuquerque MN, Outreach and Training Assistance      09/30/2002 03/31/2003 12/31/2003
               Grant and Public Entity Grant, Albuquerque NM

2002-PH-1002   Virginia Poverty Law Center, Richmond, VA, Outreach and Training Assistance Grant                09/30/2002 03/31/2003 12/31/2003

2002-PH-1003   Delaware Housing Coalition, Dover, DE, Outreach and Training Assistance Grant and Intermediary   09/30/2002 03/31/2003 12/31/2003
               Training Assistance Grant

2002-PH-1004   Tenants’ Action Group of Philadelphia, PA, Outreach and Training Assistance Grant                09/30/2002 03/31/2003 12/31/2003

2002-PH-1006   Legal Aid Bureau, Inc., Baltimore, MD, Outreach and Training Assistance Grant                    09/30/2002 03/31/2003 12/31/2003

2002-PH-1007   Legal Aid Bureau, Inc., Baltimore, MD, Outreach and Training Assistance Grant                    09/30/2002 03/31/2003 12/31/2003

2002-SF-1004   Low-Income Housing Fund, Oakland, CA, Intermediary Training Assistance Grant                     09/30/2002 03/31/2003 12/31/2003

2002-SF-1006   Legal Aid Society of Honolulu, HI, Outreach and Training Assistance Grant                        09/30/2002 03/31/2003 12/31/2003

2002-SF-1007   Southern Arizona People’s Law Center, Tucson, AZ, Outreach and Training Assistance Grant         09/30/2002 03/31/2003 12/31/2003

2003-DE-1002   Delta, CO Housing Authority, Low-Rent Housing and Section 8 Housing Assistance Payments          10/07/2002 01/29/2003 12/31/2004

2003-DE-1001   Sicangu Wicoti Ananyakape Corp., Rosebud, SD, Indian Housing Block Grant Program                 10/08/2002 02/28/2003 12/31/2004

2003-AT-1801   South Carolina Regional Housing Authority No. 3, Barnwell, SC                                    10/09/2002 02/06/2003 9/15/2004

                                                                       5
                                                                                                                                 APPENDIX 2, TABLE B
 Report                                                                                                                 Issue    Decision     Final
                                                           Report Title
 Number                                                                                                                 Date      Date        Action
2003-DE-1003 Audit of June 1998 Memorandum of Understanding Between HUD’s Office of Multifamily Housing and           10/28/2002 03/31/2003 12/31/2003
             the Corporation for National Service, Washington, DC

2003-CH-1003   Tenants United for Housing, Inc., Chicago, IL, Outreach and Training Assistance Grants                 10/29/2002 03/31/2003 12/31/2003

2003-DP-0801   Annual Evaluation of HUD’s Information Security Program                                                10/30/2002 01/21/2003 11/01/2003

2003-CH-1004   Indiana Coalition on Housing and Homeless Issues, Indianapolis, IN, Outreach and Training Assistance   10/31/2002 03/31/2003 12/31/2003
               Grant

2003-SE-1001   Community Alliance of Tenants, Portland, OR, Outreach and Training Assistance Grant                    10/31/2002 03/31/2003 12/31/2003

2003-KC-1801   University Forest Nursing Care Center, University City, MO                                             11/14/2002 02/24/2003 12/03/2003

2003-SE-1002   Tenants Union, Seattle, WA, Outreach and Training Assistance Grant and Intermediary Training           12/02/2002 03/31/2003 12/31/2003
               Assistance Grant

2003-AO-1001   National Center of Tenants Ownership, Washington, DC, Intermediary Training Assistance Grant           12/03/2002 03/31/2003 12/31/2003

2003-DP-0802   General Information Technology Controls at Affiliated Computer Services – Governmental Services,       12/03/2002 06/05/2003    Note 2
               Inc. (ACS)

2003-AO-1002   National Housing Trust, Washington, DC, Outreach and Training Assistance Grant                         12/09/2002 03/31/2003 12/31/2003

2003-PH-1001   Norfolk and Portsmouth VA, Review of the Joint Empowerment Zone Program                                12/20/2002 03/24/2003 10/30/2003

2003-KC-1003   St. Louis, MO/East St. Louis, IL Empowerment Zone Program                                              12/26/2002 04/18/2003 12/30/2003

2003-CH-1006   Cities of Huntington, WV and Ironton, OH Empowerment Zone Program                                      12/31/2002 08/08/2003 01/31/2004

2003-CH-1007   City of Minneapolis, MN Empowerment Zone Program                                                       01/03/2003 08/08/2003 01/31/2004

2003-AT-1001   Northwestern Regional Housing Authority, Boone, NC, Public Housing Programs                            01/09/2003 06/02/2003 03/10/2004

2003-KC-1004   First Horizon Home Loans, Irving, TX, Non-Supervised Direct Endorsement Lender                         01/17/2003 04/28/2003 01/16/2004

                                                                            6
                                                                                                                        APPENDIX 2, TABLE B
 Report                                                                                                    Issue      Decision     Final
 Number                                                    Report Title                                    Date        Date        Action
2003-FO-0002 Federal Housing Administration, Audit of Fiscal Years 2002 and 2001 Financial Statements    01/21/2003   05/22/2003    Note 2

2003-CH-1008 City of Cleveland Heights, OH, Housing Preservation Program                                 01/23/2003   06/10/2003   12/31/2003

2003-PH-1002 Philadelphia, PA Housing Authority, Contracting and Purchasing Activity                     01/27/2003   06/11/2003   12/31/2003

2003-CH-1009 City of Cincinnati, OH Empowerment Zone Program                                             01/28/2003   08/08/2003   01/31/2004

2003-FO-0004 Audit of HUD’s Financial Statements, Fiscal Years 2002 and 2001                             01/31/2003   05/22/2003 02/28/2005

2003-NY-1001 Marion Scott Real Estate, Inc., Management Agent, New York, NY                              02/12/2003   06/13/2003   12/31/2003

2003-FW-1001 Housing Authority of the City of Morgan City, LA, Low-Rent Program                          02/21/2003   06/20/2003 08/17/2004

2003-AT-0001 Ginnie Mae Review of Internal Controls, Washington, DC                                      03/05/2003   03/05/2003 12/30/2003

2003-BO-1001 Farmington Health Care Center, Farmington, CT                                               03/07/2003   07/15/2003   02/28/2004

2003-KC-1005 Choice Enterprises, Inc., Denver, CO                                                        03/10/2003   08/15/2003 03/22/2004

2003-BO-1002 People to End Homelessness, Providence, RI, Outreach and Training Assistance Grants         03/12/2003   03/31/2003   12/31/2003

2003-KC-0801 Inappropriate Home Ownership Center Instructions, Denver, CO                                03/18/2003   08/08/2003 03/18/2004

2003-AT-1002 Procurement of Management Agents, Puerto Rico Public Housing Administration, San Juan, PR   03/21/2003   07/17/2003   12/31/2003

2003-CH-1010 Coshocton, OH Metropolitan Housing Authority, Section 8 Housing Program                     03/21/2003   05/30/2003   12/31/2008

2003-AT-1003 Fairfield, AL Housing Authority, Housing Programs                                           03/24/2003   07/22/2003   07/01/2004

2003-CH-1011 Coshocton, OH Metropolitan Housing Authority, Comprehensive Improvement Assistance Program 03/24/2003    06/10/2003   12/31/2062

2003-KC-1803 Richmond Terrace Retirement Center, Richmond Heights, MO                                    03/24/2003   06/19/2003   10/31/2003

2003-CH-1012 Coshocton, OH Metropolitan Housing Authority, Tenant Opportunities Program                  03/25/2003   05/30/2003   12/01/2003

                                                                       7
                                                                                                                                    APPENDIX 2, TABLE B
  Report                                                                                                                Issue       Decision    Final
  Number                                                     Report Title                                               Date         Date       Action
2003-NY-1003 Empire State Development Corporation, New York, NY, CDBG Disaster Assistance Funds                       03/25/2003 07/16/2003 01/15/2005

2003-CH-1013 Coshocton, OH Metropolitan Housing Authority, Public Housing Drug Elimination Program                    03/26/2003 07/01/2003 12/31/2003

2003-DE-1004 Pryme Investment and Mortgage Brokers, Inc., Murray, UT, Nonsupervised Loan Correspondent                03/27/2003 06/27/2003 12/31/2004

2003-CH-1014 Coshocton, OH Metropolitan Housing Authority, Public Housing Program                                     03/28/2003 07/28/2003 06/30/2005

2003-DE-0001 HUD Office of Multifamily Housing Assistance Restructuring’s (OMHAR) Oversight of the Section 514        03/31/2003 03/31/2003       Note 2
             Program Activities




 AUDITS EXCLUDED:                                                     NOTES:

 22 audits under repayment plans                                      1     Management did not meet the target date. Target date is over 1 year old.
 19 audits under formal judicial review, investigation, or            2     Management did not meet the target date. Target date is under 1 year old.
    legislative solution

                                                                              8
                                                                                                                                                            APPENDIX 2

                                                                             TABLE C
                                                      INSPECTOR GENERAL ISSUED R EPORTS WITH
                                                 Q UESTIONED AND UNSUPPORTED C OSTS AT 09/30/2003
                                                              (D OLLARS IN THOUSANDS )
                                                                                                               Number of              Questioned       Unsupported
                                                   Reports
                                                                                                              Audit Reports             Costs             Costs
            For which no management decision had been made by the commencement of the
    A1                                                                                                               19                    $11,053         $1,686
            reporting period
            For which litigation, legislation or investigation was pending at the commencement
    A2                                                                                                                 7                   $29,178        $15,354
            of the reporting period
    A3      For which additional costs were added to reports in beginning inventory                                   —                     $3,326              0
    A4      For which costs were added to non-cost reports                                                             1                          50            0
    B1      Which were issued during the reporting period                                                            30                    $46,689        $30,202
    B2      Which were reopened during the reporting period                                                            0                           0            0
                                                                                      Subtotals (A + B)              57                    $90,296        $47,242
    C       For which a management decision was made during the reporting period                                     301                   $46,657        $19,373
            (1) Dollar value of disallowed costs:
                                                                                                                      62                      $408           $260
                Due HUD
                                                                                                                     25                    $41,480        $16,614
                Due Program Participants
            (2) Dollar value of costs not disallowed                                                                 103                    $4,769         $2,499
            For which management decision had been made not to determine costs until
    D                                                                                                                  6                   $13,149         $4,799
            completion of litigation, legislation or investigation
            For which no management decision had been made by the end of the reporting                             21                    $30,490          $23,070
    E
            period                                                                                                <48>4                <$30,490>4       <$23,070>4




______________________
1
        5 audit reports also contain recommendations with funds to be put to better use.
2
        3 audit reports also contain recommendations with funds due program participants.
3
        8 audit reports also contain recommendations with funds agreed to by management.
4
        The figures in brackets represent data at the recommendation level as compared to the report level. See Explanations of Tables C and D.
                                                                                                                                                          A PPENDIX 2

                                                                               TABLE D
                                                 INSPECTOR GENERAL ISSUED R EPORTS
                                 WITH R ECOMMENDATIONS THAT F UNDS B E P UT TO B ETTER U SE AT 09/30/2003
                                                       (D OLLARS IN THOUSANDS)

                                                                                                                                         Number of        Dollar
                                                               Reports
                                                                                                                                        Audit Reports     Value
    A1     For which no management decision had been made by the commencement of the reporting period                                              7    $1,168,558
    A2     For which litigation, legislation or investigation was pending at the commencement of the reporting period                              3     $521,211
    A3     For which additional costs were added to reports in beginning inventory                                                                —-               0
    A4     For which costs were added to non-cost reports                                                                                          1          317
    B1     Which were issued during the reporting period                                                                                          11      $26,432
    B2     Which were reopened during the reporting period                                                                                         0               0
                                                                                                                Subtotals (A + B)                 22    $1,716,518
    C      For which a management decision was made during the reporting period                                                                   101   $1,172,264
           (1) Dollar value of recommendations that were agreed to by management:
                                                                                                                                                  72    $1,157,489
               Due HUD
                                                                                                                                                   3       $12,795
               Due Program Participants
           (2) Dollar value of recommendations that were not agreed to by management                                                               43      $1,980
           For which management decision had been made not to determine costs until completion of litigation,
    D                                                                                                                                              3     $520,302
           legislation or investigation
                                                                                                                                               9         $23,952
    E      For which no management decision had made by the end of the reporting period
                                                                                                                                             <11>4      <23,952>4



_________________
1
        5 audit reports also contain recommendations with questioned costs.
2
        1 audit report also contains recommendations with funds due program participants.
3
        3 audit reports also contain recommendations with funds agreed to by management.
4
        The figures in brackets represent data at the recommendation level as compared to the report level. See Explanations of Tables C and D.
                                                                                                                                           APPENDIX 2
EXPLANATIONS OF TABLES C AND D

    The Inspector General Act Amendments of 1988 require Inspectors General and agency heads to report cost data on management decisions and
final actions on audit reports. The current method of reporting at the “report” level rather than at the individual audit “recommendation” level results
in misleading reporting of cost data. Under the Act, an audit “report” does not have a management decision or final action until all questioned cost
items or other recommendations have a management decision or final action. Under these circumstances, the use of the “report” based rather than the
“recommendation” based method of reporting distorts the actual agency efforts to resolve and complete action on audit recommendations. For ex-
ample, certain cost items or recommendations could have a management decision and repayment (final action) in a short period of time. Other cost
items or nonmonetary recommendation issues in the same audit report may be more complex, requiring a longer period of time for management’s
decision or final action. Although management may have taken timely action on all but one of many recommendations in an audit report, the current
“all or nothing” reporting format does not take recognition of their efforts.

   The closing inventory for items with no management decision on Tables C and D (Line E) reflects figures at the report level as well as the
recommendation level.
       Report fraud, waste and mismanagement in
             HUD programs and operations by:



Calling the OIG Hotline:     1-800-347-3735



Faxing the OIG Hotline:      202-708-4829



Sending written information to:
               Department of Housing and Urban Development
               Inspector General Hotline (GFI)
               400 Virginia Ave., SW, Room C-120
               Washington, DC 20024




Emailing the OIG Hotline: hotline@hudoig.gov


Internet: http://www.hud.gov/complaints/fraud_waste.cfm


             All information is confidential and
                you may remain anonymous.
                                   U.S. Department of Housing
Semiannual Report to Congress




                                    and Urban Development
as of September 30, 2003

www.hud.gov/offices/oig




No. 50           HUD-2003-12-OIG
